<html>
<title> - THE WESTERN HEMISPHERE TRAVEL INITIATIVE: PERSPECTIVES OF A COMMUNITY ON THE U.S.-CANADA BORDER</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





               THE WESTERN HEMISHPERE TRAVEL INITIATIVE:
                   PERSPECTIVES OF A COMMUNITY ON THE
                           U.S.-CANADA BORDER

=======================================================================

                                  FULL

                             FIELD HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 20, 2007

                               __________

                           Serial No. 110-58

                               __________

       Printed for the use of the Committee on Homeland Security



         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  Available via the World Wide Web: http://www.gpoaccess.go/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
48-932 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON-LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                  (ii)

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania.................................    20
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    24
The Honorable Louise McIntosh Slaughter, a Representative in 
  Congress From the State of New York............................    28

                               Witnesses
                                Panel I

Mr. Kelly Johnston, Vice-Chair, Canadian American Business 
  Council:
  Oral Statement.................................................    47
  Prepared Statement.............................................    49
Mr. Paul Koessler, Vice Chairman, Buffalo and Fort Erie Public 
  Bridge Authority:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38

Ms. Kathleen A. Lynch, Sister of FF Michael F. Lynch, FDNY E40/
    L35
  on Rotation from E62/L32, Representing Families of Western New 
  York:
  Oral Statement.................................................    43
  Prepared Statement.............................................    45
Mr. Stewart Verdery, Partner and Founder, Monument Policy Group..    52
Mr. Howard Zemsky, Partner, Taurus Capital Partners LLC,
  Oral Statement.................................................    40
  Prepared Statement.............................................    42

                                Panel II

Ms. Ann Barrett, Deputy Assistant Secretary, Passport Services, 
  Department of State:
  Oral Statement.................................................    12
  Prepared Statement.............................................    15
Mr. Robert Jacksta, Executive Director, Traveler Security and 
  Facilitation, Customs and Border Protection, Department of 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Paul Rosenzweig, Acting Assistant Secretary, Policy and 
  International Affairs, Department of Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     8

                             For the Record

Prepared Statements:
  Ms. Kathleen Courtney Hochul, Erie County Clerk................    61
  BESTT Coalition, Business for Economic Security, Trade and 
    Tourism Coalition of the U.S. and Canada, submitted by Ms. 
    Kathleen Courtney Hochul.....................................    62
  The Honorable Bart Stupak, a Representative in Congress From 
    the State of Michigan joint with the Honorable John M. 
    McHugh, a Representative in Congress From the State of New 
    York.........................................................    68

                                Appendix

Additional Questions and Responses:
  Responses from Ms. Ann Barrett.................................    71
  Responses from Mr. Robert Jacksta..............................    73
  Responses from Mr. Paul Koessler...............................    74
  Responses from Mr. Paul Rosenweig..............................    75

 
                     THE WESTERN HEMISPHERE TRAVEL
                     INITIATIVE: PERSPECTIVES OF A
                      COMMUNITY ON THE U.S.-CANADA
                                 BORDER

                              ----------                              


                         Friday, July 20, 2007

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:31 a.m., in Erie 
County Legislature Chambers, 92 Franklin Street, Buffalo, New 
York, Hon. Bennie G. Thompson [chairman of the committee] 
presiding.
    Members Present: Representatives Thompson, Carney and 
Green.
    Also Present: Representative Slaughter.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The Committee is meeting today to receive testimony 
regarding the impact that implementation of the Western 
Hemisphere Travel Initiative may have along the northern border 
and to explore the Administration's plans for WHTI 
implementation following DHS's announcement of its proposed 
rules for land and sea implementation.
    I would like to acknowledge in her absence and en route to 
the meeting Representative Slaughter, who will be here with us 
today. Ms. Slaughter is not a member of the Committee but has 
asked to participate in today's hearing.
    Ms. Slaughter is a leading Congresswoman on Western 
Hemisphere Travel Initiative matters and a great advocate for 
her district on this important issue. Therefore, consistent 
with the rules and practices of the Committee, we're pleased to 
honor her request.
    I now ask unanimous consent to allow Representative 
Slaughter to sit and question witnesses at today's hearing.
    Without objection, it is so ordered.
    I'm pleased to be here in Buffalo today for the Committee 
on Homeland Security's hearing, the Western Hemisphere Travel 
Initiative: Perspectives of a Community on the U.S.-Canada 
Border.
    I'd like to thank my friend Ms. Slaughter for urging, and 
when I say ``urging,'' I don't want to give you under any doubt 
that every time I would see Ms. Slaughter on the floor voting, 
she would bring up the Peace Bridge and everything else in 
Buffalo.
    Perhaps if she had provided Mr. Carney with--and myself 
with some original Buffalo wings, we might have been here 
sooner, but nonetheless, we're here, and obviously, it's 
important that we are here, and you have a wonderful 
representative in Ms. Slaughter.
    Today we will hear from several--several local stakeholders 
about the potential detrimental effects of WHTI on Buffalo and 
other communities along America's northern border.
    We will also hear testimony about the importance of WHTI to 
our nation's security and learn more about the Administration's 
plan to implement the requirements at land and sea ports.
    Like many of my colleagues and most Americans, I strongly 
support the goals of WHTI, which was mandated in response to a 
recommendation of the 9/11 Commission.
    At the same time, I'm very concerned about the troubled 
implementation of WHTI to date.
    In January, the WHTI rule for air travelers took effect, 
requiring every person arriving in the U.S. to present a 
passport.
    As Americans rushed to get passports to comply with the new 
rule, the surge in demand overwhelmed the State Department's 
capacity to issue passports, creating an unprecedented backlog.
    These problems underscore the potential consequences for 
travel, tourism, and commerce when Americans are required to 
have documents that our government cannot make available in a 
timely manner.
    As me move toward implementation of WHTI at our land 
borders, where disruptions to commerce and tourism could 
inflict significant damage to the economics of both sides of 
the border, we need to make certain that these mistakes are not 
repeated.
    It is my hope that today's hearing will help ensure that 
the Western Hemisphere Travel Initiative is implemented and 
implemented right.
    I look forward to hearing from our first panel of witnesses 
about the particular pitfalls they see in this region in the 
land and sea implementation proposed by the Department of 
Homeland Security and State, and I look forward to hearing from 
our second panel of witnesses about how they plan to implement 
the land and sea stage of WHTI in a manner that takes into 
account the legitimate needs of a border such as this one.
    But we will take the second panel first to get the 
government witnesses out, and then we'll hear from our local 
community witnesses on the second panel.
    Again, thank you for having us here in Buffalo today.
    Chairman Thompson. I'd like to also introduce 
Representative Chris Carney, who is Chairman of our Oversight 
and Management Committee on the Homeland Security Committee, 
who hails from Pennsylvania, and we're happy to have him.
    We will be joined shortly by, as I said, Congresswoman 
Slaughter and Congressman Al Green from Houston, Texas, who are 
also members of the Committee.
    Again, I want to thank everyone for being here this 
morning. I appreciate the interest in this hearing as shown by 
the number of people who turned out today.
    Because this is an official Congressional hearing as 
opposed to a Town Hall meeting, we have to abide by certain 
rules of the Committee and the House of Representatives.
    So we kindly ask that there be no applause of any kind or 
any kind of demonstration with regard to the testimony.
    Other members on the Committee are reminded that under 
Committee rules, opening statements may be submitted for the 
record.
    Chairman Thompson. I would also like to recognize Ms. 
Kathleen Hochul, who is our executive--who is our County Clerk 
here, who has some testimony that she will submit for the 
record in the hearing, given that many of the areas of 
responsibility that will be discussed today she has the 
burdensome responsibility of implementing.
    So we look forward to submission of your testimony today.
    Our first witness is Mr. Paul Rosenzweig, who is Acting 
Assistant Secretary for Policy and International Affairs in the 
Department of Homeland Security. He is responsible for 
developing policy, strategic plans, and international 
approaches to various homeland security activities ranging from 
immigration and border security to avian flu and international 
data protection rules.
    Our second witness is Mr. Robert Jacksta, Executive 
Director of Traveler Security and Facilitation at Customs and 
Border Protection's Office of Field Operations. He is 
responsible for implementing passenger programs to combat 
international terrorism and smuggling and particularly programs 
related to processing passengers entering and exiting the 
United States.
    Our third witness is Ms. Ann Barrett. Ms. Barrett serves as 
Deputy Assistant Secretary for Passport Services of the Bureau 
of Consular Affairs at the Department of State. She is 
responsible for overall management of the Department efforts to 
adjudicate and produce passports for millions of American 
citizens, customers, each year.
    Without objection, the witnesses' full statement will be 
entered into the record.
    I'll now ask each witness to summarize here his or her 
statement for five minutes, beginning with Mr. Rosenzweig.

   STATEMENT OF PAUL ROSENZWEIG, ACTING ASSISTANT SECRETARY, 
   POLICY AND INTERNATIONAL AFFAIRS, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Rosenzweig. Chairman Thompson, Congressman Carney, 
thank you very much for the invitation to appear before you 
today. It's one of the oddities of the Department of Homeland 
Security that, though I've been with the Department for nearly 
two years now, this is actually the first time I've managed to 
get an invitation to testify in front of our home Committee, 
the Homeland Security Committee, having previously testified 
before Foreign Affairs and Judiciary.
    So I'm glad to finally be welcomed to our home Committee.
    The panoply of committees where I have testified, however, 
reflects the breadth of the interests that face the Department, 
and today we talk about just one piece of that: control of our 
borders.
    It's important, I think, before discussing the 
implementation plans, to remember and recall why we are here. 
As the 9/11 Commission wrote:
    For terrorists, travel documents are as important as 
weapons. Terrorists must travel clandestinely to meet, train, 
plan, case targets, and gain access to attack. To them, 
international travel presents great danger, because they must 
surface to pass through regulated channels, to present 
themselves to border security officials, or attempt to 
circumvent inspection points.
    And that's precisely what the Western Hemisphere Travel 
Initiative is about: strengthening the regulated channels of 
entry to our United States and using the border as part of our 
layered security.
    In some ways, the passport challenges that you alluded to 
in your opening statement faced by our colleagues at the 
Department of State are a testament to our success. We have 
begun implementing enhanced controls of our borders in the air 
portion of transit for the Western Hemisphere, and that has 
indeed contributed to driving up the demand for passports, but 
it's important to recall that that demand is driven by an 
underlying concern for the security of our nation.
    Now, as you know, the Western Hemisphere Travel Initiative 
has been implemented in two separate phases.
    The first, the air phase, went into effect on January 23rd 
of this year, and from our perspective, it has proven a great 
success.
    As recently as yesterday, greater than 99.3 percent of the 
people arriving in the United States arrived in compliance with 
the air rule. That reflects 471 people who arrived without 
appropriate documentation out of a great--a number of greater 
than 74,000 arrivals on that single day.
    And that has been the history of compliance throughout the 
implementation of the air phase.
    Equally important, air traffic is up. Arrivals from the 
Caribbean, Canada, and Mexico exceed today the number of 
arrivals for a comparable period in the last year, reflecting, 
in our judgment, the success with which we've managed to 
implement the air phase without adversely affecting economic 
travel and facilitation.
    Now, to be sure, the difficulties in passport issuance have 
led us to adopt a lenient approach with respect to those 
Americans who have been unable to get their passports, but this 
is nothing more than a traditional application of the parole 
authority held by all Customs and Border Protection agents to 
admit people notwithstanding the absence of appropriate 
documentation.
    Thus, as we announced last month, through at least 
September 30th of this year, we will allow people to arrive by 
air in the United States from Canada, Mexico, and the Caribbean 
holding only a government identification card with picture and 
a receipt demonstrating that they have sought a passport from 
the Department of State.
    Now, the second phase of WHTI, more applicable to the 
Buffalo region where we are today, is--is the implementation of 
the land and sea rule, and there, too, we are taking a 
graduated, flexible, phased approach.
    The first portion of the land rule will be implemented 
January 31st of next year under the Notice of Proposed 
Rulemaking that we've issued.
    At that point, we are proposing to end the practice of 
allowing people to enter the United States simply on oral 
declarations--that is, simply on a declaration that I am a 
United States citizen--and we are also proposing to eliminate 
many of the 8,000-plus documents that are nonstandard, 
nongovernment-issued identification cards.
    If you arrive at the Peace Bridge today here in Buffalo, 
you may be permitted to enter not only on an oral declaration 
but on presentation of a baptismal certificate or even a 
library card.
    We intend in the first phase early next year to reduce that 
down to a manageable number of government issued identification 
cards with a much higher degree of fidelity to them.
    I should add that, recognizing that a flexible approach to 
the border is necessary, we've also announced that beginning in 
January of next year, we will have a--an enhanced flexibility 
for children arriving in the United States.
    We have determined already to propose that we will not 
require children to get passports or other--or pass cards or 
other government-issued identification cards.
    If you are under the age of 16, you will be permitted to 
travel carrying a certified copy of your birth certificate.
    If you're between the ages of 16 and 18, you'll be 
permitted to do so as well with the birth certificate if you 
are in a recognized social group: a hockey team or a--a school 
choir, for example.
    Now, the second phase of WHTI will be implemented in the 
summer of next year, roughly a year from now. The precise date 
will, of course, be variable depending upon our success in 
ensuring that the requisite travel documents are put in--in the 
hands of the people who will need them.
    At that time, we intend to narrow further the number of 
acceptable documents to be presented for arrival in the United 
States down to a few highly secure documents that denote both 
identification and citizenship.
    Those would include a passport, a proposed pass card to be 
issue by the Department of State, as well as our NEXUS, SENTRI, 
and FAST--our NEXUS, SENTRI, and FAST trusted traveler cards.
    In addition, we have begun piloting a program with 
Washington State to--to revive the issuance of enhanced 
driver's licenses, that is, driver's license cards with an 
enhanced RFID chip in them that also denotes securely 
identification and citizenship.
    We believe that with this set of new cards, we will provide 
to everybody--should I stop, sir? I would be happy to.
    Chairman Thompson. I know this is your first time before 
the Committee, but kind of wrap it up.
    Mr. Rosenzweig. Okay. Sure. I was reaching the end.
    We believe, actually, that these new cards will actually 
enhance travel facilitation. The programmatic environmental 
assessment that was issued by the Department in June of this 
year demonstrates through our analysis that indeed, by coming 
down to a smaller number of standardized cards, we will reduce 
linger time at--at the border and actually speed up throughput 
through the--through the bridges both here in Buffalo and 
across the northern border.
    With a machine readable zone or an RFID technology, we 
actually anticipate a substantial reduction in wait time with 
concomitant travel facilitation and, frankly, environmental 
impact benefits that are yet to be seen.
    Indeed, working together with our state and local partners 
as well as with the Canadian government, who I have not 
mentioned yet, we anticipate seeing long-term travel 
facilitation benefits of significant value to both Buffalo and 
the remainder of the Northern Tier.
    Thank you.
    Chairman Thompson. Thank you very much.
    We've been joined by Congresswoman Slaughter and 
Congressman Green. We are glad to see them, and at the changing 
of the panels, we will have an opening statement from 
Congresswoman Slaughter.
    Little logistical. Is that our only timer? Okay.
    We actually have a little timer here that we're going to 
try to--maybe we need to turn it a little bit so--yes, right, 
turn it all the way.
    All right. That's five--that's your five minutes. Okay. 
Thank you for your testimony.
    I now recognize Mr. Jacksta to summarize his statement for 
five minutes.

   STATEMENT OF ROBERT JACKSTA, EXECUTIVE DIRECTOR, TRAVELER 
 SECURITY AND FACILITATION, CUSTOMS AND BORDER PROTECTION, DHS

    Mr. Jacksta. Good morning, Chairman Thompson, Congresswoman 
Slaughter, Mr. Carney, and Mr. Green. I appreciate the 
opportunity to be here and to represent CBP, Customs and Border 
Protection, today to discuss the WHTI effort as well as our 
NEXUS program.
    Before I start, I would like to recognize three of our CBP 
officers that are sitting on our side that represent the 18,000 
CBP officers at our ports of entry.
    In addition, one of those officers, CBP Officer Eckert, and 
his two sisters are here, and they lost a family member on 9/
11, and it's an extremely important program for them to follow 
also, beginning with Customs has an enormous challenge.
    We share more than 7,000 miles of border with Canada and 
Mexico and operate 325 ports of entry. Each day, CBP officers 
inspect more than 1.1 million travelers and examine their 
documents, baggage, and conveyances.
    During fiscal year 2006, CBP welcomed over 422 million 
travelers to our nation's borders; however, in this largely 
compliant group of travelers, more than 209,000 individuals 
were apprehended at our ports of entry trying to cross the 
border with fraudulent claims or false documents.
    In addition, CBP seized over 646,000 pounds of illegal 
narcotics.
    These are the types of documents that our CBP officers see 
on a daily basis, and I'll provide them to the Committee to 
take a look at.
    These are documents that our officers have to review and, 
in a few seconds, make decisions on whether they are valid 
documents and make decisions on whether the person is 
admissible.
    We recognize how important this region is in protecting our 
nation's borders, and we are committed to ensuring that our 
land, air, and sea ports are not vulnerable.
    In fiscal year 2006, the Port of Buffalo cleared over 6 
million passenger vehicles, cleared over 16 million travelers. 
We refused entry to close to 18,000 individuals. 3,000 of them 
had criminal records. We made 602 arrests in the Buffalo area.
    We also cleared over 29,000 busses, 2900 trains, and over 
2100 planes.
    In addition, in the Buffalo area, we have 27,000 
individuals enrolled in our trusted traveler program called 
NEXUS.
    NEXUS is an extremely important program to the Buffalo-
Niagara region. In fact, over 270,000 crossings take place at 
the Peace Bridge on a yearly basis, and through the whole area, 
we process close to 429,000 individuals through the trusted 
traveler programs.
    These numbers clearly reflect the vitality of the region 
for our nation's economy.
    The Department of Homeland Security, in partnership with 
the Department of State, is working to secure our homeland by 
strengthening our ability to identify accurately all persons, 
U.S. citizens and potential visitors alike, before they enter 
the United States. We accomplish this through instituting 
documentation requirements for entry into the United States.
    Our approach to implementing the Western Hemisphere Travel 
Initiative, which is both a statutory mandate and a 9/11 
Commission recommendation, will increase the security while 
also facilitating trade and travel.
    The institution of a travel document requirement and the 
standardization of travel documents are critical steps to 
securing our nation's borders and will help our CBP officers 
determine if people are admissible into the United States.
    As Mr. Rosenzweig mentioned, we have close to 8,000 
documents that we are required to look at. You have an example 
of some of those: driver's licenses, birth certificates, 
naturalization papers, all documents today that individuals can 
present to our officers, and we have to make very quick and 
important decisions.
    Through its requirements that an individual carry a 
passport or other limited sets of acceptable documents, WHTI 
will greatly reduce the opportunity for fraud or 
misrepresentation of one's true identity.
    Advanced technology embedded in travel documents with the 
appropriate privacy protections and infrastructure will allow 
CBP officers at the ports of entry the ability to verify an 
individual's identity and citizenship.
    We recognize that there are a number of concerns about the 
potential impact of WHTI on border communities. No one knows 
better than the frontline CBP officers at our nation's border 
that WHTI represents a social and cultural change.
    However, WHTI is a key step in creating a smarter, more 
efficient and secure border that includes these document 
controls.
    Mr. Chairman, Congresswoman Slaughter, other 
Representatives, I've outlined simply what we're trying to do 
with WHTI and how it will help DHS, CBP officers, and our 
country in protecting our borders.
    Thank you again for your support over the years, and I will 
be ready to answer any type of questions at the end of the 
opening statements.
    [The statement of Mr. Jacksta follows:]

     Prepared Joint Statement of Paul Rosenweig and Robert Jacksta

    Chairman Thompson, Ranking Member King, and other distinguished 
Members of the Committee. We are pleased to appear before you today in 
the beautiful Buffalo-Niagara region to discuss how the identity 
documents used to gain entry at our land, sea, and air borders affect 
security, free trade, and free travel. The Department of Homeland 
Security (DHS), in partnership with the Department of State (DOS), is 
working to secure our homeland by strengthening our ability to identify 
accurately all persons--U.S. citizens and potential visitors alike--
before they enter the United States. We are accomplishing this through 
instituting documentation requirements for entry into the United 
States. Our approach to implementing the Western Hemisphere Travel 
Initiative (WHTI), which is both a statutory mandate and 9/11 
Commission recommendation, will increase security while also 
facilitating trade and the flow of legitimate travelers.
    First, we would like to thank the Committee for its support for 
important initiatives to enhance the security of the United States. 
Your continued support has enabled DHS to make significant progress in 
securing our borders and protecting our country against terrorist 
threats. DHS looks forward to working with you to build upon these 
successes.
    WHTI is necessary to strengthen our security while also 
facilitating the flow of legitimate trade and travel into the U.S. 
Currently, U.S., Canadian, and Bermudian citizens entering the United 
States across our land and sea borders are not required to present or 
carry any specific set of identity or citizenship documents. Not 
surprisingly, this significantly complicates our ability to verify that 
people are who they say they are in a matter of seconds. In an era when 
we, as a country, were less concerned about the security threats posed 
by persons seeking to enter or re-enter our country, a mere verbal 
declaration of citizenship, if credible, could suffice. Now, both 
Congress and the Administration recognize that this practice must end.
    WHTI is an important program for residents of the Buffalo-Niagara 
region and for our officers stationed at the four bridges in the 
Buffalo area: the Rainbow Bridge, Peace Bridge, Whirlpool Bridge, and 
Lewiston Bridge. In fiscal year 2006, over six million passenger 
vehicles entered the United States via these four bridges. We recognize 
the vitality of this region for our nation's economy, as we welcome 
visitors from other nations to visit the majestic Niagara Falls. 
However, we also recognize how important protecting our nation's 
borders is and we are committed to ensuring that our land, air and sea 
ports are safe.

The Importance of Travel Documents
    The institution of a travel document requirement and the 
standardization of travel documents are critical steps to securing our 
Nation's borders and increasing the facilitation of legitimate 
travelers. Currently, some travelers at our land and sea ports of entry 
may present any of thousands of different documents to Customs and 
Border Protection (CBP) officers when attempting to enter the United 
States, creating a tremendous potential for fraud. In fiscal year 2006 
alone, more than 209,000 individuals were apprehended at the ports of 
entry trying to cross the border with fraudulent claims of citizenship 
or false documents.
    Access to our nation is critical for a terrorist to plan and carry 
out attacks on our homeland. As the 9/11 Commission's Final Report 
states, ``For terrorists, travel documents are as important as weapons. 
Terrorists must travel clandestinely to meet, train, plan, case 
targets, and gain access to attack. To them, international travel 
presents great danger, because they must surface to pass through 
regulated channels to present themselves to border security officials, 
or attempt to circumvent inspection points''.
    Our layered security strategy involves identifying and interdicting 
terrorists as early as possible--if not before they enter our country, 
then at the port of entry. DHS must be able to capitalize on our border 
inspection process. We must be able to inspect those who seek to enter. 
Through its requirement that individuals carry a passport or other 
limited set of acceptable documents, WHTI will greatly reduce the 
opportunities for fraud or misrepresentation of one's true identity. 
Advanced technology embedded in these travel documents, with the 
appropriate privacy protections and infrastructure, will allow DHS the 
ability, for the first time, to verify an individual's identity even 
before our officers begin to question them and to perform real-time 
queries against lookout databases. Full implementation of WHTI will 
allow DHS to focus even greater time and attention on each individual 
traveler. We have an opportunity to install an integrated secure land 
border system through WHTI and that opportunity should not be 
squandered.

The Threat
    We still face many challenges at home and at our borders and we 
must be especially vigilant at our land, air and sea ports of entry. As 
is evident from the publicly available accounts of the recent terrorist 
episode in England and Scotland, extremists have demonstrated the 
ability to blend into our communities. From such locations, extremists 
can conduct fundraising and other support activities, including 
proselytizing extremist ideals to segments of the youth population that 
they find susceptible.
    While Canada remains a valued partner in our struggle against 
terrorism, the Canadian Security Intelligence Service (CSIS) has 
reported that terrorist representatives in Canada were actively raising 
money, procuring weapons, ``manipulating immigrant communities'' and 
facilitating travel to and from the United States and other countries. 
Besides al-Qa'ida affiliated persons, other terrorist-related 
individuals mentioned by CSIS have links to: Islamic Jihad; Hezbollah 
and other Shiite groups; Hamas; the Palestinian Force 17; Egyptian Al 
Jihad and various other Sunni groups from across the Middle East. CSIS 
has said the Irish Republican Army, Tamil Tigers and Kurdistan Workers 
Party (PKK) and major Sikh terrorist groups also have supporters in 
Canada.
    Of course, we must also acknowledge the presence of terrorist cells 
and activities in the U.S. and Canada, such as the recent arrests in 
New Jersey of a cell trying to attack Fort Dix, those airport workers 
hoping to detonate explosives at the JFK airport fuel tank farm, and 
here in the Buffalo region, our Canadian counterparts discovered an 
active terrorist cell in Toronto. Our ability to track their travel, 
and the travel of their associates, is an important key to stopping 
these plans before they come to fruition and to drawing connections 
between seemingly unrelated individuals.
    As populations increasingly mix and extremists recruit native-born 
youth and converts, travel documents become even more critical in 
identifying terrorists. Travel documents and travel patterns can 
provide our CBP officers at the border with terrorist indicators--
sometimes the only clue the government will receive.
    Effectively Using the Border--A National Security Priority
    Securing the border is a top national priority. Border security is 
a cornerstone of national security and that commitment by President 
Bush and Secretary Chertoff is underscored by the creation of the 
Secure Border Initiative and significant allocations of resources for 
border security. If we are to protect our homeland from terrorist 
attacks, we must use all of the tools at our disposal.
    The initial phase of WHTI went into effect January 23, 2007. The 
WHTI Air rule requires all air travelers, regardless of age, to present 
a passport or other acceptable secure document for entry into the 
United States when arriving by plane. Almost every single day between 
January 23, 2007, and today, there has been a compliance rate of 98 
percent or better from the affected travelers, who are citizens of the 
U.S., Canada, and Bermuda, and there has been no interruption to air 
transportation. The high level of compliance shows that Americans and 
foreign nationals alike are willing and able to obtain the necessary 
documents to enter or re-enter the United States once the requirements 
are known and made firm. This compliance is the result of the 
collaborative planning process on behalf of DHS and DOS working closely 
with the airline and travel industries and the public, well in advance 
of implementation.

Intelligent Implementation of the WHTI Air Rule
    The need for passports for air travel, as well as other increasing 
needs for documentation of identity and citizenship significantly 
increased the demand for passports, resulting in delays for issuing 
passports. Therefore, on June 7, 2007, DHS and DOS jointly announced 
that U.S. citizens traveling to and from Canada, Mexico, the Caribbean 
and Bermuda who had applied for but not yet received their passports, 
could temporarily enter and depart from the Untied States by air with a 
government issued photo identification and official proof of passport 
application, which can be obtained from the DOS website. This is not a 
suspension of the WHTI requirements in the air environment--foreign 
nationals must still present passports, and only those U.S. citizens 
who prove they have made an attempt to comply with the rule by applying 
for a passport may make use of this flexibility. This is a temporary 
accommodation through September 30, 2007, to allow Department of State 
time to clear its processing backlog. In addition, travelers must 
continue to be cognizant of the documentary requirements for Caribbean 
countries that have longstanding passport requirements for entry.
    While DHS has shown flexibility in terms of document requirements, 
we have not lowered our enforcement posture or response. Every traveler 
is subject to inspection upon arrival into the United States. This 
inspection may include a database query and a personal interview by a 
CBP officer. Our officers are trained in behavioral analysis, interview 
techniques and fraudulent document detection. If at any time during the 
inspection a CBP officer, based upon his/her observations, believes 
additional scrutiny is warranted, the traveler may be referred for 
secondary inspection. During secondary inspection, the traveler is 
subject to further questioning; baggage examination and documentation 
presented may be more closely scrutinized.

The Next Phase--WHTI Land and Sea Rule
    On June 20, 2007, DHS and DOS jointly announced the next phase of 
WHTI, governing entry into our land and sea ports of entry through a 
Notice of Proposed Rulemaking (NPRM), which is open for public comment. 
The NPRM, which includes our proposals for both the new documentation 
requirements and our implementation plan, is available for review and 
comment at www.regulations.gov. The NPRM was developed through 
extensive consultation and constructive dialogue with various 
stakeholders, Congress, border communities, and officials on both sides 
of the border. We have also issued an accompanying economic analysis 
and environmental assessment. Both DHS and DOS are committed to 
ensuring a smooth transition and mitigating any negative impacts as we 
move forward with this vital security initiative.
    The NPRM demonstrates that we are taking a phased, deliberate 
approach to implementation. The rule proposes a transition period to 
ensure that citizens will be able to obtain the documents necessary to 
satisfy WHTI. This will not occur overnight. The glide path we have 
proposed will give U.S. citizens sufficient time to become accustomed 
to this new requirement at our land and sea borders, and time to obtain 
alternative documents, such as the passport card, Free and Secure Trade 
(FAST) card, Secure Electronic Network for Travelers Rapid Inspection 
(SENTRI) card, NEXUS card, or an enhanced driver's license.
    The NPRM proposes to end the practice of accepting only credible 
verbal declarations of citizenship at our land and sea ports of entry 
on January 31, 2008. U.S. and Canadian citizens will be required to 
carry a WHTI--compliant document or a government-issued photo 
identification, such as a driver's license, and proof of citizenship, 
such as a copy of a birth certificate. DHS will continue to allow a 
degree of flexibility to certain travelers based upon unique and 
exigent circumstances. At this same time, we are going to begin using 
the alternative procedures for U.S. and Canadian children we have 
proposed in the NPRM. Children ages 15 and younger will be required to 
present certified copies of their birth certificates. Groups of U.S. 
and Canadian children ages 16 through 18, traveling with an organized 
group with adult supervision will also be allowed to enter using 
certified copies of their birth certificates.
    At a later date, we will implement the full requirements of the 
land and sea phase of WHTI. This vital layer of security must be put in 
place as soon as possible and not be subject to repeated delays and 
endless new and ever-shifting requirements. We must advance to a 
smarter, more efficient and more secure border that includes these 
document controls. The exact implementation date will be determined 
based upon a number of factors, including the progress of DHS and DOS 
actions to implement WHTI and the availability of WHTI-compliant 
documents on both sides of the border. We expect that the date of full 
implementation will be as early as the summer of 2008. The precise date 
will be formally announced with at least 60 days notice to the public.

Alternative Documents
    DHS is proposing alternative documents that could be used in lieu 
of a passport at the land and sea borders, such as the Passport Card 
being developed by our partner DOS. We are also proposing that the 
current trusted traveler documents available for programs such as 
NEXUS, SENTRI and FAST be approved for entering the United States. 
Working in unison with Washington State and other states we are 
pursuing state-issued enhanced driver's licenses (EDLs) that will be 
WHTI compliant for use at land and sea ports of entry. While Washington 
State is leading the way and on target to issue the first EDL in 
January 2008, DHS is in active discussions with other states that have 
expressed interest. In addition, Canadian Provinces also wish to pursue 
EDLs, and the Canadian Government is examining such a proposal with 
strong engagement and encouragement from DHS. We are pleased with 
recent indications from the Canadian Government of renewed urgency 
toward developing appropriate documents, and anticipate that we will be 
able to work together to meet our intended timeline.
    It is important to state on the record that DHS is not lowering 
document standards for EDLs. EDLs are a secure, enhanced driver's 
license, and are not just today's driver's license with a new design. 
The issuance process will be bolstered, and the document will meet the 
standards for a WHTI-compliant document of denoting citizenship and 
identity. EDLs will also incorporate facilitative land border 
technology with both vicinity Radio Frequency Identification (RFID) and 
a Machine Readable Zone (MRZ). That technology enables real-time 
verification of issuance data as well as screening at ports of entry.
    Here on the Northern border, we will increase our outreach to the 
public the availability of NEXUS cards. In December 2006, CBP combined 
enrollment in the NEXUS Air, Highway, and Marine programs. As of July 
2007, 133,216 members can cross the border using any of the three modes 
of transportation (air, land, and sea) at participating locations. In 
the Buffalo region alone, we have nearly 28,000 members. This program 
is implemented in partnership with the government of Canada, and many 
citizens of Canada also participate in the programs. In light of the 
extensive background checks and pre-vetting of enrollees in this 
program, NEXUS is a viable and secure way to confirm a traveler's 
identity and citizenship.
    To enroll in NEXUS, travelers must provide proof of citizenship, a 
visa (if required), as well as other identity documentation, such as a 
driver's license or other acceptable identity card. An intensive 
background check against law enforcement databases and terrorist 
indices is required, and the enrollment process includes fingerprint 
checks and a personal interview with a CBP officer.
    Over the next few months, we expect to increase the number of 
locations where travelers can enroll in NEXUS. We plan on developing 
new enrollment centers and utilizing our mobile enrollment centers to 
encourage border residents to participate in NEXUS. For frequent border 
crossers, the ability to use NEXUS at the land, sea, and air borders 
and the ability to use NEXUS dedicated lanes for more expedited 
processing are some of the benefits of participating in NEXUS. Here in 
Buffalo, NEXUS participants have their own bridge, the Whirlpool 
Bridge. This is a NEXUS-only bridge with NEXUS-dedicated lanes, 
offering NEXUS participants an even faster method to enter the United 
States or Canada.
Impacts of WHTI on our Border Communities and Our North American 
Neighbors
    Border security is a cornerstone of national security. Our 
international land borders are extremely efficient considering the 
volume of travel and trade they handle every day--so well run that the 
public can forget that they are a critical line of defense. Both DHS 
and DOS have worked closely with the Canadian and Mexican governments 
on numerous fronts, including through the Security and Prosperity 
Partnership of North America, the Smart Border Declaration and the 
Shared Border Accord. The objectives of these initiatives are to 
establish a common approach to security to protect North America from 
external threats, prevent and respond to threats and streamline the 
secure and efficient movement of travel and trade. We remain committed 
to such consultations that often include WHTI accomplishments and 
progress to date. In particular, DHS has been involved in extensive 
discussions with our Canadian counterparts regarding secure alternative 
documents that could be made available to Canadian citizens for WHTI 
purposes, and, as stated above, we are working even more closely 
together as they look at EDLs or other possible alternative documents 
for Canadian citizens as well.
    We recognize that there remains a concern about the potential 
impact of WHTI on border communities. WHTI represents a social and 
cultural change, and change is difficult. However, WHTI is a key step 
in creating better, more efficient, 21st Century land border 
management.
    The Administration is committed to implementing this change in a 
pragmatic way, and we want to ensure open dialogue between the citizens 
it directly affects. Our communications plan will be based in a 
grassroots outreach campaign and will take place in land border 
communities in multiple ways, including Town Hall Events that will 
encourage an open dialogue between DHS and the community. We will 
directly communicate with the border communities, traveling public, 
media, elected officials and stakeholders about the importance of WHTI. 
We will highlight the benefits of secure travel documents, 
demonstrating that vicinity RFID is the reliable backbone of our 
trusted traveler programs, and the technology proposed for the DOS 
Passport Card.

Potential Impact of WHTI on Wait Times at the Border
    DHS, Congress, and the public are all concerned about the potential 
impact of the WHTI documentation requirements on traveler wait times at 
our land ports of entry. Pedestrian and vehicle traffic varies across 
the country by port, time of day, and time of year. There are also 
daily, weekly, and seasonal patterns of traffic. Factors that can lead 
to long traffic queues can include the port design, traffic volume, and 
vehicle mix. Wait times are monitored on an hourly basis and measures 
are taken to reduce wait times when they exceed threshold levels. These 
measures can include changes to shift assignments, open lane 
assignments, special operations, and overtime.
    Currently, primary processing time can be as short as 10 seconds 
for a trusted traveler and as short as 20 seconds for easily verifiable 
travelers. A traveler is easily verifiable if he/she has a passport or 
other acceptable document with an MRZ or appropriate RFID technology 
that can be queried automatically. Processing times are considerably 
longer--up to 90 seconds--for a vehicle with passengers who present 
documents that are not immediately verifiable by the inspecting officer 
or for vehicles with multiple passengers each producing various forms 
of identification. Often times, an officer will need to manually enter 
an individual's identifying information into the computer if the 
documentation presented does not have a MRZ. The additional time it 
takes to process these individuals can contribute to delays.
    The suite of documents that DHS has proposed in the NPRM are 
capable of being queried automatically, speeding-up the document 
examination process and eliminating the need to evaluate the face of 
the document to determine if it looks like the kind of baptismal 
certificate issued in a certain part of Minnesota during the mid-1950s.
    DHS published a Programmatic Environmental Assessment (PEA) in the 
Federal Register on June 25, 2007, focusing on the potential 
environmental impact of WHTI at land ports of entry, since they have 
the most environmental sensitivities from changes in travel volume. The 
PEA concludes that the use of vicinity RFID technology results in the 
fastest passenger processing time, and causes the fewest adverse 
environmental impacts. I encourage the Committee to review the PEA for 
a detailed analysis of average wait times for selected ports on the 
northern and southern borders and the anticipated impact of WHTI on 
these wait times.
    While DHS fully expects to process quickly the documents of most 
travelers at the borders, we will not become focused on speed as the 
singular measure of success. Speeding up the document querying and 
authentication process gives more time for our CBP officers to ask 
questions and conduct inspections of those who require more scrutiny. 
Precious time now spent examining the face of a document will, instead, 
be used to probe those seeking to enter the U.S. who may be of higher 
risk. In the judgment of Secretary Chertoff and DHS leadership, this is 
a much better use of our CBP officer's skills and time.

Conclusion
    Mr. Chairman, members of the Committee, we have outlined our WHTI 
implementation plan that, with your assistance, will help DHS continue 
to protect America. Although we continue to move in the right direction 
of increasing identity document security, increasing information 
sharing, and deploying the necessary resources to protect the border, 
we must not delay or become lax in our effort. Strong borders are a 
pillar of national security and WHTI is a key cornerstone supporting 
that pillar.
    Thank you again for this opportunity to testify, we will be happy 
to answer any of your questions.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Ms. Barrett to summarize her statement for 
five minutes.

STATEMENT OF ANN BARRETT, DEPUTY ASSISTANT SECRETARY, PASSPORT 
                 SERVICES, DEPARTMENT OF STATE

    Ms. Barrett. Thank you, Chairman Thompson, Congresswoman 
Slaughter, Representative Carney and Green, for this 
opportunity to discuss the role of the State Department in 
implementing the Western Hemisphere Travel Initiative, which is 
to adjudicate and issue U.S. passports and, in the near future, 
passport cards to eligible U.S. citizens to facilitate trade, 
travel, and tourism.
    Our current workload indicates that Americans are aware of 
the new document requirements under WHTI and are coming into 
compliance with them. We are on pace to issue over 17 million 
passports by the end of the year.
    Due to the unprecedented demand, many who applied for a 
passport did not receive their documents in the time frame they 
expected. We are taking extraordinary steps to remedy this 
situation, not only to address the current demand, but also to 
assure that we are well positioned to meet future needs.
    We projected that we would receive approximately 16.2 
million passport applications in fiscal year 1907, 30 percent 
more than our 2006 level. Over the past two years, we ramped up 
capacity to meet projected demand, adding staff and expanding 
facilities.
    The root of our current situation is the workload that 
built up when 5.5 million applications arrived within about ten 
weeks last spring. This far exceeded our ability to keep pace 
within our traditional time frame, and the average processing 
time lengthened from six weeks in December to 12 weeks in late 
spring. It's about ten weeks today.
    At the same time as we are receiving record numbers of 
applications, we are also issuing record numbers of passports, 
averaging a million and a half passports each month since 
March. As of July 2nd, we have already exceeded last year's 
issuance of 12.1 million passports.
    The Department has committed at the highest levels to 
return to our normal performance standards and processing times 
as soon as possible while maintaining the security needs of our 
nation.
    We are pulling out all the stops and making the needed 
resources available to resolve this issue. We are hiring 400 
new passport adjudicators this fiscal year and are requesting a 
similar number for next year.
    To process pending cases, we are deploying additional staff 
to eliminate the older applications pending in the system.
    It is clear that the implementation of WHTI has created a 
permanent increase in passport demand. Today's record-breaking 
demand is not an anomaly. We believe it will continue to grow. 
We currently project the demand for passports to be 
approximately 23 million in 2008 and up to--as high as 30 
million by 2010.
    Currently, over 78 million Americans have passports. We 
expect within a few years, fully half of all Americans will 
have passports or passport cards, and every indication is that 
demand will continue to climb.
    We are implementing long-term strategies to increase 
production. Chief among these are our new approach to passport 
production represented by our new Arkansas Passport Center.
    This differs from our other passport agencies in that it 
focuses solely on printing and mailing passports. Applications 
which have been reviewed and adjudicated at other agencies are 
transmitted electronically to Arkansas, which prints and mails 
the passports within 24 hours.
    The centralization of passport book printing and mailing 
frees up space and personnel in our existing facilities so we 
can focus on the critical areas of customer service, 
adjudication, and process more passport applications.
    Building on our successful implementation of our Arkansas 
facility, we plan to open a similar facility in 2008 which will 
also be capable of producing over 10 million passports a year. 
When ready, the passport cards will also be produced in these 
facilities.
    Expansions are in the works for the Miami, Seattle, Boston, 
and Washington agencies as well as our National Passport Center 
in New Hampshire. We are also exploring opening additional 
passport agencies later in fiscal year 2008 and 2009.
    We firmly believe that these long-term strategies will 
provide the staffing levels and infrastructure to meet the 
increased passport demands.
    I'd like to turn briefly to the passport card which we are 
currently developing.
    We acknowledge that the traditional passport book is not 
the ideal solution for the border resident communities. In--in 
response to their concerns, we have developed a more portable--
or are developing a more portable and less expensive document 
than the traditional passport book. It will carry all the 
rights and privileges of a U.S. passport except that it is 
designed for use at land and sea ports of entry only.
    The passport card is designed for the specific needs of 
border resident communities and is not a globally interoperable 
document. Based on a cost-of-service study, we are proposing a 
fee of $20 for an adult and $10 for a child with a proposed 
execution fee of $25. The total cost for an adult to get a 
passport card is $45, or 37 and a half cents per month over a 
ten-year period.
    To facilitate the frequent travel of U.S. citizens living 
on the border and to meet DHS's operational needs at land 
borders, the passport card will incorporate RFID technology, 
which will link the card to a stored, secure database in a 
secure government database.
    The RFID chip in the passport card will be read at a 
distance by an authorized CBP reader mounted alongside the 
traffic lane. The reader will automatically retrieve the 
personal data from the secure database and populate the 
officers' screens as the vehicle approaches.
    We have an ambitious and aggressive production schedule. 
Absent any technical challenges that may arise as a result of 
testing, we imagine we will issue the card in the spring of 
2008, and we will issue a notice in the Federal Register when 
we are ready to begin accepting passport card applications.
    We understand that our national security is dependent on 
our economic well-being. We understand the importance of the 
economic relationship between the U.S. and Canada.
    We also understand that the economic well-being of the 
border communities depends on the free flow of people and 
goods.
    For these reasons, we are committed to implementing the 
WHTI in a rational and intelligent manner, one that facilitates 
travel, tourism, and trade while enhancing our national 
security.
    And I just want to end on a--with some good news:
    We issued over 477,000 passport applications this week. 
It's an all-time record. Our backlog is indeed going in the 
right direction. We are reducing it.
    And we still have more volunteers arriving next week, so we 
hope to have more good news in the coming weeks.
    Thank you very much.
    [The statement of Ms. Barrett follows:]

                   Prepared statement of Ann Barrett

    Chairman Thompson, Congresswoman Slaughter, distinguished members 
of the Committee,
    I appreciate this opportunity to discuss the role of the Department 
of State in implementing the Western Hemisphere Travel Initiative 
(WHTI) and in providing American citizens with reliable, secure 
passports so they can comply with the new travel document requirements. 
We have been planning for increased passport demand since Congress 
passed the Intelligence Reform and Terrorism Prevention Act (IRTPA) in 
December of 2004, which included a provision requiring all travelers to 
have a passport or other combination of documents establishing identity 
and citizenship to travel into the United States.
    The goal of WHTI is to enhance our border security and, at the same 
time, facilitate the flow of legitimate trade and travel. WHTI will 
reduce the number of documents used to prove identity and citizenship 
from the current 8,000 local, state, and provincial driver's licenses, 
birth certificates and other documents to a handful of secure documents 
in which officers at ports-of-entry can have confidence, such as a 
passport book; a passport card, which we are developing in direct 
response to the needs of the border communities; NEXUS, SENTRI, or FAST 
cards; and eventually state-issued ``enhanced'' drivers licenses.
    We firmly believe that reducing the number of documents that 
Customs and Border Protection officers must inspect and relying on 
greater automation of the process at our ports-of-entry will both 
enhance security and facilitate the flow of people and goods across our 
borders. We agree wholeheartedly with the authors of the report, 
People, Security and Borders: The Impact of the WHTI on North America, 
issued recently by the ``Network on North American Studies in Canada'' 
that ``limiting the number of acceptable identity documents at the 
border. . .could result in significant benefits for Canada, Mexico and 
the United States, not the least of which is facilitating the movement 
of people and goods.''
    The role of the Department of State in the WHTI is to adjudicate 
applications for U.S. passports, and, when available, passport cards 
for eligible U.S. citizens in a timely manner so as to facilitate 
trade, travel, and tourism. Our current workload indicates that 
Americans are aware of the new document requirements under WHTI and are 
coming into compliance with them. We issued 10.1 million passports in 
Fiscal Year 2005 and 12.1 million in the last fiscal year. As of July 
2, we have already issued 12 million passports this fiscal year--a 34 
percent increase over the same period last year. We are on pace to 
issue over 17 million by the end of this fiscal year.
    Due to this unprecedented demand, many who applied for a passport 
did not receive their documents in the timeframe they expected. We are 
taking extraordinary steps to remedy this situation, not only to 
address the current demand, but also to assure that we are well 
positioned to meet future needs.
    Following passage of IRTPA, we had two years to plan for the 
expected increase in passport demand. We analyzed our own figures, and 
commissioned a survey of projected demand conducted by an independent 
contractor. Drawing on consultations with the Department of Homeland 
Security (DHS) and historic demand trends, we projected that we would 
receive approximately 16.2 million passport applications in FY 2007, 31 
percent more than our 2006 receipts. Over the past two years, we ramped 
up capacity to meet projected demand, adding staff, expanding 
facilities, and enhancing service. We hired 441 employees in Passport 
Services in FY 2005, 925 in FY 2006, and 1,222 thus far in FY 2007--a 
total of 2,588 in less than three years. We opened the Colorado 
Passport Agency in October 2005, and expanded our agencies in Boston, 
Chicago, Houston, New Orleans, and Seattle. We opened a mega-center in 
Hot Springs, Arkansas in March of this year. The Arkansas Passport 
Center (APC) has printed over 260,000 passports since opening its 
doors, and will be able to produce 10 million passports annually when 
it reaches full capacity.
    The root of our current situation is the workload that built up 
when 5.5 million applications arrived within about ten weeks. This far 
exceeded our ability to keep pace within our traditional timeframe. As 
a result, despite our best efforts, it began to take longer to process 
applications. Average processing time lengthened from six weeks in 
December, to 12 weeks in late spring. It is about ten weeks today.
    At the same time we are receiving record numbers of applications, 
we are issuing record numbers of passports, averaging 1.5 million or 
more passports each month since March. With less than one quarter left 
in the fiscal year, the Colorado, Connecticut, Charleston, Honolulu, 
New Orleans, and Washington agencies have already exceeded their FY 
2006 production total.
    Much of the influx was in response to press reports and our 
continuing outreach and public education effort regarding WHTI. Not all 
of the increased demand is attributable directly to the WHTI Air Phase, 
however. Many applicants indicate they plan to travel to Canada or 
Mexico by sea or land, even though the WHTI requirements for passports 
for land or sea border crossings are not scheduled to be implemented 
until 2008 at the earliest. We also receive substantial numbers of 
applications from people who indicate no overseas travel plans. 
Increasingly, Americans apply for a passport because they see it as a 
citizenship and identity document, one that allows the bearer to board 
an airplane, prove citizenship for employment purposes, apply for 
federal benefits, and fulfill other needs not related to international 
travel. We did not take these non-travel-related factors into account 
when we projected FY 2007 passport demand.
    The Department has committed at the highest levels to return to a 
predictable six-week process while maintaining the security needs of 
our nation. We are pulling out all the stops and making the needed 
resources available to resolve this issue. Additional resources will be 
needed. On June 8, the Department sent a formal Congressional 
Notification regarding plans to re-program nearly $37,000,000 for the 
FY 2007 Border Security Program. We are using these funds to hire 400 
new passport adjudicators this fiscal year, and fund expansion of NPC 
and the Miami Passport Agency.
    To process pending cases and new incoming work, our most urgent 
need is for more people to review and adjudicate applications, answer 
telephone and e-mail inquiries, and assist walk-in applicants. To meet 
this need, we are:
        <bullet> aggressively recruiting and training new passport 
        specialists;
        <bullet> re-hiring experienced and well-trained retired 
        adjudicators to provide critical management support;
        <bullet>using volunteers to help process passport applications 
        to supplement the Department's corps of passport specialists;
        <bullet>working two shifts during the week and all day Saturday 
        and Sunday to optimize existing equipment and space;
        <bullet>dispatching teams of passport specialists to 
        exceptionally high volume passport agencies to assist with 
        walk-in applicants and to process pending applications;
        <bullet>re-assigning temporarily nearly 300 Presidential 
        Management Fellows, Career Entry program participants, and 
        entry-level officers currently working in bureaus throughout 
        the Department to the National Passport Center (NPC), New 
        Orleans, and the Washington Passport Agency for the remainder 
        of the summer to adjudicate passport applications; and,
        <bullet>bringing Foreign Service Officers overseas home 
        temporarily to serve their country here by adjudicating 
        passports.
    These additional resources and procedures will give us the time, 
staffing and physical capacity to eliminate the older applications 
pending in the system.
    It is clear that implementation of the Western Hemisphere Travel 
Initiative has created a permanent increase in passport demand. Today's 
record-breaking demand is not an anomaly; we believe it will continue 
to grow. We currently project the demand for passports to be 
approximately 23 million in 2008, and as high as 30 million by 2010. 
Over 78 million Americans currently have passports--somewhat more than 
25 percent of all citizens. Within a few years, fully half of all 
Americans will have passports or passport cards, and every indication 
is that demand will continue to climb. We are engaged in a study now to 
further refine these projections.
    We are also implementing long-term strategies to increase 
production. Chief among these is a new approach to passport production 
represented by the Arkansas Passport Center (APC). APC differs from our 
other passport agencies in that it focuses solely on printing and 
mailing passports. Applications which have been reviewed and 
adjudicated at other agencies are transmitted electronically to APC, 
which prints and mails the passports within 24 hours. Eight agencies 
currently transmit their work to Arkansas. The remaining agencies will 
get the necessary retrofit as quickly as possible between now and the 
end of September.
    The centralization of passport book printing and mailing frees up 
space and personnel at our existing passport agencies to focus on the 
critical areas of customer service and adjudication, and allows us to 
process more passport applications. The agencies that have begun remote 
issuance are already reporting significantly improved efficiency. 
Building on our successful experience with APC, we plan to open a 
similar printing and shipping facility, also with the capacity to 
produce 10 million passports per year, in 2008. When ready, passport 
cards also will be prepared at these two bookprint facilities.
    We are increasing capacity at existing passport agencies, as well. 
Because we have outgrown the current facility in Miami, we will move to 
a new facility that will expand our footprint there from 18,000 to 
28,000 square feet. A recent snag in acquiring that facility may delay 
Miami's move, but if so, we will aggressively pursue additional space 
at its current location. We are on a fast-track process to acquire 
additional space that will more than double the size of the National 
Passport Center to more than 100,000 square feet. This will allow us to 
more than double the staff size to over 1,000, and more than double 
NPC's capacity to receive, adjudicate and issue passports from 5 
million today to over 11 million. Expansions are also in the works for 
the Seattle, Boston, and Washington agencies. We hope to complete these 
renovations and expansions by the end of this year. We are also 
exploring opening additional passport agencies later in FY 2008 and FY 
2009.
    We firmly believe that these long-term strategies will provide the 
staffing levels and infrastructure to meet the increased demand in 
State Department issued travel documents generated by the documentary 
requirements of WHTI.
    Now I would like to turn briefly to the passport card, which we are 
currently developing. We acknowledge that an alternative to the 
traditional passport book is a desirable solution for the border 
resident communities. In response to the expressed concerns of American 
citizens who live in border communities for a more portable and less 
expensive document than the traditional passport book, we are 
developing a wallet-sized passport card. The passport card is a travel 
document adjudicated to the same standards as a passport book. It will 
carry all the rights and privileges of a U.S. passport except that it 
is designed for use at U.S. land ports of entry only. The passport card 
is designed for the specific needs of border residents and is not a 
globally interoperable travel document like the traditional passport 
book. Based on a cost of service study, we are proposing a fee of 
$20.00 for an adult and $10.00 for a child. With a proposed execution 
fee of $25, the total cost for an adult is $45.00 or 37.5 cents per 
month over a ten-year period.
    To facilitate the frequent travel of U.S. citizens living in border 
communities and to meet DHS's operational needs at land borders, the 
passport card will incorporate cutting-edge vicinity-read radio 
frequency identification (RFID) technology which will link the card to 
a stored record in a secure government database. The RFID chip in the 
passport card can be read at a distance by an authorized CBP reader 
mounted alongside the traffic lane. The reader would automatically 
retrieve the personal data from the secure database and populate the 
officers' screens as the vehicle approaches.
    The Department is taking every measure to address the privacy 
concerns of American citizens traveling with a passport card. There 
will be no personal information written to the RFID chip itself. To 
address concerns raised by privacy advocates that passport card bearers 
can by tracked by this technology, we are requiring that the vendor 
provide a protective sleeve that will prevent the card from being read 
while inside it. We are also exploring other possibilities with 
industry to further address this issue. To mitigate the possibility of 
counterfeiting and forgery, the Department will use laser engraving and 
state-of-the-art security features. While no document is tamper proof, 
we are taking every care to ensure that the passport card is as secure 
as current technology permits.
    We have an ambitious and aggressive production schedule. The 
Request for Procurement to industry was issued May 25, and we expect to 
begin testing product samples in the summer. In accordance with testing 
requirements established in the certification by the National Institute 
of Standards and Technology, we will conduct the full range of 
security, durability, and privacy tests on the passport card and 
protective sleeve to ensure we are issuing the best and most secure 
card to the American public. Absent any technical challenges that may 
arise as a result of testing, we expect to begin issuing the cards to 
the public in spring 2008. We will issue a notice in the Federal 
Register when the Department is ready to begin accepting applications 
for the passport card and will, of course, conduct a robust public 
outreach campaign to inform the border resident communities in 
particular.
    Let me end by stressing a point we have made from the very 
beginning of the WHTI. We understand that our national security is 
dependent on our economic well-being. We understand the importance of 
the economic relationship between the United States and Canada. We also 
understand that the economic well-being of the border communities 
depends on the free flow of people and goods. For these reasons, we are 
committed to implementing the WHTI in a rational and intelligent 
manner, one that facilitates trade, travel, and tourism while enhancing 
our national security. We believe that the recent temporary measure 
announced June 7 by State and DHS to allow American travelers who have 
applied for, but not yet received, a passport to still travel is a 
reflection of our commitment to implement this in such a manner and to 
take the necessary steps to enhance our border security while 
facilitating the flow of legitimate travel.
    Mr. Chairman, thank you again for the opportunity to be here today. 
I will be pleased to answer any questions.

    Chairman Thompson. I thank the witnesses for their 
testimony.
    I will remind each Member that he or she will have five 
minutes to question the panel. I will now recognize myself for 
the first question.
    Ms. Barrett, just for the record, and I think you indicated 
it:
    What is the present passport fee for adults?
    Ms. Barrett. Present passport fee for adults? Okay. Thank 
you, Chairman.
    The present passport fee for an adult is $97.
    Chairman Thompson. $97.
    Ms. Barrett. $97 for a passport. That is----
    Chairman Thompson. That includes all the fees and----
    Ms. Barrett. Yes.
    Chairman Thompson. All right. Am I to understand that there 
are plans to reduce the cost of the passport document?
    Ms. Barrett. Not at this current time. The reduction in 
cost will be with the passport card, which will be $45 for an 
adult.
    Chairman Thompson. 45.
    Ms. Barrett. Right.
    Chairman Thompson. So if I wanted a passport, I'd still 
have to pay 95.
    Ms. Barrett. 90--97, yes, sir.
    Chairman Thompson. 97. Okay.
    Have you had many complaints from people about the pricing?
    Ms. Barrett. Frankly, I think that is the reason we have 
developed the passport card.
    We developed it in response to particularly border resident 
communities who probably didn't plan on doing much or any 
international travel, yet then did need a document to attest to 
their citizenship and identity.
    So we thought that by developing and issuing a passport 
card at a much lower cost, we would meet--we would answer 
those--those complaints about the cost of the passport.
    Chairman Thompson. And again, for the record, would the 
card allow that person to travel--where would that card allow a 
person to travel?
    Ms. Barrett. The card will--it's a limited-use passport. It 
will allow you to cross land waters and do sea travel within 
the Western Hemisphere.
    You cannot, for instance--you can use the card to drive, 
say, from Buffalo across the border into Canada, but you cannot 
use that card to then get on a plane and--and fly to London.
    It's not a globally interoperable document, because it is 
tied to a secure government database.
    Chairman Thompson. So then I also heard you say that we are 
having to utilize volunteers to deal with this overflow of 
individuals applying for--for this document.
    Did the Department not anticipate this volume in enough 
time to compensate for the inconvenience that had been caused, 
or can you share with us what happened with that?
    Ms. Barrett. Sir, we--our initial projections were low. We 
projected about 16.2 million passport applications for this 
year when, in fact, it's going to be at least 17 and a half 
million applications.
    We--we think a lot of the error in--in projections is also 
coming from the fact that we are having a lot of people apply 
for passports that are not travelling. They're getting them for 
identity documents. They're getting them for--to prove that 
they're a citizen to apply for jobs. They're getting them to 
establish--to get federal benefits.
    We also admit as well that, I think, there was some 
confusion about what the--the air requirement was. Many people 
who--anecdotally who we talked to who are applying believed 
that the land border requirement was already in place.
    So I think that contributed, and we got an awful lot of 
applications in a very concentrated period of time.
    Chairman Thompson. Well, I think all of my colleagues here 
can attest to the fact that we saw very early, just given the 
number of calls from our constituents asking for help for 
travel this summer, and--and I guess it was because we started 
calling State and DHS and everybody you can name to find out 
what was going on that we had--we had to, as you know, suspend 
and do some other things to make it happen.
    But I think that really caused some challenges for a lot of 
us, and I hope that going forward, we can anticipate a little 
better programs like this so the public will not be 
inconvenienced.
    Mr. Jacksta, do you have enough people right now to do your 
job?
    Enough CBP people?
    Mr. Jacksta. I would say, sir, that we have, over the last 
couple of years, increased the number of CBP officers at our 
ports of entry.
    Here in the Buffalo area, we've actually added additional 
staff. Up to 62 additional people will be coming on to help in 
the Buffalo area. Other parts of the country are receiving 
additional staff to help out.
    The challenge is, is that the traffic continues to grow, 
and people and trade are continually coming to the United 
States, and so we evaluate on a regular basis to determine 
whether we need additional people and put them in our budget 
request.
    Chairman can----
    Chairman Thompson. I'll ask again, yes or no.
    Mr. Jacksta. Do we have enough people today?
    Yes, according to the current projections that we have 
proposed.
    Chairman Thompson. How many people are working overtime?
    Mr. Jacksta. Well, we have 18--close to 18,000 CBP officers 
that are assigned to our ports of entry. They work on a regular 
basis overtime.
    We have specific requirements that when there is a surge in 
traffic or--or trade, that we can utilize those officers to 
work overtime and to ensure that the trade continues to go 
through.
    Chairman Thompson. So with 18,000 and the overtime is paid, 
it's your testimony before us today that you are meeting the 
present personnel requirements.
    Mr. Jacksta. Right. And we continue to request through the 
formal process of asking for additional personnel depending on 
various programs.
    For example, one of the things that we recognize that WHTI 
is going to present to us is the--one of the alternative cards 
that are going to be utilized are the trusted traveler program 
cards.
    And as a result, in our fiscal year 1908 submission, we 
requested funding for additional personnel to help with the 
enrollment process as well as the interview process for the 
trusted traveler program.
    So as programs come on board, we try to forecast exactly 
what type of personnel we'll need and put those into our budget 
requests.
    Chairman Thompson. Well, if you would provide the Committee 
with your protected budget costs for the programs you just 
outlined.
    Mr. Jacksta. Sir.
    Chairman Thompson. One of the things that our Committee is 
doing and is committed to is identifying what resources are 
needed and, going forward, finding it. But if for whatever 
reason we never get the resource requirement, then we're not 
really able to address the need.
    And I didn't mean to put you on the spot, but, you know--I 
know you have to defend the agency's budget, but every now and 
then, you know, it would help just to--either offline or 
whatever, just let us know.
    Maybe I need to talk to some of the gentlemen you brought 
here today, and maybe they'll--they'll help us, too.
    But I--I--I appreciate----
    Mr. Jacksta. Chairman? Can I also just mention that I 
passed out those travel documents that the CBP officers have to 
look at. Hopefully, you've had a chance to look at it.
    I want to point out that every one of those documents are 
fraudulent documents, and that sort of presents the extreme 
challenge that our officers have at the ports of entry 
regarding the current documents or, in certain cases, no 
documents at all.
    Chairman Thompson. If you had your preference, what would 
you recommend as a solution to--to all these documents?
    Mr. Jacksta. Well, I think the recommendation is that we 
move forward with WHTI and that we move forward with the--we 
have a Notice of Proposed Rule out there right now that's open 
for the next 30 days, receive comments on the documents that we 
have proposed to be utilized for our officers.
    We believe moving forward with the trusted traveler 
programs, with the pass card, the passport, and other types of 
documentations will greatly enhance the ability for our 
officers to identify individuals and also to make sure that we 
know their citizenship.
    So I would ask, suggest that we continue to move forward 
with the WHTI proposal.
    Chairman Thompson. Thank you.
    I now recognize Mr. Carney for five minutes of questions.
    Mr. Carney. Thank you, Mr. Chairman.
    Jeez, I'm going to jump in here. There's a lot of 
questions.
    First of all, Mr. Rosenzweig, how many--how long does it 
take the Department, other than border guards, to go through 
all these documents at a crossing on average?
    Mr. Rosenzweig. It depends upon which documents are 
presented.
    Documents that already have some form of readily verifiable 
information on them, like the machine readable zone on the back 
of a driver's license or one of our trusted traveler cards--the 
NEXUS card, for example--the linger time at a particular port 
of entry can be as little as 10 to 20 seconds.
    For a person who presents a card where the officer must 
type the name into the database and must engage in some oral 
discussion to--to--to understand who's--can linger as long as 
90 to 100 seconds.
    And that doesn't sound, of course, like a very great 
difference, but as--as we've discussed, there are millions of 
arrivals across the border, hundreds of millions of arrivals 
every year, and so those seconds add up to a great deal of 
delay time.
    One of the reasons we are moving towards a narrower set of 
documents with enhanced facilitation benefits in them is to 
reduce that time so that almost everybody is in the 10--to 20-
second range.
    Mr. Carney. This RFID technology, I--I like that, actually.
    What happens when that system goes down? We're not going to 
close the border, are we?
    Mr. Rosenzweig. No, we aren't, sir, and we have the exact 
same problem now with the entire system, but what we do have is 
localized backup databases that are accessible by the agents.
    But if the whole system crashes, then it's like when the 
system goes down in Congress. It becomes more difficult.
    Mr. Jacksta. Sir, I--there are a couple of protocols that 
are followed, sir, when--when systems are down. It is extremely 
important for us.
    If--in the case of the RFID goes down, we will have the 
capabilities at our actual primary booth for our officers to 
either manually put the data in on the individual or use the 
machine readable zone that's currently embedded in the travel 
documents.
    That will help our officers to quickly read the 
information.
    In addition to that, when that system goes down, 
nationally, on a national basis, we have the capabilities to 
upload specific disks with--with various watch-list members on 
it so that on a local basis, we're able to continue to work on 
the process.
    Now, if--in the case where the whole systems go down and 
the ports shut down and there's no electricity, our officers 
will use their discretion and their training, and in any type 
of cases where we feel there's a concern, we will hold that 
individual and reach out to maybe a location that does have the 
capabilities to do proper name checks for us.
    So there is protocols in place to make sure that we don't 
lose that connectivity at our ports.
    Mr. Carney. But if it goes down, backup at the lanes would 
increase.
    Mr. Jacksta. Yes, backup lanes would increase simply 
because we would expect our officers to ask additional 
questions and to look at the travel documents a little bit 
closer.
    Mr. Carney. Thank you.
    Ms. Barrett, we know that you've commissioned an 
independent contractor, too.
    What was their impression of the number of applicants you 
have?
    I mean, did they confirm--or was there agreement across 
everybody you asked this question?
    Ms. Barrett. Well, we did contract an independent 
contractor to try to get a better handle on--on what we were 
facing.
    Mr. Carney. Right.
    Ms. Barrett. We have been planning for this for the last 
couple of years.
    The time--the time frame's changed since that--that report, 
but frankly, they--they were--they were giving us large numbers 
of how many people were on the border, did have documents, 
didn't have documents.
    We took that study--and at that time, the passport card 
wasn't even thought of, so--so we--we really didn't have that 
question to ask people at that point.
    We took their numbers and also added them to our own 
historical data that we--we traditionally have projected our 
passport issuances--and added it to--to that projection.
    As I said earlier, I think our projection was low mostly 
due to some of the unknowns out there.
    We can quantify who wants to travel across borders. We can 
quantify pretty closely how many people want to travel 
internationally.
    But what we don't have and we have now commissioned a new 
study to try to--try to get a better idea of what the non-
travel demand will be for citizenship and identity documents 
like the passport and the passport card.
    More and more, we have to prove who we are and what our 
status is, and that, I believe, is driving up the demand of the 
passport beyond what all our--our valid studies had shown in 
the past.
    We also had hired over 2500 people in the last two years 
and had expanded a lot of our facilities, so again, I think it 
was that concentrated amount of work that came in all at once.
    And we are hiring 400, plus another 400 within the next 
several months to--to mitigate any surge in demand again.
    Mr. Carney. I think you mentioned 471,000 processed last 
month; is that correct.
    Ms. Barrett. Last week, we processed 477,000 passports.
    Mr. Carney. Last week? Those are probably mostly out of the 
10th District of Pennsylvania, judging by the call volume into 
our office.
    But are you satisfied, in fact, that nothing nefarious is--
that everything's being on the up-and-up, that no one's trying 
to stick it to the system here?
    I mean, you're processing a lot of applications.
    Ms. Barrett. We have always had a robust anti-fraud program 
in place. Every one of our employees goes through training.
    We do have volunteers right now, but they're coming in from 
overseas or have been through our citizenship and identity 
training and then are having additional training.
    In all of our volunteer work forces, task forces, we have 
senior passport specialists that are auditing and monitoring 
their work. They go through an anti-fraud training program 
before they do any adjudication, and then again, their work is 
audited to make sure that we're looking everywhere we can for 
any fraud indicators.
    All our applications will go through our database to do all 
the name checks and the watch-list checks, so we are confident 
that the integrity of the passport is intact, and that indeed 
also is a reason we need more people.
    A lot of--some of these positions we're asking for will go 
toward more fraud management oversight in our offices, more 
customer service employees in there to deal with the--the ever-
rising demand for passports.
    As I said earlier, this isn't--this isn't going to go away, 
and it also is a reason why to hire people, get them cleared 
and trained does take a while.
    So we want to make sure that everybody that is touching a 
passport application has the--the relevant training and 
oversight to do the job properly.
    Mr. Carney. Thank you, Ms. Barrett.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    One question associated with that:
    Now, all the employees that are being trained, they will 
become government employees?
    They're not contract employees?
    Ms. Barrett. Currently, the--the volunteers that we're 
talking about are--are federal employees that--that work for 
the State Department. We--they--some of them are temporary. 
They will go back to their regular jobs at a post overseas or 
wherever.
    We do have contract employees that support the adjudication 
function in all our offices. They are trained to do support 
services. They do not do the--the adjudication of a passport. 
They just support that--that effort. All adjudication is done 
by federal employees.
    We do have a lot of contract support staff that do the 
other parts of it, but while these volunteers are here, we are 
hiring permanent employees to take their place when they go 
back.
    We have over--we have offers out to over 400 people, and 
we've gotten at least 200 of them on board. We hope to have 
them--the 400 on board by the end of September.
    Chairman Thompson. Do you pay contract employees more than 
you pay federal employees?
    Ms. Barrett. No, we don't, sir. It's----
    Chairman Thompson. You pay the same.
    Ms. Barrett. No, it's--it's--actually, contract employees 
are paid according to the--the Department of Labor wage 
standard in that area of the country.
    Chairman Thompson. Is there a reason for contract employees 
rather than hiring full-time federal employees.
    Ms. Barrett. Well, we have--we--we long ago looked at our 
process and determined that the adjudication of citizenship and 
identity is the inherently governmental function that we do.
    The rest of it we have supplemented with contract employees 
because they--they aren't paid, frankly, as much as the federal 
employees.
    Chairman Thompson. Well, and some of us are concerned that, 
you know--but they are U.S. citizens, and I would hope that, 
you know, they would have health insurance. I would hope that 
they--you know, that an employee--employer would give them a 
retirement program just like federal employees.
    So I wouldn't want us to take advantage of contract 
employees when they could be brought into the system, because 
at some point, they would retire, and I would want them to have 
the same benefit. I personally would, but that's kind of my own 
personal preference.
    I now--thank you. No--no comment's necessary.
    Now you have five.
    Ms. Slaughter. Would you do Mr. Green first, and then I 
will----
    Chairman Thompson. Okay.
    I now yield five minutes to the gentleman from Texas, Mr. 
Green.
    Mr. Green. Thank you, Mr. Chairman, and I want to thank you 
for your--your leadership. It's been outstanding. Your 
bipartisanship is beyond reproach.
    You have been very thoughtful, helpful, and I am honored to 
serve on this Committee with you. I thank you so much, and 
thank you for allowing me to have this experience and be a part 
of this--this event.
    I also am so thankful that I had an opportunity to travel 
in with Representative Slaughter. We had a great conversation, 
but aside from that, I'm honored that she would receive us in 
her district--I believe this is her district--and I thank you 
for the warm reception that we've received and the wonderful 
weather as well. It's all been great.
    And, of course, it's nice to always be with Representative 
Carney, a quick study and who is doing quite well in the United 
States Congress.
    Thank you, witnesses and all the persons who have 
assembled.
    I know that I've used a lot of time, so I will have just a 
few questions. I would like to continue with the question 
related to volunteers that you mentioned, Ms. Barrett.
    What countries are these volunteers from?
    You did indicate that we have some from countries other 
than the United States of America; is this correct?
    Ms. Barrett. These are U.S. citizens, Foreign Service 
officers who are serving at posts overseas, and we--we brought 
in volunteers from the posts that could--could spare additional 
employees.
    We're also having----
    Mr. Green. So if I may----
    Ms. Barrett. Sure.
    Mr. Green. --because I've used a lot of time already, let 
me just ask this, please:
    Every person who volunteers is a citizen.
    Ms. Barrett. Yes. We--we have a requirement for all people 
working in the passport office, including contractors, to be 
U.S. citizens.
    Mr. Green. Okay. Great.
    Now, with reference to the contract workers, have you found 
that you are hiring more contract workers since 9/11 or less?
    Ms. Barrett. Well, actually, we've--we have been hiring 
more, because our demand has gone up.
    We've been issuing more passports, so----
    Mr. Green. And if you're hiring more, is--may I assume that 
contract workers are not going to have the longevity of what I 
will call regular or permanent workers?
    Is that a fair statement?
    Ms. Barrett. Well, it's--the turnover rate with our 
contract employees is probably higher than with the----
    Mr. Green. And I also assume that if you have contract 
workers and the turnover rate is high, that your training cost 
is inversely proportional to the amount of time that they work 
for you.
    That you pay more because you have contract workers for 
training.
    Ms. Barrett. Well, actually, the training is--they are 
doing the--the support functions like typing letters--
    Mr. Green. So you----
    Ms. Barrett. --printing----
    Mr. Green. --pay for it indirectly.
    You don't pay for it--you don't train them yourselves, but 
when you hire the workers, somebody has to train them.
    Ms. Barrett. The contract--the contractors.
    Mr. Green. Can a case be made, in your opinion, for us to 
hire more permanent workers as opposed to contract workers.
    Since we're talking about the security of the United States 
of America, can a case be made to hire more permanent workers 
as opposed to contract workers, given that we've seen this--
this increase, if you will, since 9/11 in the necessity to have 
more workers?
    Ms. Barrett. Okay. We are hiring more permanent federal 
employees, and the contract employees are, for the most part, 
permanent.
    They all have clearances. They're all U.S. citizens, and 
some of the 400 people we've made job offers to are current 
contract employees.
    Mr. Green. You just raised an interesting question for me. 
You said that they're permanent, for the most part.
    How--how do you become a permanent contract worker, not 
have the benefits of what we are calling the regular workers?
    How do you do that?
    Ms. Barrett. They do have benefits. They're just paid at a 
different rate for the jobs they do.
    Mr. Green. They have the same benefits--the same health 
benefits that the federal employees have.
    Ms. Barrett. Well, no, because they're not federal 
employees.
    Mr. Green. Right.
    Ms. Barrett. But they do have health benefits, according to 
the company they work for.
    Mr. Green. Okay.
    Chairman Thompson. Excuse me, but do you require the 
company to offer benefits to the contract worker in your 
contract?
    Ms. Barrett. We--we do require them to offer benefits to 
their employees.
    The employees can choose to take those benefits or not or 
add that money set aside for benefits to their salary.
    Chairman Thompson. Can you provide the Committee with that 
documentation of just what you said?
    Ms. Barrett. Okay. Certainly.
    Mr. Green. Mr. Chairman, I will go to another area, your 
having covered it more than sufficiently.
    Let me now ask--and I'm moving quite a distance away from 
where we are, but I am going to ask questions about the--the 
U.S. territories, if I may, quickly.
    A person entering a plane--boarding a plane in the U.S. 
territories, what is that person required to have?
    Mr. Jacksta. Well, in certain locations, depending on what 
territory they're arriving----
    Mr. Green. Well, let's just talk about the Samoas. Let's 
talk about Virgin Islands, Puerto Rico, Guam, the Mariana 
Islands, and the Swains.
    Mr. Jacksta. Well, let me quickly--on the--from--those 
individuals travelling from Guam coming to the United States, 
we do take a look at the documentation because of the fact that 
territory allows certain flights to arrive in the area, and 
before they are able to continue on to the United States, we 
have to verify that they're admissible into the mainland United 
States.
    Mr. Green. They do not have to have a passport; is that 
correct.
    Mr. Jacksta. You do not have to have a passport if you are 
an individual who lives in Guam or Virgin Islands.
    Mr. Green. Right.
    Mr. Jacksta. That's correct.
    Mr. Green. You do not have to have a passport.
    Do you have to have proof of residence? Is that what you 
have to have?
    What do you have to have?
    Mr. Jacksta. You would have to have some type of 
documentation that we would have some level of confidence if 
you're coming from Guam.
    Now, Virgin Islands is handled entirely different because 
of the fact that you are a U.S. territory, and--and for the 
most part, you'll be--there's no check.
    Mr. Green. What do you have to have to enter the Virgin 
Islands.
    A plane.
    Mr. Rosenzweig. Let me try.
    From the Virgin Islands and Puerto Rico, they are U.S. 
citizens. The flights from there to domestic U.S. are like 
internal domestic flights.
    And as with the flight that we all took from Washington, 
you have to have some form of federal identification in order 
to get on the plane to match the boarding pass, but there's no 
passport requirement for Puerto Rican residents.
    Mr. Green. Let me tell you why I ask.
    I was recently in that area of the world, and there were 
concerns about persons breaching the borders of the islands, 
and once they breach the border of the island, then they have 
access to the airports, and once they get access to the 
airports, they've got access to the country.
    So just--just trying to get a better understanding from you 
as to how we're trying to police what may be the real southern 
border.
    Mr. Rosenzweig. Well, I'm glad you asked that question.
    And in fact, that's very true, that a person arriving 
illegally in the Virgin Islands or Puerto Rico and who then 
obtained a fraudulent document would be within the borders of 
the United States just as somebody who arrived by a go-fast 
boat in Miami would be.
    To combat that, we've done a number of things with--with 
people in the Caribbean region. I've been down there twice now 
as part of our work with them.
    We've provided training and technical assistance to the 
maritime agencies, and we've also engaged in efforts with them 
to strengthen their ability to screen arrivals.
    Mr. Green. Because my time is so limited, let me just do 
this.
    Mr. Rosenzweig. Sure.
    Mr. Green. Suffice it to say we don't have the same type of 
protections for those persons that we have for persons entering 
the United States from Canada and other places; is this true?
    Mr. Rosenzweig. I'm sorry, ``those persons'' being which 
persons?
    Mr. Green. Persons who are citizens who are coming in.
    Let me do this:
    Because if you're coming from Canada, you have to have a 
passport, you have to have a pass card.
    Mr. Rosenzweig. For a lawful arrival by plane from Canada, 
right, must now have a passport.
    The same is true for a lawful arrival who--who arrives at 
the airport in the Virgin Islands or San Juan.
    Mr. Green. I have to get through another line of questions 
real fast, and I apologize, but I have to ask you this.
    Let's talk about commercial and charter vessels.
    As long as they don't make a port of call once they leave 
the United States and come back, they don't have to have 
passports as well, right?
    Mr. Rosenzweig. That's correct, sir.
    Mr. Green. Now, what about ship-to-ship contact.
    Mr. Rosenzweig. So long as a person who departs the United 
States returns without having entered a foreign country, there 
would be no need for a passport.
    Mr. Green. Ship-to-ship contact to me would indicate one 
ship docking next to another, persons exiting one and coming 
onto the other.
    What do we do to protect ourselves from ship-to-ship 
contact so that persons can come on a vessel without docking?
    I'm talking about persons who are not of the country, now.
    Mr. Rosenzweig. Well, for lawful arrivals in the United 
States, if a person went ship-to-ship and then made a first 
arrival in the United States, having entered the first ship 
from Mexico----
    Mr. Green. Yes, sir.
    Mr. Rosenzweig. --they would be obliged to declare 
themselves at the port of entry upon arrival in the United 
States, say the Port of New Orleans or the Port of Miami.
    Mr. Green. They would be obliged to declare themselves.
    Is this an honor system?
    Mr. Rosenzweig. No, there's a manifesting requirement that 
requires people to demonstrate--to provide a manifest in 
advance.
    Mr. Green. Do we have a person who is there when they dock 
to say, ``Show me your identification''.
    Mr. Jacksta. There are protocols that if--let me just 
clarify, because I don't want to get the record incorrect here.
    Today people who go to the Caribbean on a vessel, cruise 
ship or regular vessel, would not have to have documentation. 
We basically accept a government-issued ID, a birth certificate 
or, in certain cases, oral declarations from U.S. citizens.
    If you are--under the WHTI proposal, we are recommending 
that if you are going from point to point--in other words, you 
leave Miami, take a cruise, and come back to Miami--you will 
not be required to have a passport.
    We have more specific protocols with the vessel operators, 
commercial, both cruise as well as cargo ships, that they are 
required under law to provide us what we call advance passenger 
information. Anyone who is leaving the ship is supposed to be--
first of all, when they're leaving the United States, we get 
the information, and then when they return, we are required to 
receive that information.
    If someone gets on that vessel, the requirement of the 
carrier is to provide that information as part of the APIS 
protocol.
    In addition to that, we do have CBP officers that meet any 
vessel that goes to an international location, and that's a 
requirement. If an international vessel intercepts another 
vessel, a domestic vessel, that vessel becomes an international 
vessel at that point because of the fact of that connection 
there that the vessel is no longer considered domestic.
    I hope I didn't confuse you there, but I just----
    Mr. Green. No, I'm not confused. I have to yield back. The 
Chairman's been more than generous with the time.
    I'll have some additional questions afterwards.
    Mr. Jacksta. Can I answer one more question? Just want to 
make sure that we don't--that in the Virgin Islands, we do have 
CBP officers. They do process all individuals who leave the 
Virgin Islands to the United States because of a number of 
customs-related laws that are--are currently required.
    The immigration requirements are a little bit different for 
coming out of the Virgin Islands, but we do--they do see--
anyone coming from the Virgin Islands has a requirement to be 
cleared by a CBP officer, a CB--Custom and Border Protection 
officer.
    Mr. Green. Thanks.
    Chairman Thompson. Thank you very much.
    The chair now recognizes the gentlewoman from New York, Ms. 
Slaughter.
    Ms. Slaughter. Thank you, Chairman Thompson, and I'd like 
to ask unanimous consent to give a brief and reduced opening 
statement before I ask my questions, if I may do that----
    Chairman Thompson. Without objection.
    Ms. Slaughter. --which will, I think, require me to have 
just a little bit more than five minutes, I hope.
    Chairman Thompson. You may hope.
    Ms. Slaughter. All right. Thank you very much.
    I want to first thank the Erie County Legislature for 
allowing us to use their beautiful chambers for this hearing. 
They've been most gracious and wonderful to work with.
    And I want to give abject thanks to Chairman Bennie 
Thompson. He not only has one of the most important jobs in the 
Congress, he has one of the most important jobs in the country, 
and he does it superbly, and I'm so grateful to him.
    We don't get as much chance to be home with our 
constituents as we used to when we worked two days a week, so 
I'm pleased that he and Congressman Carney and Congressman 
Green were both gracious and kind to be here with us today.
    I want to state at the outset that I support, like 
everybody else does in the United States, the intent of the 
travel initiative. It's imperative we know that those entering 
the country are who they say they are, that they mean us no 
harm, and have secure documents to prove it.
    In fact, every day I have reason to regret that 11 million 
people came in here illegally, and it really startles me that 
we have at this point so little control over our borders.
    But there are ways that we can implement WHTI that are 
smart and secure and make certain that our northern border 
remains a vital conduit for travel and trade.
    WHTI has occupied my time now, as many of my colleagues, 
for the past three years, and I must say that the Department of 
Homeland Security has been extremely gracious to me, and I 
thank you for that.
    Mr. Rosenzweig was here last month with Secretary Chertoff 
for a meeting. The Secretary met last week in my office with 
Governor Spitzer and others, and he has always kept me informed 
as we go along.
    And I do appreciate that reinventing an agency of 717,000 
people was not easy to do, and I'm sure you had a lot of 
growing pains.
    But over the last two years, I have to say that I've 
watched DHS and State stumble forward with a plan that will 
unintentionally deter cross-border travel while doing very 
little to improve our overall security.
    In fact, the front page of the Washington Post this 
morning--I don't know if you had a chance to look at that--
discusses a $1.2 billion purchase DHS wanted to make for 
devices to detect nuclear devices. They had convinced the 
Congress that they were necessary and that they were 90 to 95 
percent accurate.
    After 80 of them were ordered, the General Accountability 
Office did a study and found that they were no better than what 
we use now, that Congress had been misled by DHS about the 
effectiveness of this.
    And these are the kinds of things, gentlemen, that make me 
worry about DHS.
    Former 9/11 Commissioner Slade Gorton said that WHTI 
incorrectly implements the 9/11 recommendations and will have 
severe economic repercussions on the U.S. and Canada, and we've 
seen that already.
    Now, I'm convinced that Buffalo's economy will be 
irreparably harmed should WHTI move forward, and it doesn't 
have to be this way. As you know, we had bipartisan legislation 
which really said until that pilot project is finished in 
Washington, which you're paying for, we shouldn't move forward 
on anything. We need to know whether that's going to work or 
not.
    The Washington State is critically important, because the 
Olympics will be held in Vancouver, and they need to know that 
people can move safely back and forth across that border.
    The PACT Act also wanted us to improve frequent traveler 
programs by making sure that people know about the NEXUS card, 
that we make it simple for them to get one as the easiest way 
for those of us who live on the border to get back and forth.
    Now, the PACT Act's been endorsed by a hundred groups in 
the Greater Niagara region, every important trade and travel 
association in the United States and Canada, and more 
importantly this year, the House passed legislation that put 
the PACT Act, or the majority of it, into DHS's appropriations 
bills.
    But we don't think you're going to pay any attention to it. 
DHS and State shy away from it, continuing to say that 
beginning in January 2008, you will have something in place.
    The ongoing fiasco with passports, Ms. Barrett, we feel 
your pain, a direct result, I think, of the WHTI air rule, and 
people up here and in other parts of the country all along this 
border don't know what they need, aren't sure when they need 
it, and in many cases are simply not going.
    The GAO, Government Accountability Office, cited passport 
blunders last May when it asserted the two agencies had done 
next to nothing to accomplish the implementation schedule.
    Now, the House of Representatives recently voted 379 to 45 
to prohibit DHS from putting WHTI in effect before June 2009, 
and that has been voted on before both houses and passed into 
law, but today I've never heard anybody from DHS say that they 
plan to conform to that.
    I look forward to having you tell me why you think 379 
Members of Congress are wrong and to doubt the Administration's 
ability to promote this effectively.
    One of the most important issues is you didn't ask for a 
single penny in the budget we're working under now, 2007, to 
even install passport readers at land ports of entry.
    Isn't that true? You requested no money for that 
implementation.
    Mr. Jacksta. Congresswoman, we have--currently, we have 
document readers at all primary land border locations.
    We don't have the RFID capabilities there yet.
    Ms. Slaughter. Then you're not there by a long shot; isn't 
that correct?
    I'm really surprised, because, as I said, the Congress had 
already stated that you couldn't implement anything until you 
had all that in place.
    Are you going to say that you're going to have that all 
ready by next summer?
    Either one of you.
    Mr. Rosenzweig. Ma'am, we already have machine readable 
zones at all of the ports of entry. Thus, the pass cards that 
we are intending to deploy, the enhanced driver's licenses that 
we're intending to work with the State of New York, as we 
discussed in--in your office just last week, will all be 
imminently useable at every port of entry.
    What you're speaking of, I believe, is the RF technology--
--
    Ms. Slaughter. Right.
    Mr. Rosenzweig. --which is, of course, available in many 
lanes in the Buffalo area already, and we've asked for $250 
million to put that technology in.
    We made that request once we determined what the technology 
was that we would use, since there are several different types 
of RF technology and you have to pick the right one responsibly 
before you make the request.
    We were pleased that--That the House appropriations bill 
voted almost all of that money, though I must say that the 
provisions of the appropriations bill that restrict a hundred 
million of that would artificially delay our ability to 
actually put that technology out.
    And we're hopeful that as we work forward with you, we'll 
find a way to free up all of that $250 million as soon as the--
as soon as the 1907 budget--1908 budget--fiscal year 1908 
budget is passed, which we think will allow us to implement the 
RF technology at, as we've planned, the 39 largest ports of 
entry that cover about 95 percent of the--of all the traffic.
    Ms. Slaughter. Well, I'm sure you know that the Government 
Accountability Office had a report in December that stated that 
the type of RFID technology that you want to use for the 
passport card hasn't worked for the US-VISIT program, which has 
been an utter disaster and, as far as I know, is pretty much 
almost abandoned.
    The DHS privacy Committee suggested that RFID is 
inappropriate for human identification as the technology lacks 
any privacy safeguards.
    What safeguards are you going to take to make sure that 
those cardholders have their privacy protected?
    Mr. Rosenzweig. With respect, Congresswoman, with respect 
to the GAO report, that's a different technology than the one 
that we've tried.
    Ms. Slaughter. RFID?
    Mr. Rosenzweig. RFID is a broad definition of a large host 
of different ones.
    Ms. Slaughter. Let me tell you, they state--it's not a 
different technology.
    GAO does great work, and what they've said is the 
technology that you want to use for the passport card has not 
worked for US-VISIT.
    Mr. Rosenzweig. With--with respect, ma'am, that is not what 
the GAO----
    Ms. Slaughter. But they went further to say that it is 
inappropriate technology for human identification, because it 
does not protect privacy.
    Mr. Rosenzweig. With respect to the recommendations of the 
data privacy Committee, which I formerly chaired before coming 
over to the Department of Homeland Security, we've taken a 
number of steps to ensure that there is indeed privacy 
protection.
    In particular, the RF chip in the pass card will have only 
a single, randomly selected digit identifier. Thus, unlike 
other RF technology that might broadcast personal 
identification--your name, your date of birth, or something 
like that--it will simply identify--distribute to the system a 
unique, randomly generated identification number that will be 
the key that unlocks the personal data, which is maintained not 
on the card but in the government-developed databases, and that 
will be the product of the issuance process itself.
    Moreover, of course, that unique number will itself be 
encrypted through--through the privacy-enhancing encryption 
technologies that are available as well.
    So we believe that, in fact, the--the answer to the 
question is that the card itself is not used to identify an 
individual but is used to unlock the information that will 
identify the individual and populate the screens at the port of 
entry for the CBP officer to use to ensure that the person who 
presents himself is, in fact, the individual to whom the card 
was issued: the picture is the same, the descriptors are the 
same, the history of travel matches whatever answers the person 
might give, et cetera.
    Ms. Slaughter. And the privacy?
    Mr. Rosenzweig. Well, in our judgment, ma'am--and in this 
we have work closely with our friends at the Department of 
State--the use of a single, unique identifying number on the 
card ensures against the--the--the privacy concerns that the 
privacy Committee addressed.
    They were concerned that if one carried a card that 
broadcast one's name or one's hometown--home address, or the 
other things that are part and parcel of a passport 
identification, that that information could be skimmed out of 
the card, and thus, I could present myself falsely as Bob 
Jacksta, having skimmed the information from his card.
    If all I can skim from Mr. Jacksta's card is a unique, ten-
digit number that unlocked--that only the government can use to 
unlock a database, then all I can do is pretend to be somebody 
without even knowing that it belongs to Mr. Jacksta, somebody 
with a unique ten-digit number.
    Ms. Slaughter. Then you will have every American in that 
database.
    Mr. Rosenzweig. No, ma'am. We will have--we will have in 
that database, of course, the people who apply for----
    Ms. Slaughter. Apply for the card.
    Mr. Rosenzweig. --and receive a pass card just as we have 
in similar databases every American who seeks a passport or who 
seeks a--a--a visa--or every foreigner who seeks a visa.
    For border-crossing purposes, we do take the data of those 
who seek entry into the United States. That, indeed, is the 
very purpose of, in our judgment, an identification requirement 
at the border, is to identify that person.
    Ms. Slaughter. Wouldn't the NEXUS card do the same thing?
    Mr. Jacksta. Yes.
    Ms. Slaughter. Which is available right this minute?
    Mr. Jacksta. That's correct. That's where I wanted to go.
    Ms. Slaughter. Why are you looking for a new card? Why 
don't you just push NEXUS, which would help Congressman Green 
as well on the southern border.
    Mr. Jacksta. I think, Congresswoman, that's exactly what 
we're looking at.
    We're looking at using the technologies that we've 
developed for the NEXUS, SENTRI, and FAST cards that are very 
successful cards, where we have demonstrated that the 
technology works, that we've demonstrated that we can protect 
the privacy of individuals.
    We have close to 330,000 cards out there. When we move 
forward with the WHTI initiative, we're going to use that 
technology at the ports of entry and embed that type of 
technology and security into the pass card so that the privacy 
of the individuals would be protected.
    And--and I think that's important, and I--and the study 
that GAO--you're talking about was specifically towards US-
VISIT and the use of RFID in the I-94 card, and it was not 
successful, and as a result, the test was stopped.
    And we have brought it forward to what we call Generation 2 
type of technologies, and that's what we are looking for to 
enhance the processing.
    Ms. Slaughter. Now, US-VISIT was the same card that you 
want to use at the border, correct?
    Is that what GAO is saying?
    Mr. Jacksta. No, that is--no, they're wrong.
    Ms. Slaughter. It's the same technology.
    Mr. Jacksta. RFID technology, but not the same type of 
technology----
    Ms. Slaughter. Tell me, why did US-VISIT fail?
    You put a lot of money and a lot of time in that. Why did 
that fail?
    Mr. Jacksta. Well, I wouldn't--I think US-VISIT has been 
very successful with what we do at the ports of entry, 
recording the arrival of individuals who are visiting the 
United States both at the land and air----
    Ms. Slaughter. Do you intend it to either do eye 
identification or fingerprints of every person coming into the 
country?
    Mr. Jacksta. Well, we do currently--we collect the two 
fingerprints on all visitors to the United States, the index 
fingers, and we collect that information and brought it against 
our systems.
    But the--in the case----
    Ms. Slaughter. But is your system capable of taking care of 
people coming into the country that you don't know?
    Mr. Jacksta. Yes.
    Ms. Slaughter. How.
    Mr. Jacksta. Well, basically, we use that information--when 
the person arrives, we check the fingerprints to verify whether 
they have a visa--a proper visa or have they come to the United 
States before, are there any type of--are they on any--on any 
type of terrorist watch list, and based on that, we make a 
decision on whether we need to do further inspection or 
interview another person.
    Ms. Slaughter. Well, that's good for people who've come 
before, but what about the first-time visitor.
    You have no information on them.
    Mr. Rosenzweig. Ma'am, with respect to visa holders, they 
must give their fingerprints first overseas at the time they 
apply for the visa in one of our consular offices in Poland or 
in--you know, or in Manila.
    Thus, the fingerprint that they give when they apply for 
the visa overseas is irrevocably linked to the same fingerprint 
that they present upon arrival.
    Of course, for visa-free travelers who don't have to 
present themselves to seek a visa from our trusted allies in 
Western Europe--France, Germany, those sorts of countries--the 
first time they arrive will be the first time that we collect 
their fingerprints.
    But that, of course, is--is linked to their fingerprints 
the next time they arrive and any other time that they arrive 
and is linked to their passport, which also has a facial--a 
facial picture that allows us to recognize them as well and 
information about their prior travel.
    All right.
    Ms. Slaughter. Thank you.
    I--given the thing in the paper this morning in the Post 
about the nuclear detector has failed and US-VISIT has failed, 
I know you're working as hard as you can, but I don't have a 
lot of confidence that this is going to work either.
    Ms. Barrett, two years ago, the State Department was 
adamantly opposed to RFID. You said the smart-chip technology 
and the e-passport met better operational needs and stronger 
privacy safeguards.
    But now you've changed your mind. Why is that?
    Ms. Barrett. Well, we did have discussions with Homeland 
Security. We use proximity technology in our e-passport.
    Most of the discussion was centered around privacy issues, 
and we do feel that the RFID technology that is going to be 
used in the passport card has addressed our privacy concerns.
    It is one number pointing to a very secure database, so 
it's not going to be globally interoperable, and that's why 
it's only limited to the land border, so it will only be going 
into a secure government database.
    And we are also going to put the passport card in a 
protective sleeve that will prevent any skimming of even that 
number.
    So we feel that after--after our discussions, that our 
privacy concerns were addressed and that the RFID technology 
lends itself to the--the dual purpose of WHTI of not just 
enhanced security but also facilitation, particularly at the 
land borders.
    Ms. Slaughter. Did you arrive at that after the GAO report 
saying that the RFID card wouldn't do?
    Ms. Barrett. No, this was after discussions with Homeland 
Security.
    We worked very closely with them to see how we could get a 
technology that we would be satisfied with, and we just went 
out with our request for proposal in May.
    Ms. Slaughter. Did anybody take into account the GAO 
report?
    Mr. Rosenzweig. Indeed we have, ma'am. That is why, 
pursuant to the direction of Congress, we had this technology 
certified by the National Institute for Standards and 
Technology as Congress requested as meeting the standards--the 
generally applicable standards of privacy.
    We've gone--we've taken into account a great deal of both 
the GAO report, the concerns about privacy expressed, and, of 
course, the Congressional interest that you all expressed in 
last year's Homeland Security appropriations bill. It was in--
May of this year?--May of this year that, after--after testing, 
the NIST certified this technology as appropriate pursuant to 
your direction.
    So we feel as though we have taken into account all of 
these concerns and have indeed gotten the technology validated 
by pretty much as neutral a--an arbiter as one can find.
    That's not to say that other technologies are not also 
possible choices, but in the end, the facilitation benefits 
that we want to achieve--the ability to move traffic through 
the Peace Bridge more quickly instead of--reducing that linger 
time from 90 seconds to 10--is, in our judgment, substantially 
greater with this technology than with other choices.
    Thus--and, you know, diminishing the adverse impacts as 
much as we can.
    Ms. Slaughter. Well, let me just ask.
    As of this morning, the three of you, despite Congress and 
379 Members of the House, you are going to go ahead with this 
in January?
    Mr. Rosenzweig. The Notice of Proposed Rulemaking says that 
we are going to go ahead with limiting the number of oral 
declarations and the 8,000 different types of fraudulent cards 
of the sort that you have seen before you in January of next 
year and that the further reduction to passport, pass card, 
NEXUS, SENTRI, FAST, enhanced driver's license cards, and an 
assortment of other smaller cards like the Kickapoo 
identification card will become--will become mandatory only in 
the summer of next year.
    So we have--we will not fully implement this program in 
January of next year. We will begin the process of doing so 
and--and in the--and in the course of that, we hope, educate 
the public, begin to accustom them to the necessity of carrying 
documentation, begin to transition to a point where we've put 
out the rules.
    This will, of course, all come after quite an extensive 
public relations campaign.
    Ms. Slaughter. Thank all three of you for being here.
    Chairman Thompson. Thank you very much.
    Let me thank the witnesses for their testimony, and you 
will probably receive some additional questions from the 
members of the panel. Thank you very much.
    I now welcome our second panel of witnesses.
    [Recess.]
    Chairman Thompson. The Committee will reconvene with our 
second panel of witnesses.
    Our first witness, Mr. Paul Koessler, is Vice-Chairman of 
the Buffalo and Fort Erie Public Bridge Authority, better known 
as the Peace Bridge Authority. The Authority is a binational 
entity responsible for managing and maintaining the Peace 
Bridge.
    Our second witness is Mr. Howard Zemsky, managing partner 
of Taurus Capital Partners, LLC. He's also director of Buffalo-
Niagara Partnership and the Binational Tourism Alliance.
    Our third witness, Ms. Kathleen Lynch, is here representing 
the 9/11 Families of Western New York. Her brother, Michael 
Lynch of New York Fire Department, was killed on 9/11 when he 
entered the World Trade Center Tower 2 to assist in the rescue 
efforts.
    Our fourth witness, Mr. Kelly Johnston, is Vice-President 
of Government Affairs for Campbell Soup Company. He is also 
Vice-Chairman of the Canadian American Business Council and 
chairs their Program Committee.
    Our final witness, Mr. Stewart Verdery, Jr., is partner and 
founder of the Monument Policy Group. He previously served as 
the first Assistant Secretary for Policy and Planning at the 
Department of Homeland Security in the Border and 
Transportation Security Directorate.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
or her statement for five minutes, beginning with Mr. Koessler.

  STATEMENT OF PAUL KOESSLER, VICE CHAIRMAN, BUFFALO AND FORT 
                  ERIE PUBLIC BRIDGE AUTHORITY

    Mr. Koessler. Good afternoon, Mr. Thompson, and thank you 
for this opportunity.
    My name is Paul Koessler, and I'm Vice-Chairman of the 
Buffalo and Public Bridge Authority--Buffalo and Fort Erie 
Public Bridge Authority, more commonly referred to as the Peace 
Bridge Authority.
    Chairman Thompson. We can hear you now.
    Mr. Koessler. Oh, good.
    The Peace Bridge between Buffalo, New York, and Fort Erie, 
Ontario, which opened in 1927, is the second busiest border 
crossing between Canada and the United States with just under 6 
million cars and 1.3 million trucks crossing in 2006. 
Approximately $40 billion in two-way trade crosses the bridge 
annually.
    The Peace Bridge Authority is a self-funded entity relying 
primarily on to say for its operation and to fund capital 
improvements.
    The Canadian market just across the Niagara River is the 
lifeblood of Buffalo and Western New York. Two-thirds of 
Ontario's 12.7 million population lives in Southern Ontario, 
within two hours of Buffalo, and an additional 3.7 million 
people are anticipated to live in this area by 2031.
    This market is critical to the economic well-being of 
Western New York.
    Twentyone percent of the Buffalo Bills season tickets and 
28 percent of the Buffalo Sabres games tickets are sold to 
Canadians.
    One-third of the passengers flying out the Buffalo-Niagara 
International Airport are Canadians and are the primary reason 
for the growth and success of that airport.
    Forty percent of the D'Youville College students are 
Canadian.
    The Peace Bridge is a key conduit for companies like Rich 
Products, Delphi, General Motors, and tourism attractions like 
Darien Lake, Holiday Valley Ski Resort, Shea's Performing Arts 
Theater, Kleinhan's Music Hall, and the Inner and Outer Harbor 
projects.
    Canada is New York's number one export market. It accounts 
for 25 percent of New York's exports, larger than its next 
three trade partners combined.
    The Peace Bridge Authority supports the intent of the 
Western Hemisphere Travel Initiative to require improved, more 
secure documentation for those crossing the border; however, 
the confusion over what has become known as the passport 
requirement has already had a negative impact on cross-border 
travel.
    At the Peace Bridge, traffic declined by 16.9 percent from 
2000 to 2006 and has declined a further 7.5 percent so far in 
2007.
    We have some key concerns with the Notice of Proposed 
Rulemaking. Let me elaborate.
    One, there is no consistent, firm implementation date, 
which has been stated before, notwithstanding that Congress has 
already agreed to a June 2009 date for final implementation. 
The proposed rule states the summer of 2008 with a date to be 
determined.
    We would recommend a June 2009 date supported by an 
effective publicity and awareness campaign for the date and all 
applicable rules and exemptions.
    Two, we strongly support the inclusion of an enhanced 
driver's license issued by the provinces and states as an 
approved document under WHTI.
    We are concerned that there is not a sufficient amount of 
time to implement this initiative and that a much greater sense 
of urgency must become evident for this to become a reality 
even by June of 2009.
    Three, we question the purpose and usefulness of a passport 
card in that it detracts from the driver's license alternative, 
it will--that it will confuse people, and it will actually 
provide less value than a passport in that it cannot be used 
for overseas international travel.
    We would suggest that the NEXUS card be enhanced instead in 
the following ways:
    Harmonize the NEXUS and FAST eligibility criteria to allow 
more people into the program.
    Allow NEXUS to be used at all primary lanes, particularly 
after hours when the NEXUS lane is closed.
    Establish more enrollment centers in high demand areas.
    Allow for an appeals process to allow for some objective 
adjudication of a revoked NEXUS card.
    Simplify and explain the renewal process.
    Market the program and allow stakeholders like Bridge 
Authorities to assist and develop innovative promotional 
campaigns.
    Four, we do not believe the economic impact study done by 
the OMB accurately portrays the negative economic import on 
Western New York and the Peace Bridge Authority itself, 
particularly given the uncertainty associated with the 
implementation of passport alternatives like driver's licenses 
and the fear that the default position of DHS would then be 
only passports.
    Should that occur, the economic impacts of the Western New 
York economy would be devastated, given statistics I quoted 
earlier. The whole binational region would become less 
attractive as a destination.
    It is estimated that should this occur, then cross-border 
traffic across the Peace Bridge could decline as much as 25 
percent. The resultant decline in toll and rental service will 
then reduce our bonding capacity by $50 million and seriously 
put in jeopardy our capital expansion and improvement plans.
    Peace Bridge is a member of the Public Border Operator 
Association, which represents nine publicly owned border 
crossings between the Province of Ontario and the States of 
Michigan and New York.
    PBOA members have or are investing hundreds of millions of 
dollars in infrastructure improvements in order to make these 
important gateways as safe and secure and efficient as 
possible. The operators all rely on revenues received from 
commercial trucks and passenger vehicles to finance these 
projects, all of which would be put at risk should WHTI be 
carelessly implemented.
    Thank you for the opportunity to share our concerns and 
suggestions with you.
    [The statement of Mr. Koessler follows:]

                 Prepared Statement of Paul J. Koessler

    Good morning. My name is Paul Koessler and I am the vice-chairman 
of the Buffalo and Fort Erie Public Bridge Authority, more commonly 
referred to as the Peace Bridge Authority.
    The Peace Bridge between Buffalo, New York, and Fort Erie, Ontario, 
which opened in 1927 is the second busiest border crossing between 
Canada and the United States with just under 6 million cars and 1.3 
million trucks crossing in 2006. Approximately 40 billion dollars in 
two-way trade crosses the bridge annually. The Peace Bridge Authority 
is a self-funded entity relying primarily on tolls for its operation 
and to fund capital improvements.
    The Canadian market just across the Niagara River is the lifeblood 
of Buffalo and Western New York. Two-thirds of Ontario's 12.7 million 
population lives in southern Ontario within two hours of Buffalo and an 
additional 3.7 million people are anticipated to live in this area by 
2031. This market is critical to the economic well being of Western New 
York.
        --21% of the Buffalo Bills seasons tickets and 28% of the 
        Buffalo Sabres games tickets are sold to Canadians.
        --1/3 of the passengers flying out of the Buffalo Niagara 
        International Airport are Canadians and are the primary reason 
        for the success of that airport.
        --40% of the D'Youville College students are Canadian.
        --Peace Bridge is a key conduit for companies like Rich 
        Products, Delphi, General Motors, and tourism attractors like 
        Darien Lake, Holiday Valley Ski Resort, Shea's Performing Arts 
        Theater, Kleinhans Music Hall, and the Inner and Outer Harbor 
        projects.
        --Canada is New York's number one export market. It accounts 
        for 25% of New York's exports--larger than its next three trade 
        partners combined.
    The Peace Bridge Authority supports the intent of the Western 
Hemisphere Travel Initiative to require improved, more secure 
documentation for those crossing the border. However, the confusion 
over what has become known as ``the passport requirement'' has already 
had a negative impact on cross border travel. At the Peace Bridge 
traffic declined by 16.9% from 2000 to 2006 and has declined a further 
7.5% so far in 2007.
    For example, earlier this week we received a call from a family who 
had traveled to Buffalo from Pennsylvania with the intent of also 
visiting Canada. While the parents had passports their 7 month old 
child did not and they wanted to know if and how they would be able to 
re-enter the U.S. without proper documentation for their child. They 
had no idea that passports were not yet required for land crossings and 
that their child would be exempt in any event.
    This vividly illustrates some of the key concerns that we have with 
the Notice of Proposed Rule Making. Let me elaborate:
    One: There is no consistent firm implementation date 
notwithstanding that Congress has already agreed to a June 2009 date 
for final implementation. The proposed rule states summer 2008 with a 
date to be determined.
    We would recommend a June 2009 date supported by an effective 
publicity and awareness campaign for the date and all applicable rules 
and exemptions.
    Two: We strongly support the inclusion of enhanced driver's 
licenses issued by provinces and states as an approved document under 
WHTI.
    We are concerned that there is not sufficient time to implement 
this initiative and that a much greater sense of urgency must become 
evident for this to become a reality by June 2009.
    Three: We question the purpose and usefulness of a ``Passport 
Card'' in that it detracts from the driver's license alternative, that 
it will confuse people, and that it actually provides less value than a 
passport in that it cannot be used for international travel.
    We would suggest the NEXUS card be enhanced instead in the 
following ways:
        <bullet> Harmonize the NEXUS and FAST eligibility criteria to 
        allow more people into the program.
        <bullet> Allow NEXUS to be used in all primary lanes, 
        particularly after hours and the NEXUS lane is closed.
        <bullet> Establish more enrollment centers in high demand 
        areas.
        <bullet> Allow for an appeals process to allow for some 
        objective adjudication of revoked NEXUS cards.
        <bullet> Simplify the renewal process.
        <bullet> Market the program and allow stakeholders like Bridge 
        Authorities to assist and develop innovative promotional 
        campaigns.
    Four: We do not believe the Economic Impact Study accurately 
portrays the negative economic impact on Western New York and the Peace 
Bridge Authority itself; particularly given the uncertainty associated 
with implementation of passport alternatives like drivers licenses and 
the fear that the default position of DHS will then be only passports. 
Should that occur the economic impacts on the Western New York economy 
would be devastating, given the statistics I quoted earlier. The whole 
binational region would become less attractive as a destination. It is 
estimated that should this occur then cross border traffic across the 
Peace Bridge will decline 25%. The resultant decline in toll and rental 
revenue will reduce our bonding capacity by $50 million and put in 
jeopardy our capital expansion and improvement plans.
    The Peace Bridge is a member of the Public Border Operator 
Association (PBOA) which represents nine (9) publicly owed border 
crossings between the Province of Ontario and the States of Michigan 
and New York. Together these international crossings facilitate the 
movement of tens of billions of dollars worth of trade and tourism 
between our two nations annually. As not-for-profit organizations, PBOA 
members have or are investing hundreds of millions of dollars in 
infrastructure improvements in order to make these important gateways 
safe, secure and efficient as possible. The operators all rely on 
revenues received from commercial trucks and passenger vehicles to 
finance these projects, all of which will be put at risk should WHTI be 
carelessly implemented.
    Thank you for the opportunity to share our concerns and our 
suggestions with you.

                        SUPPLEMENTAL INFORMATION

                    Paul J. Koessler, Vice Chairman

             Buffalo and Fort Eried Public Bridge Authority

         Ron Rienas, General Manager_Designated Representative

OUTLINE OF COMMENTS AND RECOMMENDATIONS IN FULL STATEMENT:

        1. The Peace Bridge is critical to the economic well being of 
        Western New York.

        2. The Peace Bridge Authority supports the intent of the 
        Western Hemisphere Travel Initiative, however, it has already 
        negatively impacted cross border travel.

        3. Recommend a June 2009 date with publicity and awareness 
        campaigns.

        4. Support inclusion of enhanced driver's licenses.

        5. Question the purpose and usefulness of a ``Passport Card''.

        6. Suggest enhancing the NEXUS card and program.

        7. Economic Impact Study does not accurately portray the 
        negative impact on Western New York and the Peace Bridge 
        Authority itself.

        8. The Peace Bridge cross border traffic could decline an 
        estimated 25% thus reducing bonding capacity by $50 million and 
        put in jeopardy our capital expansion and improvement plans.

        9. All nine (9) publicly owned border crossings between the 
        Province of Ontario and the States of Michigan and New York 
        rely on revenues from commercial trucks and passenger vehicles 
        to finance projects and will be put at risk should WHTI be 
        carelessly implemented.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Mr. Zemsky to summarize his statement for 
five minutes.

 STATEMENT OF HOWARD ZEMSKY, PARTNER, TAURUS CAPITAL PARTNERS 
  LLC, BUFFALO NIAGARA PARTNERSHIP AND THE BINATIONAL TOURISM 
                            ALLIANCE

    Mr. Zemsky. Chairman Thompson, Congresswoman Slaughter, 
Congressman Carney, Congressman Green, thank you for coming to 
Buffalo. Thank you for the opportunity to participate.
    I'm speaking on behalf of the Buffalo-Niagara Partnership, 
our region's largest business association, and the Binational 
Tourism Alliance, which represents more than 125 U.S. and 
Canadian tourism organizations.
    I can assure you that the multitude of business interests 
represented by our remarks absolutely recognize the 
overwhelming responsibility that falls on DHS to provide 
homeland security since our world changed on September 11th, 
2001.
    We also believe there are ways to address security concerns 
that will both increase our security and ensure the free and 
fair flow of people and products that are so important to our 
way of life and our economy.
    We have shared a peaceful border with Canada for almost 200 
years. Our relationship is extraordinary.
    We share the world's largest trading relationship. An 
estimated 1.2 billion in trade crosses the U.S.-Canada border 
daily, supporting 5.2 million jobs nationally.
    2005 statistics from the Office of Travel and Tourism in 
Washington report 15 million Canadian visitors to the U.S., 
spending 8 billion on travel, accommodations, food, and 
entertainment.
    In New York State alone, that translates to 2.3 million 
visitors and $2 billion spending.
    You can best understand our cross-border relationships by 
comparing the Niagara River to the Potomac River. Can you 
imagine not being able to easily cross that river on a daily 
basis and what it would do to the businesses and residents of 
the D.C. area and surrounding communities if you could not?
    The long-term health and sustainability of our region's 
economy and communities depends on the ease of border 
crossings. Local manufacturers receive and supply parts on both 
sides of the border in just-in-time fashion. Our hospitals, 
universities, colleges, retailers, sports teams, cultural and 
tourism organizations, airports and transportation providers 
all depend on the Niagara River crossings. From a local to a 
national perspective, we believe it's critical to get WHTI 
right.
    My first testimony on this same subject was in November of 
1905. The majority of our concerns continue to revolve around 
implementation dates and documents.
    The business community is skeptical that DHS and DOS have 
allowed enough time to implement the proposed land crossing 
plan, now less than a year away. At previous hearings, we've 
been told by DHS their hands were tied by legislation which 
mandated January 1, 2008.
    But the legislation has been changed to June of 2009. Given 
the importance of getting it right, we support June 2009 
implementation.
    The recent news stories regarding passport processing 
problems, the press around the law's change to June of 2009, 
DHS's announcement regarding land-marine delays until June of 
2008, the prior published date of January of 2008 all lead to 
confusion in the public's mind regarding implementation dates, 
as you can surely understand.
    We believe DHS should invoke a comprehensive communications 
and public's awareness campaign throughout this process and 
beyond this implementation to ensure all U.S. citizens and 
visitors are made aware of travel requirements.
    While both the organizations I represent continue to update 
their members with regards to WHTI, the general public is quite 
confused. The confusion also relates to documentation. Does one 
need a license, a birth certificate, a notarized certificate, a 
pass card, passport, or some combination? What will be required 
to travel between our countries?
    Add to that the different needs for air, land, and marine, 
and you can understand the problem.
    Confusion and congestion can't be good for security. I 
think we've all got to the point where we acknowledge the 
passport is a clumsy document for the types of crossings in our 
region, generally stored in safe deposit boxes, not glove 
compartments or wallets or handbags.
    We are in favor of a secure driver's license. It is a 
common document. It has multiple uses, is inexpensive, and can 
be acquired at multiple locations.
    We applaud DHS's acceptance of alternative documents to 
cross the border with DHS supporting the Washington State 
enhanced license program and encouraging other states to do the 
same.
    The appropriate time and resources should be allocated to 
maximize this opportunity. This includes working closely with 
the Canadian jurisdictions to complete the pilot program prior 
to WHTI implementation.
    Recent research indicates the vast majority of border 
crossings are made by only 400,000 people at three crossing 
points at Detroit, Buffalo, and Bellingham. By establishing 
viable options of identification and inducing border residents 
to use them, customs officials will be able to devote more time 
to travelers they do not know, which enhances security and best 
utilizes their services.
    The business community believes the passport card that has 
been proposed is still in the early planning and development 
stages and will not be ready for implementation or wide 
circulation by 2008. New and upgraded RFID reader technologies 
will be required at most border crossing points to service 
these programs. We need the time to properly implement these 
technologies.
    Additionally, all the ultimate changes will require 
training for staff at the border so everyone communicates a 
consistent message. Recognizing the number of full--and part-
time staff as well as seasonal workers who need to be kept 
informed all suggest WHTI implementation in June of 2009.
    We understand the logic in improving documentation 
requirements for border crossings. We support that. Events have 
shown terrorism is real, and we must take national security 
very seriously, of course.
    At the same time, we must take economic security seriously. 
Here in Buffalo, our geography has always played a key role in 
our economy. Historically, it has been our strategic location 
along the east-west trade routes. In modern times, it's our 
strategic location north and south.
    We must think about how we can facilitate more trade and 
tourism with Canada, not less. We seek physical security and 
economic security, and we shouldn't settle for anything less.
    Thank you very much.
    [The statement of Mr. Zemsky follows:]

                 Prepared Statement of Howard A. Zemsky

    Chairman Thompson, Congresswoman Slaughter and Members of the 
Committee, thank you for inviting me to testify. My name is Howard 
Zemsky--I'm speaking on behalf of the Buffalo Niagara Partnership, our 
regions largest business association and on behalf of the Bi-National 
tourism alliance, a not for profit organization dedicated to reducing 
barriers across the Niagara River Crossings. Thank you for coming to 
Buffalo.
    We are here to discuss WHTI which came out of the Intelligence 
Reform and Terrorism Prevention Act of 2004, which called for a 
passport or ``other secure document or combination of documents to be 
presented on seeking entry to the U.S.''.
    This is a Homeland Security Committee and I know that all the 
businesses represented by my remarks do recognize the overwhelming 
responsibility that falls to DHS in providing homeland security. We 
believe there are ways to address security concerns that will both 
increase our security and ensure the free and fair flow of people and 
products that are so important to our way of life and our economy.
    We have shared a peaceful 3,000 + mile border with Canada for 
almost 200 years. Our relationship is extraordinary--we share the 
world's largest trading relationship between any two nations. An 
estimated $1.2 billion in trade crosses the US-Canada border DAILY--
supporting 5.2 million jobs, this relationship is clearly not just of 
local or northern interest it is clearly our national interest at all 
levels. Last year Canadians visiting the U.S spent approx $10 billion. 
About 4.0 million Canadians visit N.Y. State on an annual basis--many 
hundreds of millions of dollars of impact--the majority come from 
Ontario, our northern neighbor. For us locally, you can best understand 
the Niagara River by thinking about the way you navigate the Potomac 
River in the D.C area, you cross it every day. It's that way for us, we 
live and work and play on both sides of the river. The health of our 
economies including our local manufacturers that both receive and 
supply parts on both sides of the border in a just in time fashion as 
well as our tourist industry, our cultural organizations, many colleges 
and universities, retailers including our largest retail centers, our 
professional sports teams are all dependent on Niagara River Crossings. 
So, from a national perspective (our largest trading partner in the 
world) a State perspective and certainly a local perspective, we have 
to get WHTI right, it's simply too important not to.
    My first testimony on this same subject was in November 2005. When 
you think about the rate of progress on this subject over the past 
years, you can understand how the business community is skeptical that 
we can implement WHTI at land crossings in less than a year. At 
previous hearings we were told by DHS that their hands were tied by the 
legislation which mandated 1/1/08. But the legislation has been changed 
in response to the obvious inability to properly execute by than to 
June 1, 2009. Given the importance of getting it right, why aren't we 
taking the time that is now legislated? Instead, we create more 
confusion by coming up with yet another date--June of 2008. It was hard 
enough for people to keep track of the last dates, different for land 
and sea, on top of different documents--is it nexus or drivers license 
or birth certificate or notarized birth certificate, or passports, is 
it Jan 2008, June 2008, June 2009???? All of these have been reported. 
Is it any wonder the public is confused??? We sure haven't gotten it 
right so far.
    It's awfully hard to imagine that security is enhanced by the 
confusion and congestion at our land crossings. We think we're headed 
for trouble:
    Does anyone really believe that given the frequency of river 
crossings in our community a traditional passport is really the 
appropriate document-would you want to use one to cross the Potomac? It 
is clumsy and generally kept in a safe deposit box not a glove 
compartment or a wallet or handbag. Furthermore we are all aware of the 
severe backlog in processing passports- a backlog we were assured in 
this same building by DHS only a few months ago was not going to occur, 
has in fact occurred. Worse, once the land rule becomes a reality we 
should expect an even greater backlog as there are many times more 
people crossing the U.S Canada land border than by air. We believe the 
summer of 2008 is not realistic and recommend planning for a later 
implementation date of June 2009.
    With respect to the passport card, we all know this card is still 
in the planning stages and is no where near being available in wide 
circulation by early 2008. We recommend planning for a later 
implementation date of June 2009.
    With new I.D's, RFID reader technology at most border crossing 
points, state issued Ids to be negotiated, and many more items of 
concern, we do not have the time nor resources available to implement 
WHTI by summer of 2008. Implementation prior to DHS being fully ready 
at all border crossings will cause severe delays at crossings, create 
drops in number of crossings and create chaos and security concerns 
that is easily avoidable. By implementing June 2009 DHS has the time 
needed to fully prepare for the new rules.
    The vast majority of border crossings are made by only 400,000 
people at 3 crossing points--Detroit, Buffalo and Bellingham. If we can 
establish a viable system of identification and induce these people to 
use it customs officials will be able to devote much more time to 
travelers they do not know. This enhances security.
    We are in favor of secure WHTI drivers licenses. It has multiple 
uses, is inexpensive and can be acquired at multiple locations. However 
these programs have no chance of being widely available by the summer 
of 2008 let alone early 2008. Time should be provided to the states, 
provinces to engage with DHS and the Canadian Government to create 
agreements on the format of the licenses, and implement these programs 
before WHTI is implemented. We should take advantage of the Washington 
State pilot program and to identify problems with the system and apply 
solutions across the nation.
    When a plan for WHTI is realistically developed it should be 
supported by an extensive communications plan to inform the public. 
Currently we have nothing but confusion.
    When seek Congress to mitigate the cost of implementing WHTI 
compliant licenses as a matter of national security.
    We understand the logic in improving documentation requirements for 
border crossings. We support that. Events have shown terrorism is real 
and we must all take national security very seriously. At the same time 
we must take economic security very seriously. Here in Buffalo our 
geography has always played a key role in our economy. Historically it 
has been our strategic location along the east-west trade routes. In 
modern times it is our strategic location along north-south trade and 
travel routes. We must be thinking of how we can facilitate more trade 
and tourism with Canada, not less. We seek physical security and 
economic security and we shouldn't settle for anything less.
    Thank you for the opportunity to share our thoughts today.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Ms. Lynch to summarize her statement for 
five minutes.

 STATEMENT OF KATHLEEN LYNCH, 9-11 FAMILIES OF WESTERN NEW YORK

    Ms. Lynch. Mr. Thompson and honorable members of this 
Committee, I thank you for the opportunity to address you here 
today.
    My name is Kathleen Lynch. I reside in Snyder, New York, a 
local community. My brother, Michael Lynch, a firefighter, was 
killed on September 11th.
    I am here today representing a group of local 9/11 family 
members to express our deep concern over the proposed delay in 
the implementation of WHTI, the legislative enactment of an 
important 9/11 Commission recommendation.
    We are all residents of Western New York and recognize that 
requiring a passport for land border crossings between the U.S. 
and Canada will change a practice that has long been enjoyed by 
border residents.
    We are also family members of loved ones killed in the 
September 11th attacks and a survivor. We have personally 
experienced the cost or sacrifice that comes with a terrorist 
attack. It is a sacrifice that we hope no person or family in 
this border community will ever have to make.
    So we watched in astonishment as Congress reacted to 
panicked travelers by rushing to a so-called solution that 
prolongs the risk to our national security.
    Yes, the State Department botched the initial handling of 
WHTI, but our elected representatives reacted by postponing a 
vital border security initiative, putting our very lives at 
risk. That, in our view, is both an overreaction and a high-
risk gamble, especially at a time when intelligence agencies 
warn that al-Qa'ida is growing stronger and is seeking Western 
operatives.
    We realize that the language postponing WHTI was introduced 
into the DHS appropriations bill in response to the backlog in 
passport processing and the lack of development of passport 
alternatives. We know that pressure has been placed on Congress 
by constituents who resist this passport measure, citing 
inconvenience, cost, and economic impact.
    Though $9.70 per year for a 10-year passport is likely not 
that burdensome for many travelers, we do recognize that it may 
be so for low-income families and persons. Still, we believe 
that with cooperation by Congress, the Departments of State and 
Homeland Security, and our nation's citizens, these concerns 
can be addressed without changing WHTI's original timetable.
    Since passport cost and backlog are the key roadblocks 
cited, we propose the following:
    Lower the cost of passports by using unspent Homeland 
Security funds to subsidize the expense to each passport 
applicant. My understanding is that in Canada, a passport costs 
$36. Maybe we should be aiming for the same.
    Use available capital to reduce the cost of passports 
themselves rather than now investing millions in creating 
alternatives and see--provide federal income tax credits for 
passport fees, especially for low-income families.
    You can fix delays by increasing State Department 
processing staff, by creating regional passport offices along 
border communities like Buffalo-Niagara to expedite processing 
and emergencies, and by requesting public cooperation so that 
anyone with no immediate travel plans defers the application 
until the backlog is under control.
    We don't believe that the solution now lies in shifting 
this important federal government function to the states, a 
suggestion inherent in using enhanced driver's licenses as an 
alternative. We fear that that concept poses its own problems, 
not the least of which are delays in potential legislative 
action, development and implementation of new technology, the 
issue of funding and transferring cost to the state--from the 
state--from the federal government to the state and to the 
counties, hiring and training of specialized DMV staff, 
security clearances that will be needed for DMV workers now 
processing--basically processing citizenship documents, and 
oversight measures to ensure that there are no security 
breaches.
    If every state implements a driver's license alternative as 
an alternative to a passport, that security risk will be 
multiplied by the thousands due to the vast number of DMV 
locations.
    A secure document for the purposes of verifying citizenship 
already exists. It's a United States passport. Congressional 
efforts should be directed towards facilitating passport 
availability rather than delaying WHTI.
    The fact that a record number of people have applied for 
passports indicates a willingness on the part of U.S. citizens 
to comply with this common-sense initiative. Unfortunately, 
there was no effective early public awareness campaign to 
accompany the initiative.
    We recognize there is resistance to WHTI because of fears 
that it will have an adverse impact on local economies of 
border cities and states; however, if Americans can obtain 
affordable passports within a reasonable time frame, the impact 
of WHTI will be both temporary and minimal.
    In contrast, the economic impact of a terrorist attack, no 
matter where it occurs, will have a far more devastating ripple 
effect on commerce and on travel, on our borders, on our first 
responders, on our military, and--as we families and friends of 
those lost on 9/11 can attest--on life itself.
    On September 11th, my brother Michael performed the most 
extraordinary act of sacrifice that a human being can perform. 
Michael left behind a legacy of courage, courage in the face of 
fear and adversity.
    When my children ask me could Michael have said no, could 
he have refused to enter the World Trade Center or allowed 
others to perform this heroic act, I respond by telling them 
no. Michael could not and did not abandon his obligation, 
because it was his job as a firefighter to rescue others, even 
if it meant losing his life.
    Michael lived up to his responsibility to protect and save 
others. We came here today to urge you, our elected officials, 
not to abandon this primary responsibility to protect us as 
citizens.
    Please do not try to delay or transfer this important task. 
You cannot falter simply because you have encountered obstacles 
and opposition.
    Stringent security at our borders is a very real and urgent 
component of national security. WHTI eases a monumental burden 
on our border officers who must otherwise sort through a vast 
array of identification documents.
    This measure should not be diminished in gravity or 
priority. Rather than postpone WHTI, we urge you to support the 
strategies we have suggested.
    Solving the problems of availability and affordability 
would enable WHTI, a vital national security safeguard, to be 
implemented according to its original timetable. The American 
people deserve nothing less.
    I thank you.
    [The statement of Ms. Lynch follows:]

                Prepared Statement of Kathleen A. Lynch

    Mr. Chairman and Honorable Members of this Committee:
    Thank you for the opportunity to address you today.
    My name is Kathleen Lynch. I reside in Snyder NY, a local 
community. My brother Michael Lynch, a NYC Firefighter, was killed on 
September 11th, while rescuing others from WTC Tower 2. I am here 
today, representing a group of local WNY 911 family members, to express 
our deep concern over the proposed delay in the implementation of 
Western Hemisphere Travel Initiative (WHTI), the legislative enactment 
of an important 9/11 Commission recommendation.
    We are all residents of Western New York and recognize that 
requiring a passport for land border crossings between the US and 
Canada will change a practice that has long been enjoyed by border 
residents. We are also family members of loved ones killed in the 
September 11th attacks and a survivor. We have personally experienced 
the ``cost'' or sacrifice that comes with a terrorist attack. We know 
that it is a far more devastating sacrifice than inconvenience, 
frustration over delays, or the $97.00 ``cost'' attached to a passport. 
It is a sacrifice that we hope no person or family in this border 
community will ever have to make.
    We watched in astonishment as Congress reacted to panicked 
travelers by stampeding to a so-called ``solution'' that prolongs a 
risk to our national security. Yes-the State Department botched the 
initial handling of WHTI but our elective representatives reacted by 
postponing a vital border security initiative, putting our lives at 
risk. That is both an over-reaction and a high-risk gamble, especially 
at a time when intelligence agencies warn that al-Qa'ida is growing 
stronger and is seeking Western operatives.
    We realize that the language postponing WHTI was introduced into 
the Department of Homeland Security appropriations bill in response to 
the backlog in passport processing and the lack of progress on passport 
alternatives. We know that pressure has been placed on Congress by 
constituents who resist this passport measure, citing inconvenience, 
cost and economic impact. Though $9.70 per year for a 10-year passport 
hardly seems burdensome for many people, when you balance that cost 
against national security and the threat to human life, we understand 
that it can be an obstacle for low-income persons and families.
    Still, we believe that with innovative and collaborative thinking 
by Congress, the Departments of State and Homeland Security, and our 
nation?s citizens, these concerns can be addressed without changing 
WHTI's original timetable.
    Since passport cost and backlog are the key roadblocks cited, we 
propose the following solutions:

Lower the cost of passports by:
        (a) Re-appropriating some of the unspent Homeland Security 
        funds to subsidize the expense to each passport applicant;
        (b) Applying available capital to reduce the cost of passports 
        themselves rather than investing millions in creating passport 
        alternatives;
        (c) Introducing legislation that would give federal income tax 
        credits for passport fees, particularly for low-income 
        families.

Fix the delays by:
        (a) Introducing and supporting legislation that will increase 
        State Department processing staff;
        (b) Request public cooperation so that anyone with no immediate 
        travel plans defers their passport application until the 
        backlog is under control;
        (c) Create regional passport offices along border communities 
        to expedite processing and handle emergencies.
    We do not believe the solution lies in now shifting the 
responsibility for this important federal government function to the 
states, a suggestion inherent in using enhanced driver?s licenses as an 
alternative. That concept poses its own problems, not the least of 
which are delays in developing and implementation new technology, he 
drawbacks and complications attendant in transferring the costs and 
funding from the federal government to the state; the hiring and 
training of specialized Department of Motor Vehicle staff; the security 
clearances that will be needed for DMV workers processing citizenship 
documents; and the oversight measures that will be needed by the State 
to ensure there are no security breaches. If every state implements a 
drivers? license alternative, that security risk will be multiplied by 
the thousands, due to the vast number of DMV locations.
    A secure document for purposes of verifying citizenship already 
exists: a United States passport. Congressional efforts should be 
directed toward facilitating passport availability rather than delaying 
WHTI.
    The fact that a record number of people have applied for passports 
indicates a willingness on the part of US citizens to comply with this 
common-sense initiative. Unfortunately, there was no effective early 
public awareness campaign to accompany the initiative explaining the 
need to start the application process early on, the exceptions for 
children under 16, and the benefits of WHTI.
    Finally, we recognize there is resistance to WHTI because of fears 
that it will have an adverse impact on the local economies of border 
cities and states. However, if Americans can obtain affordable 
passports within a reasonable time frame, the impact of WHTI will be 
both temporary and minimal. In contrast, the economic impact of a 
terrorist attack, no matter where it occurs, will have a far more 
devastating ripple effect: on commerce and travel, on our borders, on 
our military and first responders, and? as the families and friends of 
those lost on 9/11 can attest? on life itself.
    We are Western New Yorkers, but we are Americans first. We should 
be willing to bear the cost and minor inconvenience of using a passport 
to cross the US land border.
    On September 11th, my brother Michael performed the most 
extraordinary act of sacrifice that a human being can perform. Michael 
left behind a legacy of courage-courage in the face of fear and 
adversity. When my children ask me, could Michael have said No? Could 
he have refused to enter the World Trade Center or allow others to 
perform this heroic act? I respond by telling them no. Michael could 
not and did not abandon his obligation because it was his job as a 
firefighter to rescue others-even if it meant losing his life. Michael 
lived up to his responsibility to protect and save others.
    We came here today to urge you, our elected officials, not to 
abandon your primary responsibility to protect us as citizens. Please 
do not try to delay or transfer this important task. You cannot falter 
simply because you have encountered obstacles and opposition.
    Stringent security at our borders is a very real and urgent 
component of national security. WHTI eases a monumental burden on our 
border officers who otherwise must sort through a vast array of 
identification documents. This measure should not be diminished in 
gravity or priority. Rather than postpone WHTI, we urge you to support 
the strategies we have suggested. Solving the problems of availability 
and affordability would enable WHTI, a vital national security 
safeguard, to be implemented according to its original timetable.
    The American people deserve nothing less.

    Chairman Thompson. And thank you for your testimony, and I 
assure you, this Committee and other Members of Congress that I 
talk to will not abandon the families.
    I now recognize Mr. Johnston to summarize his statement for 
five minutes.

  STATEMENT OF KELLY JOHNSTON, VICE-CHAIR, CANADIAN AMERICAN 
                        BUSINESS COUNCIL

    Mr. Johnston. Well, thank you, Mr. Chairman and members of 
the Committee. I really appreciate all of your leadership, 
which is evidenced by your being here today, on border security 
issues.
    Congresswoman Slaughter, I want to thank you in particular 
for being an especially tireless and effective advocate for 
smart border policy. The business community is grateful for all 
of your efforts.
    I am here today in my capacity as Vice-Chair of the Board 
of Directors of the Canadian American Business Council, the 
CABC, which is a non-profit issues-oriented organization 
dedicated to elevating the private sector perspective on public 
policy challenges between the U.S. and Canada.
    Our members are key business leaders from both sides of the 
border. My company is a member of the CABC and supports the 
work this organization is doing to enhance the Canada-U.S. 
relationship.
    I also want to note that my company is a member of the 
North American Competitiveness Council, one of ten companies in 
the U.S., the private sector entity of the Security and 
Prosperity Partnership Initiative for North America, best known 
as the SPP.
    We support the goals of the NACC and the SPP to enhance the 
secure flow of people, goods, and services in North America.
    Mr. Chairman, I'm here today to express our commitment to 
work with you, the Congress, and the Departments of Homeland 
Security and State to successfully implement the Western 
Hemisphere Travel Initiative. Let me stress the efficient 
movement of people, goods, and services and a secure border are 
not mutually exclusive or competing objectives. In fact, they 
are necessarily intertwined.
    Significant delays or ineffective and inconsistent border 
procedures are not just hindrances to trade. They pose 
potential security risks. The safety of our employees, our 
products, and security of our supply chains is our first 
priority, and without them, you simply cannot do business.
    I am also here, Mr. Chairman, to express our significant 
concerns about the harm that WHTI could inflict on legitimate 
commerce, trade, and tourism if it is not implemented properly.
    WHTI does not only affect border communities and 
spontaneous travel but also the entire North American economy. 
As we heard earlier, with more than $1.2 billion in goods and 
services crossing our land border every single day involving 
every state in the Union, it is imperative that we work 
together to get this right.
    The members of the CABC question the ability for WHTI to 
increase security if DHS and State do not utilize the time 
provided by Congress to ask for the necessary resources, 
conduct pilot projects, and to perform an economic impact 
analysis, including a study of the effect of border delays.
    We are not seeking delay for delay's sake. We are not 
seeking an indefinite extension. We're simply saying take the 
time and the steps necessary to get it right.
    Just to further summarize my written comments, the CABC is 
ultimately concerned that the U.S.-Canada border crossings are 
increasingly becoming a competitive disadvantage when compared 
to the rest of the world and other key trading blocs in Europe 
and Asia.
    We're also concerned that the lack of adequate 
infrastructure is not being adequately considered.
    Also, security concerns must be balanced with economic 
prosperity in a risk-based approach to border management. 
Implementing WHTI without addressing border delays that it may 
cause does not actually increase security. In fact, it may 
become a security problem in its own right by creating economic 
sitting ducks at busiest crossings.
    Mr. Chairman, thanks to both the North American Free Trade 
Agreement, NAFTA, and the closely connected economies of the 
U.S. and Canada, the North American supply chain for many 
companies, including my own, are highly integrated.
    In the automotive industry, for example, a part may cross 
the border as many as seven times before it makes its way to 
the consumer.
    In the food industry, a vegetable grown in the upper 
Midwest or flour from New York, peppers from Texas or cocoa 
from Pennsylvania may find its way into a product that is 
processed just across the border in Ontario or Quebec and then 
shipped back the U.S.
    So delays at U.S. ports of entry don't just harm Canadian 
processors. It backs up the entire supply chain, affecting even 
the Midwestern farmer or the New York flour mill.
    In addition, delays at U.S. ports have also resulted in 
trucking companies dramatically raising prices to ship our 
products or, in some cases, refusing our business because it's 
just not worth the hassle.
    And with the cascade of changes at ports of entry since 9/
11, from staffing shortages, reduced or changing hours of 
service, mandates for secondary inspection of some products--
particularly in my industry, the food industry--and, of course, 
new fees, it's hard to blame some transportation companies from 
throwing in the towel.
    Many of us simply get no advantages from C-TPAT membership 
or FAST lanes.
    In my written statement, I have highlighted key concerns 
that must be addressed before full implementation of WHTI can 
take effect.
    I want to thank you again, Mr. Chairman, and the Committee 
members for providing me with this opportunity to present this 
point of view. I want you to know the CABC is very grateful for 
all of your work and hopes to remain a resource for you and 
your colleagues in the future.
    The Council strives to present a continental view in that 
we look at WHTI as not just an issue that affects the border 
communities but as one that affects the entire North American 
integrated supply chain and the jobs that go with it, as well 
as North America's ability to compete in the global 
marketplace.
    Thank you for your time today.
    [The statement of Ms. Johnston follows:]

                  Prepared Statement of Kelly Johnston

    Introduction
    Thank you Mr. Chairman, and members of the committee for this 
opportunity to testify this morning. I'd also like to thank 
Congresswoman Slaughter for her terrific leadership on border 
management issues. Congresswoman Slaughter has been a tireless and 
effective advocate for smart border policy. The business community is 
grateful for all of your efforts.
    I look forward to engaging in a meaningful dialogue with you today 
and am happy to answer any questions you may have.
    I am here today in my capacity as Vice Chair of the Board of 
Directors of the Canadian American Business Council (CABC). I am also 
the Vice President for Government Affairs at Campbell Soup Company. 
Established in 1987, the CABC is a non-profit, issues oriented 
organization dedicated to elevating the private sector perspective on 
public policy challenges. Our members are key business leaders from 
both sides of the border. My company is a member of the CABC and is 
extremely supportive of the work that this organization is doing to 
enhance the Canada-US relationship. The CABC is the voice of business 
in the US-Canada relationship, including border issues that affect the 
entire North American economy. I also represent my company as a member 
of the North American Competitiveness Council (NACC), the private 
sector entity of the Security and Prosperity Initiative for North 
America (SPP). We support the goals of the NACC, and the SPP, to 
enhance the secure flow of people, goods and services in North America.
    Campbell Soup Company is a global manufacturer and marketer of high 
quality soup, sauces, beverage, biscuits, confectionery and prepared 
food products. The company owns a portfolio of more than 20 market-
leading businesses worldwide each with more than $100 million in sales. 
We operate 19 manufacturing facilities in 14 states, and additional 
facilities in 21 other countries, including two in Ontario, Canada that 
serve both the US and Canadian markets. The company is ably supported 
by 24,000 employees worldwide, including more than 15,000 employees in 
North America.
    Mr. Chairman, I am here today to express our commitment to work 
with you, the Congress, and the Departments of Homeland Security and 
State to successfully implement the Western Hemisphere Travel 
Initiative. Let me stress the efficient movement of people, goods and 
services and a secure border are not mutually exclusive or competing 
objectives. In fact, they are necessarily intertwined. Significant 
delays or ineffective border procedures are not just hindrances to 
trade, they post potential security risks. The safety of our employees, 
our products and the security of our supply chains is our first 
priority, and without them, you simply cannot do business.
    I am also here, Mr. Chairman, to express our significant concerns 
about the harm that WHTI could inflict on legitimate commerce, trade 
and tourism if it is not implemented properly. WHTI does not only 
affect the border communities and spontaneous travel, but also the 
entire North American economy. With more than $1.5 billion in goods and 
services crossing our land border every single day, involving every 
state in the Union, it is imperative that we work together to get this 
right.
    The Members of the CABC question the ability for WHTI to increase 
security if DHS and State do not utilize the time provided by Congress 
to ask for the necessary resources, conduct pilot projects and to 
perform an economic impact analysis, including a study of the effect of 
border delays. We are not seeking delay for delay's sake. We are not 
seeking an indefinite extension. We are simply saying; take the time 
and the steps necessary to get it right.

Key Concerns
    The CABC is concerned that the US-Canada border crossings are 
increasingly becoming a competitive disadvantage when compared to the 
rest of the world and other key trading blocs in Europe and Asia.
    Our concerns over the implementation of WHTI are based on 
experience. Programs like CTPAT, Nexus, FAST, among others, haven't 
lived up to expectations nor fully achieved their intended benefits to 
commerce and tourism. Specifically, DHS decided not to implement US-
Visit at the land border because of the logistical nightmare it was 
creating. Is it any wonder, therefore, that the business community 
lacks confidence in the successful implementation of WHTI under the 
current timetable?
    On December 17, 2004, the Government of the United States and the 
Government of Canada issued a statement announcing the signing of the 
Smart Border Declaration. Among other important items, both governments 
acknowledged in their statements that they were ``committed to building 
a more secure, efficient and modern border. . .At the heart of the 
Smart Borders process is the recognition that public security and 
economic security can be achieved simultaneously and are mutually 
reinforcing.'' The CABC is concerned that security concerns are not 
being balanced with economic prosperity in a risk-based approach to 
border management. Implementing WHTI without addressing border delays 
that it will cause does not actually increase security, and may in fact 
become a new security problem in its own right by creating economic 
sitting ducks at the busiest crossings.
    The US and Canada have the best intelligence sharing and law 
enforcement cooperation in the world. Further, since 9/11, Canada has 
spent hundreds of millions of dollars in the war on terror and homeland 
security. The Harper government is eager to work closely with the Bush 
Administration on homeland security issues. The business community is 
not only concerned about the potentially negative impact WHTI will have 
on commerce, but the current implementation plan's ability to better 
secure the homeland.
    Mr. Chairman, thanks to both the North American Free Trade 
Agreement (NAFTA) and the closely connected economies of the US and 
Canada, the North American supply chain for many companies, including 
my own, are highly integrated. In the automotive industry, a part may 
cross the border as many as 7 times before it makes its way to the 
consumer. In the food industry, a vegetable grown in upper Midwest, or 
flour from New York, may find its way into a product that is processed 
just across the border in Ontario or Quebec, and then shipped back to 
the US. So delays at US ports of entry don't just harm Canadian 
processors--it backs up the entire supply chain, affecting even that 
Midwestern farmer or New York flour mill. In addition, delays at US 
ports have also resulted in trucking companies dramatically raising 
prices to ship our products, or in some cases, refusing our business 
because it's just not worth the hassle. And with a cascade of changes 
at port of entry since 9/11, from staffing shortages, reduced or 
changing hours of service, mandates for secondary inspection of some 
products, particularly in the food industry, and of course new fees, 
its hard to blame some transportation companies from throwing in the 
towel.
    The following concerns must be addressed before full implementation 
of WHTI can take place:
        <bullet> Given the uneven and incomplete implementation of the 
        NEXUS, FAST, CTPAT, Canpass, e-passport, Real-ID, Registered 
        Traveler and Transportation worker programs, what assurances 
        can DHS give about its ability to properly implement WHTI at 
        the land border by the summer of 2008 as estimated in the most 
        recent Notice of Proposed Rulemaking?
        <bullet> The air rule was implemented in January 2007 and we 
        have already seen a variety of problems arise due to staffing 
        shortages at passport agencies and confusion among frequent 
        travelers. With greater commercial interests at stake at the 
        land border and greater logistical challenges with the variety 
        of crossings that exist, how can the business community be 
        assured that DHS and State will be ready to properly implement 
        WHTI by the summer of 2008 as estimated by the most recent 
        Notice of Proposed Rulemaking?
        <bullet> While we appreciate the administration's efforts to 
        outline a plan of implementation which will address 
        infrastructure enhancements, technology development, and 
        increased staffing--there is still a tremendous amount of 
        uncertainty. The business community needs to anticipate what's 
        coming next in order to properly adapt. This proves difficult 
        to do when there is a lack of transparency with regards to 
        implementation plans.
        <bullet> The NPRM, published in the Federal Register on June 
        26, 2007, states that DHS will comply with infrastructure 
        requirements by certifying that ``. . .the necessary passport 
        card infrastructure has been installed and employees have been 
        trained.'' We appreciate efforts to ensure that proper staffing 
        is in place and that the appropriate documents are issued, but 
        we are concerned about the physical infrastructure of the 
        Canada/US border crossings. How does DHS plan to address the 
        need for additional pull aside lanes for secondary inspections 
        and additional lanes for trusted travelers so that legitimate 
        goods, people and services can cross the border in a timely 
        fashion that does not impede commerce?
        <bullet> The NPRM addresses Executive Order 12866 which 
        requires the Office of Management and Budget to conduct a cost/
        benefit analysis of the proposed rule. The assessment focuses 
        on travel and tourism and does not appear to address the larger 
        concerns of the business community and the integrated North 
        American supply chain. How does DHS plan to implement pilot 
        projects to assess the potential impact of WHTI on cross-border 
        commerce so that final implementation of WHTI does not 
        negatively affect our economic prosperity and security?

Recommendations
    With the leaders of Canada, the United States and Mexico schedule 
to meet in Ottawa next month to discuss the Security and Prosperity 
Partnership and the recent recommendations of the NACC, among other 
things, what can we expect them to say about WHTI? What progress will 
there be to report? What will the next steps being following the August 
meeting?
    <bullet> The CABC urges DHS to adhere to the goals stated in the 
Security and Prosperity Partnership and to work together with Canada in 
an effort to make our common border both more secure and efficient. 
Through the Security and Prosperity Partnership and the NACC, the 
government leadership and the private sector have both identified 
proper implementation of WHTI as a key priority.
    <bullet> In order to properly implement WHTI at the land crossings, 
the CABC asks that DHS use the additional time provided by Congress to 
get it right. As stated in the FY08 House Homeland Security 
Appropriates bill, the CABC supports the need for DHS to provide the 
results of pilot programs used to develop and implement WHTI. 
Specifically, the pilot projects need to address infrastructure and 
staffing requirements, detailed plans for further implementation, 
explanation of technology requirements, and test results that ensure 
operational success.
        <bullet> We ask that DHS recognize the need to advance the dual 
        objectives of security and facilitation. Enhancing security and 
        improving economic prosperity are mutually reinforcing.
        <bullet> We ask that DHS acknowledge the tremendous economic 
        impact of border management policy. Canada and the United 
        States enjoy the largest trading relationship in the world 
        which depends upon the efficient movement of legitimate goods, 
        services and people across our common border. Failure to 
        address key border management issues affects the integrated 
        North American supply chain, impacts US and Canadian business, 
        and reflects negatively on North American competitiveness vis a 
        vis the rest of the world.

Conclusion
    Thank you again, Mr. Chairman and committee members, for providing 
me with this opportunity to present the point of view of the larger 
business community. The CABC is grateful for all of your work and hopes 
to remain a resource for you and your colleagues in the future. The 
Council strives to present a continental view in that we look at WHTI 
as not just an issue that affects the border communities, but as one 
that affects the North American integrated supply chain and North 
American competitiveness vis a vis the rest of the world. We believe 
that it is paramount that the public and private sectors work together 
to get this right so that we actually achieve greater security and 
improve our economic prosperity.
    Thank you for your time today. I look forward to your questions.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Mr. Stewart Verdery to summarize his 
statement for five minutes.

  STATEMENT OF STEWART VERDERY, PARTNER AND FOUNDER, MONUMENT 
                          POLICY GROUP

    Mr. Verdery. Mr. Chairman and Chairwoman Slaughter and 
members of the Committee, thanks for the invitation to return 
to your Committee in a different setting. As the last witness, 
I'll try to--try to go fast.
    I had the privilege of working as Assistant Secretary of 
Homeland Security when we devised the Western Hemisphere Travel 
Initiative and convinced the 9/11 Commission and eventually the 
Congress to enact it and have had a good deal of experience 
watching this over the last few years and hopefully have a 
series of recommendations for you as we move towards final 
implementation over the next couple years.
    I, of course, agree with the rationale for the law that was 
presented by the government witnesses on the first panel, and I 
am convinced that, if done correctly, like US-VISIT at the 
ports of entry can be a facilitator as well as a security 
enhancement.
    The--improving our entry process and identity documents is 
a question of will and priority. Implementation of WHTI in a 
manner and on a schedule that facilitates international 
commerce while closing one of our most glaring holes in our 
counter-terrorism strategy is not impossible, but it takes a 
funding commitment from the Congress. It takes a willingness to 
partner with states, with the Canadian government and 
provincial governments, and it requires a very reasonable 
request of our citizens and those from Canada that they cannot 
expect to drive into the United States, into a--into the United 
States, which is under attack from extremists, merely by 
presenting a friendly face or an identity document that a 15-
year-old can create in ten minutes with photo-editing software 
and a color printer.
    Hopefully, these ten recommendations will help us get it 
right:
    First, Department of State should move as expeditiously as 
possible to develop, purchase, and distribute passport cards 
for WHTI compliance purposes.
    Two, Congress should encourage DHS to enter into 
partnerships with as many states as are willing to build dual-
use enhanced driver's licenses, EDLs, suitable for WHTI 
purposes. An EDL will be issued after a security background 
check that is better than what is used for a passport or a pass 
card, not worse.
    Third, DHS should promulgate regulations outlining exactly 
what technical specifications states and Canadian governments 
should follow in building EDLs, which will operate essentially 
the same as a passport card. For the inspector, for Bob 
Jacksta's individuals, it won't matter to them whether they're 
seeing a federally issued passport card, a state EDL, or a 
Canadian EDL.
    Four, Congress should require the State Department to 
accept inquiries from participating states as to whether a 
driver's license applicant would be approved for a passport as 
part of that state's decision whether to issue an EDL.
    Five, Congress should fund the full request from the 
Department of Homeland Security to retrofit travel lanes in and 
out of the country to read the RFID documents in the passport 
card, EDL, and other documents.
    Six, Congress should provide a one-time appropriation of at 
least $300 million for Real ID-related expenses incurred by 
states, with grants that are meant to build the EDL receiving 
first priority.
    Seven, DHS should finalize regulations as soon as possible 
that are in proposed form now to implement Real ID so states 
know exactly what they need to do to come into compliance.
    Eight, Congress should authorize a series of monthly 
surveys to ascertain the percentage of Americans and Canadians 
contemplating a land border crossing with the United States, 
the percentages who are aware of the WHTI requirement, and the 
percentage who have WHTI-compliant documents. Such surveys 
should be conducted not only in border regions but also non-
border regions, who may not be as familiar with the 
requirement.
    Nine, DHS and the State Department should modify the first 
phase of their proposed land border implementation plan 
announced in June of this year to require only a government-
issued identification document for border crossing, not a 
combination of a driver's license and a birth certificate, 
which is destined to cause immense confusion and backlash, 
especially when the interim rules are likely to only be in 
effect for several months.
    And finally, DHS and the State Department should seek full-
scale implementation of WHTI when the following conditions have 
been met:
    A, the passport card technical specifications have been 
available to Canadian governments for at least six months in 
order to build their own versions.
    B, the passport card has been available to the U.S. public 
for at least three months and applications are being fulfilled 
within one.
    C, DHS has issued regulations accepting EDLs for WHTI 
compliance purposes.
    And finally, Congress has funded and DHS has implemented 
RFID and other infrastructure improvements at no less than one-
third of the primary lanes of ports of entry into the United 
States.
    I'm convinced that the criteria outlined above could and 
should be implemented to allow WHTI implementation at the land 
borders of the United States by the end of 2008.
    With that, I welcome your questions and thank you for the 
opportunity to be here again today.
    Chairman Thompson. And thank you for your testimony and the 
testimony of all the witnesses on this panel.
    I will now recognize myself for five minutes. Mr.--
Koessler?
    Mr. Koessler. Koessler.
    Chairman Thompson. Koessler. Thank you very much.
    Can our ports of entry, in your estimation, support the 
current demand for these trusted traveler programs, as far as 
you've been able to ascertain?
    Mr. Koessler. I can only speak for the Peace Bridge.
    Chairman Thompson. Yes.
    Mr. Koessler. We desperately need a new plaza on the United 
States side.
    Chairman Thompson. You desperately need----
    Mr. Koessler. A new plaza with customs--enhanced customs 
facilities there to perform the--the duties that would be 
needed under WHTI or any other.
    Chairman Thompson. And your reason for--for saying that is 
that if not, what do you see happening?
    From a commerce standard.
    Mr. Koessler. Long delays across the bridge.
    They're occurring as we speak.
    Chairman Thompson. Just trying to get it on the record.
    Ms. --Lynch.
    Ms. Lynch. Yes.
    Chairman Thompson. Some of the witnesses here have 
testified that an enhanced driver's license card would be the 
direction to go.
    Can you amplify why you have some concerns about that?
    Ms. Lynch. Sure. It's--the concerns really revolve around 
the delays in implementation.
    First of all, the 9/11 Commission recommended the 
passport--or alternative to a passport independently of 
standardization of the driver's license. That was a 
supplemental recommendation.
    And while, you know, we understand that there is a pilot 
program going on in Washington, our concern is--I mean, as we 
can see, this is occurring. When will it happen? And each day 
that we don't have a process that adequately protects our 
borders to us is a grave risk.
    So our concern really is in the delays.
    We're not saying that ultimately, an enhanced driver's 
license or other alternatives may not work. What we're saying 
is right now, we need to focus on fixing the problems with the 
passport issue, making it affordable so that people can cross 
our borders now with those documents, ease some of the delays 
that happen at the Peace Bridge, because it'll actually, I 
think, enhance travel over the Peace Bridge.
    That's the focus now.
    We can't afford to wait, Congressman. That's our position. 
We can't afford to wait.
    Chairman Thompson. Thank you very much.
    Mr. Zemsky, can you provide for the Committee your analysis 
of WHTI's potential impact on small businesses?
    Mr. Zemsky. Well, in our region--this is a local 
perspective.
    We--the Niagara River is just such a core part of our 
lifestyles here, and people live on both sides of the border. 
Small businesses depend on cross-border tourism. Our cultural 
organizations, our sports teams.
    It's--it's like the Potomac. It's just central to our way 
of life here. We've never thought of it or treated it any 
differently.
    So I--I don't have an exact economic impact study, but I 
would tell you intuitively and just in speaking to so many 
businesses in the associations that I'm involved with, people 
are terrified about any increases.
    The confusion already has been huge. You can imagine all 
that's been published about the different dates and different 
travel documents. We would have a hard time in this room, 
people who have been close to this issue and answering 
questions the same way on these issues--I guarantee you very 
few of us would be able to get the right answers. That's how 
confusing it is.
    For the public, they've given up on this issue a while ago. 
I mean, this is really becoming a very small dialogue between 
people who are--it's becoming an esoteric topic.
    But people are giving up on it, and I think it's a real 
shame. I think it's going to have a huge impact, and--and has, 
and I think the chances of it having a larger impact are great, 
because there's going to be a lot, and especially now that 
we're talking about partial implementation dates.
    I mean, I don't think anybody understands what's coming in 
January and then again in June and whether it's going to change 
again. There's no communication efforts that we're aware of.
    So I think we're--we're headed for real trouble, and I--and 
we also believe that the confusion and the congestion is not in 
the interests of security.
    So we're worried about it.
    Chairman Thompson. And I think we've heard that loud and 
clear from a number of the witnesses on this panel, that both 
from a marketing and an outreach standpoint, WHTI probably has 
been a public relations nightmare, to say the least, and just 
postponing the inevitable does not avoid the nightmare. It just 
delays it. So this Committee is--is concerned about that.
    I now yield five minutes to the gentleman from 
Pennsylvania, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman.
    Mr. Zemsky, first of all, it's awful tough to get across 
the Potomac about 7:45 in the morning. I, unfortunately, make 
that drive every day.
    You just said ``giving up on it,'' the local folks are 
giving up.
    What do you mean?
    Mr. Zemsky. I just mean--I just mean that I think there's a 
lot of people that have given up on really understanding what 
the technical requirements are going to be or--or are, and so 
they're just staying away from the borders because it's too 
confusing.
    You ask ten people on the street--friends, relatives, 
business associates, you name it--``What do I need now,'' you 
will get ten different answers.
    So, I mean, that was maybe an exaggerated way of making the 
point that I think people are awfully confused and many are 
just staying away from the border.
    Mr. Carney. Well, let me ask it this way to all of you, to 
Mr. Koessler, Mr. Zemsky, and Mr. Johnston:
    What has DHS done and the State Department done to educate 
the area about what's needed?
    Have they done outreach to any of you? Have you had 
discussions with them at all?
    Mr. Zemsky. It's been very limited. I think, for example, 
the NEXUS card, which has been, I think, available for five 
years or more, has an incredibly small number of users.
    And we've talked for a long time about increasing 
communications and streamlining the process and expanding the 
number of locations you can apply for and receive the NEXUS 
card, and there's still--there hasn't really been a lot in that 
respect.
    So I think we're worried about the communications. I don't 
think money has been set aside or there's been a real effort 
toward communicating with the public.
    Mr. Carney. Mr. Koessler.
    Mr. Koessler. I would agree with that. We've tried to 
promote the NEXUS card ourselves and can't seem to get any 
cooperation out of either--either side, U.S. or Canadian 
customs, because they feel it's somehow a conflict of interest.
    It's a valuable card, the NEXUS card, to both the customs 
and to the users, and but there seems to be some blockage in 
the ability to really promote it and bring it out.
    Mr. Carney. Mr. Johnston?
    Mr. Johnston. I would say that there hasn't been a 
tremendous amount of outreach.
    I will tell you that I know we don't ship our own products 
from Canada into the U.S. We have third-party customs brokers 
that do that for us.
    They do encourage all the drivers they utilize to have a 
NEXUS card; however, there is increasing analytical evidence 
that even NEXUS cards--that an increasing number of drivers are 
being pulled aside for secondary inspection, defeating the 
entire purpose.
    This is supposed to be a trusted traveler program, so it 
defeats the purpose of trying to promote NEXUS cards when, in 
fact, you're being pulled aside or have an increased chance of 
being pulled aside for a lengthy secondary inspection.
    Mr. Carney. From a business perspective gentlemen, have you 
had discussions with DHS or State on what it means to the local 
economies?
    I mean, have you had your input? Have you had an 
opportunity to have that input?
    Mr. Zemsky. Well, for me personally, this is the third time 
I've had an opportunity to speak on this subject in a hearing 
of this manner, and oftentimes--and--and in addition to that, 
there's been other non-Congressional hearings that DHS has 
participated in.
    And we've been able to say it. You know, we've been able to 
say it many times. I just--you know, I don't know----
    Mr. Carney. Whether anybody's heard it.
    Mr. Zemsky. Yes, I'm not sure.
    But, I mean, I'll say this: I guess the wheels of 
government might be known to move slowly from time to time, but 
we are starting to move, and--you know, the acceptance, for 
example, of alternative documents and the enhanced driver's 
license program.
    I think--I don't want to characterize it as no progress has 
been made in some of these areas. Some progress has been made, 
and we think that's--that's good, and we're--we're--we're 
pleased to be able to say that.
    But, you know, these dates--we were assured not that many 
months ago that there was plenty of staffing, everything was 
fine, there'd be no problem issuing the passports. This was 
only a few months ago.
    I was in that hearing. I expressed my concern on that very 
matter. I was told in no uncertain terms absolutely, 
positively, I was, you know, incorrect, and--so, you know, we 
are--we continue to be worried, and our experiences suggest 
that we are right to be worried.
    A programmatic change of this magnitude affecting the 
largest trading relationship in the world with so many people 
across such a wide area is going to take a long--some--more 
time to change than I think has been identified to date.
    Mr. Carney. Thank you.
    My time's up, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    I now recognize the gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, and thank you, 
witnesses, for appearing.
    I especially thank you, Ms. Lynch, for your service and for 
continuing to stay involved in this process. Yesterday, the 
Chairman convened a meeting of a conference Committee, and we 
had some persons there at that conference Committee who 
represented 9/11 families, and I just want you to know that we 
greatly appreciate the service that you're bringing to your 
country.
    Ms. Lynch. Thank you.
    Mr. Green. I am a fairly good observer of body language. In 
fact, I've gone out of my way to study it to some extent and 
have had about four or five courses in body language, and it's 
really helpful.
    But I--the body language, Mr. Zemsky and Mr. Verdery--is it 
Verdery?
    Mr. Verdery. Verdery.
    Mr. Green. All right.
    Between the two of you--you weren't observing each other, 
but I was.
    And this is not to put you at odds with each other, but my 
sense is that you each have some concern with what the other 
has said, and I would like to give you an opportunity to say 
it.
    Not in a confrontational way, of course, but I want you to 
have the opportunity to address some of the concerns raised by 
each other.
    Mr. Zemsky, do you have some concern that you would--would 
address?
    Mr. Zemsky. With respect to----
    Mr. Green. In terms of some of the comments made by Mr. 
Verdery as he was making his comments.
    Mr. Zemsky. No, not--not really, actually.
    Mr. Green. You don't want to make any comments about any of 
the things that he said.
    Mr. Zemsky. I think I might have just been hungry.
    No, I feel generally what I've heard--what I--is I think we 
mostly--I really like the ideas.
    Mr. Green. So his recommendations----
    Mr. Zemsky. I'm sorry.
    Mr. Green. Did you--did you hear his recommendations.
    Mr. Zemsky. He had several. I haven't read them. I was, you 
know, paying attention to--to several.
    I think that--you know, I won't be able to recite all of 
them, but----
    Mr. Green. Are you in agreement with those that you did 
here.
    Mr. Zemsky. Yes, I was in agreement with some of them in 
terms of the lead time, and I think the essence of some of what 
I heard--I may be wrong--is we should implement WHTI when we 
really have the capability to implement WHTI as opposed to 
picking dates arbitrarily and then backing into it.
    So it's important that we get it right, and the date ought 
to reflect and be--have some flexibility to reflect our 
capabilities.
    Mr. Green. Mr. Verdery?
    Mr. Verdery. Just two--two quick points and not so much in 
disagreement with his testimony, but----
    Mr. Green. Not disagreement, just comments.
    Mr. Verdery. I have some sympathy for the government 
witnesses, having sat in their shoes, as to this idea of lack 
of communication, and that's partially because the rules have 
not been finalized.
    There's a rulemaking going on. Congress last year put down 
additional conditions, and so, you know, they're the goalposts 
that move, and they are struggling their best to meet those 
goalposts.
    You'll see a rule that will be finalized this year, and 
people will have a chance to comment on it, but I have some 
sympathy for that kind of a complaint.
    The second point is this is not an either/or situation. We 
shouldn't have all of our eggs in one basket. It shouldn't be 
just everybody's got to go get a pass card or everybody's got 
to get a better driver's license.
    We need people to have some options, because we don't want 
to rely on one single program, as we saw with the passport 
situation right now.
    What the important thing is, is that, for the inspector, 
they work the same and that he is not--he or she is not trying 
to distinguish between 8,000 documents and that they access the 
databases and they provide that inspector with the information 
they need.
    Who purchased it, who built the thing is irrelevant if it 
works for the inspector.
    And that includes the NEXUS cards that should also be 
expanded.
    Mr. Green. Mr. Koessler, did you make a comment about the 
appeals process?
    Mr. Koessler. NEXUS, yes.
    When a NEXUS card has been taken away from someone, the 
appeals process is very difficult to get through. People come 
to me and our people to help, and it's a difficult situation 
now.
    And the renewal--at this point, there is no indication on 
your card when it expires and when it needs to be renewed. I 
passed through the NEXUS post about six weeks ago on my way 
back from a--a board meeting at the Peace Bridge, and my card 
was--was confiscated because they said it had run out.
    And after all sorts of finagling, it turns out that what 
happened is I renewed my passport, and the card is tied to the 
passport, so they--it no longer had the same number on it.
    Showed up on their scene. I had no idea.
    Mr. Green. Has this been rectified.
    Mr. Koessler. Yes.
    Mr. Green. How long did it take.
    Mr. Koessler. It--it--it was done very quickly.
    Mr. Green. It was?
    Just to give you some degree of comfort, we have a 
colleague whose name is John Lewis, and we've been trying to 
get his--his identification clarified for, I believe, a number 
of--of years----
    Chairman Thompson. Years.
    Mr. Green. --years now.
    When he attempts to travel, he still has some degree of 
difficulty.
    Chairman Thompson. There is a John Lewis who is a very bad 
guy, but it's not him.
    Mr. Green. One more thing.
    You mentioned the need for a plaza.
    In terms of this--this plaza, have you--have you called 
this to the attention of--of persons who are in a position to--
to perhaps try to provide some--help you with your concern?
    Mr. Koessler. Well, we're in the midst of trying to build a 
new bridge and a new plaza. We have not--we have now completed 
a plaza on the Canadian side which seems to work very well.
    Initially, there was negotiations going on between Homeland 
Security and the Canadian equivalent to put the U.S. customs on 
the Canadian side. It was called shared border management. 
Would have been much more efficient for--for us as bridge 
operators.
    They came to the conclusion, after almost two and a half 
years of negotiating, that it wasn't going to work.
    Now we're faced with building a plaza in the U.S., and 
they're telling us that these things have to be updated and--as 
quickly as possible.
    And we're--we're in a go position. We just need what they 
need.
    Mr. Green. I'll yield to the Chair.
    Chairman Thompson. Well, I guess that I'll--I'll let the 
representative from the area help answer that question, 
because----
    Ms. Slaughter. Yes, I don't want to take any time, because 
with the exception of Ms. Lynch and Mr.Verdery, I'm in pretty 
much close contact with the other three.
    Shared border management was negotiated under Secretary 
Ridge and Prime Minister Hanley, and we operated, again, on--
two and a half years on the assumption that it would work. The 
Canadians went ahead.
    It really depended, Chairman, on who had the most land and 
area on which side of the border.
    So they were chosen all the way through. There was going to 
be one on the York side up in Luque's (phonetic) district; on 
our side, it was going to be over in Buffalo along the Peace 
Bridge.
    They built theirs, I think at a cost of about $43 million, 
which was adequate to take all the traffic and do all the 
inspections; and then one day --and I--I'm not exaggerating 
this--one afternoon I got a call from DHS that they weren't 
going to do it because it is so dangerous in Buffalo.
    Now, it was not dangerous enough in Buffalo for them to 
give us money last year, and the money that we want, if you 
recall--we had this asterisk by our name, which meant that we 
weren't going to get very much.
    We eventually got some, but there are numbers of us all 
across the border who think we would like to try to salvage it, 
if we can. I think the cost on our side now would be about $36 
million that we will need to pay, which we would not have 
needed to pay had they kept the original agreement.
    Second, on the fall-off on travel, I'm--I've been told by 
Bridge Authority--and, of course, they use the revenue of 
people crossing the bridges to maintain them--that they are 
concerned enough about the fall-off in that money that they've 
expressed it to me.
    I've heard as high as one-third. I don't have any way to 
prove that, but as high as one-third less people--fewer people 
have crossed the border in the last year going either way than 
had before WHTI came up.
    And as both of you--all of you expressed so eloquently, 
it's put us off considerably here not really knowing where we 
stand.
    But I'm not going to ask questions of the panel, but I want 
to thank all of you for coming, and Ms. Lynch, we are all--we 
suffered such an awful loss, New York more than any other 
place, and--but I--I want to tell you, if it--if it's any 
comfort to you at all, I've talked to people from the City of 
New York and also from New Orleans.
    They told me in--the governor in New Orleans told me not 
two weeks ago that when that hurricane hit, that before the 
government set a foot on the ground, firemen from Buffalo and 
Rochester were there.
    I--it's hard to understand your pain and your sacrifice, 
but believe me, the idea--and I always like to say, ``How do we 
thank people?''
    When everybody else was trying get out of the World Trade 
Center, they ran in.
    Ms. Lynch. Yes.
    Ms. Slaughter. So thank you for that.
    Thank you for coming, Mr.Verdery, as well, and thank all of 
you.
    Chairman Thompson. Thank you very much, and I'd like to 
thank the witnesses for their valuable testimony and the 
Members for their questions.
    The members of the Committee may have additional questions 
for the witnesses, and we will ask you to respond expeditiously 
in writing to those questions.
    I'd like to again acknowledge our County Clerk, who's been 
so attentive and helpful, and I look forward to her testimony 
for the record.
    It's one thing to hear the problems, but when you're 
involved in the day-to-day processing of them, I can imagine, 
just given the testimony that we've heard, how difficult and 
challenging that can be.
    So, Ms.Hochul, thank you very much.
    For the witnesses, again, thank you very much. We will look 
forward to trying to fix this issue associated with our border 
here and our other borders.
    The Homeland Security Committee has border as its primary 
jurisdiction. We plan to look at some initiatives to facilitate 
securing the border.
    We want to do it smart. We are not at all challenged to 
make sure that business can work and do their business on a 
day-to-day basis.
    We're not interested in putting people out of business 
because of security. Americans--when President Kennedy 
challenged us to put somebody on the moon, it was a little far-
fetched, but Americans did it, and if we have to provide 
security for our borders, I'm certain we can do it smarter. I'm 
certain it will not impede technology, and we can make it cost-
effective so that those individuals who need to travel across 
the border will not be prevented because of a price associated 
with the document.
    Hearing no further business, I would allow our host to--to 
close out the Committee, if she would like to.
    Ms. Slaughter. I certainly would.
    Again, I want to thank the Erie County Legislature for 
their graciousness and the Clerk for her good work, but I 
really thank all of you witnesses who have taken the time to 
come this morning. I think you've been very enlightening.
    And I certainly thank my colleagues for taking the time to 
come up. I'm hoping we can show them the Whirlpool Bridge and 
how NEXUS works before they have to leave.
    Thank you, once again, and thank you again, Mr. Chair, Mr. 
Carney, and Mr. Green.
    Thank you.
    Chairman Thompson. Hearing is adjourned.
    [Whereupon, at 1:52 p.m., the Committee was adjourned.]

                             For the Record

             Prepared Statement of Kathleen Courtney Hochul

    Thank you for the opportunity to submit written testimony before 
the Homeland Security Committee at your hearing in Buffalo, New York on 
July 20 relative to an enhanced driver's license as a proposed 
substitute for a passport for the re-entry across the border from 
Canada.
    As Erie County Clerk, responsible for the administration of the 
local auto bureaus, I certainly pledge full cooperation with State and 
Federal Government to secure our borders. Having said that, as Erie 
County Clerk, I am compelled to draw the Committee's attention to the 
significant financial impact the enhanced driver's license proposal 
would have on the operation of the auto bureaus. As currently proposed, 
the taxpayers of Erie County could end up paying for this federally 
mandated initiative.
    As a border community, where our residents and our friends to the 
North enjoy regular passage to and from our countries, any such 
requirement will have a more significant impact than from non-border 
States. If an enhanced driver's license is required, the existing 
644,404 County licensed drivers and 259,000 holders of non-driver ID 
cards in Erie County would be encouraged to apply for new licenses. The 
anticipated volume would be staggering. Our existing staff, which is 
still 40 less employees than were employed before layoffs of the Erie 
County 2005 budget crises, would not be able to handle the dramatic 
increase in activity. In order to implement this new mandate and 
properly serve our residents, we would need to establish a separate 
license processing center. Our initial start up cost estimates to 
handle projected volume would be $1.4 million dollars to cover expenses 
of training staff, computers, servers, work stations, cameras, T-1 
lines, phones, faxes and leasing space. Another $1.2 million would be 
required annually for operating costs. Prior to an effective date for 
the requirement of an enhanced ID card, we would need to ensure that a 
centrally located licensing center is fully funded, operational and 
effective for the residents of this County.
    While the proposed enhanced driver license proposal may well be to 
be a viable alternative for re-entry across the border, I have 
significant concerns that directly affect the operation of the Erie 
County auto bureaus. As a former legislative assistant and attorney on 
the Washington staffs of both Senator Daniel Patrick Moynihan and 
Congressman John J. LaFalce, I am well familiar with the practice of 
federal mandates being imposed that result in additional costs for 
localities. In this situation, I asking that the source of the funding 
be identified as part of the initiative, to eliminate any additional 
cost to County taxpayers.
    I wish to re-iterate that I am intimately familiar with the urgent 
need to protect our borders and stand ready to offer the full services 
of the Erie County Clerk's office to work with New York State and the 
Department of Homeland Security to cooperate in any way necessary. This 
offer includes Erie County as a pilot program similar to the pilot 
instituted in the State of Washington. However, I need to be involved 
in the planning and to ensure that the necessary resources are in 
place.
    I look forward to addressing to working in partnership with the 
Congress, the Department of Homeland Security, and the State of New 
York in developing and implementing a proper enhancement in our system 
of identification for purposes of border crossing.

             Material Submitted by Kathleen Courtney Hochul

BESTT Coalition
Business for Economic Security, Trade and Tourism Coalition of the US & 
Canada
TO:
Chairman Bennie G. Thompson
Ranking Member Peter T. King
House Homeland Security Committee
FROM:
BESTT Coaliton (Business for Economic SecurityTourism & Trade)
REGARDING:
Field Hearing on Western Hemisphere Travel Intiative (WHTI)
Land and Marine Notice of Proposed Rulemaking (NPRM)
Hauptman-Woodward Medical Research Institute Inc.
700 Ellicott St., Buffalo, NY
July 20, 2007

    On behalf of the BESTT Coalition, please accept this written 
testimony regarding the Notice of Proposed Rulemaking (NPRM) pertaining 
to the implementation of the land and sea portions of the Western 
Hemisphere Travel Initiative (WHTI).
    The BESTT Coalition is an international coalition of businesses and 
trade associations from across the United States and Canada, led by the 
Buffalo (NY) Niagara Partnership, the Detroit (MI) Regional Chamber of 
Commerce, and the Bellingham/Whatcom (WA) Chamber of Commerce & 
Industry. We share a common concern about the ramifications of the 
Western Hemisphere Travel Initiative (WHTI) as it pertains to the 
northern border region. Our goal is to raise awareness of the important 
cultural and fiscal ties that exist across the 5,500-mile-long border, 
and to help ensure public policies that promote these ties, while still 
addressing the legitimate security concerns of both countries. 
Combined, members of BESTT represent 300,000 North American businesses, 
and millions of jobs.

WHTI and the Northern Border
    The Western Hemisphere Travel Initiative, which came out of the 
Intelligence Reform and Terrorism Prevention Act of 2004, called for a 
passport or other secure document, or combination of documents, to be 
presented upon seeking entry to the United States. The provision 
specifically addressed areas like the Canada/US Border, where such 
documents have not been required.
    As residents of and/or businesses leaders located in the Canada/US 
Border Region, we support the intentions of Congress and the Bush 
Administration to address all legitimate security threats to the United 
States, including those pertinent to our region. We believe there are 
ways to address these concerns that will both increase our security and 
ensure the free and fair flow of people and products. It is our 
intention through this written testimony to assist Congress in 
achieving that goal.

Relevance of Northern Border
    Historically, it has been said that the United States and Canada 
share the longest non-militarized, non-actively patrolled border in the 
world. Canadian Ambassador to the United States Michael Wilson has 
recently amended this common characterization, citing numerous facts to 
proclaim that our shared border is the longest secure border in the 
world.
    One thing that is unquestionable, however, is our strong fiscal 
ties, as we share the world's largest trading relationship between any 
two nations.
    An estimated $US 1.2 billion in trade crosses the U.S.-Canada 
border daily, supporting 5.2 million jobs. Last year Canadians visiting 
the U.S. spent roughly $10 billion, nearly 80% of which supported 
activities like dining, hotel stays and gift purchases. Canadian 
spending in the U.S. has increased 39% over the last ten years and is 
one of few areas where Americans enjoy a trade surplus. These figures 
should have been expected to rise as the Canadian dollar strengthened 
in the last two years, yet disappointingly, given real and perceived 
difficulties in border crossings, Canadian visits to the U.S. have seen 
no significant increase. Total annual crossings in 2005 compared to 
1995 show as much as a 50% decline, and there has been no significant 
increase in Canadian visits in the last 5 years, diminishing the likely 
potential benefits of the strengthening Canadian dollar.
    In 2005 there were an estimated 32 million trips from the U.S. to 
Canada, and an estimated 38 million trips from Canada to the U.S. An 
estimated 75% of the time these trips are made crossing the U.S./Canada 
land border, which accounts for the majority of crossings.

BESTT Coalition Response
    The BESTT Coalition has reviewed the NPRM, and has found several 
points to address. These areas include:
        Areas in Which the Coalition Supports the NPRM
        <bullet> Support for Removing Children from the Requirements of 
        WHTI
        <bullet> Support for Ensuring Ease of Crossing for Native North 
        Americans
        <bullet> Support for other approved documents, including 
        Canadian province-issued Drivers Licenses

        Areas in Which the Coalition Has Strong Concerns About the NPRM
        <bullet> No firm implementation date
        <bullet> Lack of definition for ``availability of WHTI 
        compliant documents''
        <bullet> Problems with proposed phased implementation
        <bullet> Lack of a publicity campaign about the rules and 
        timeframes for implementation
        <bullet> Concerns about the economic impact study provided in 
        the NPRM
        <bullet> Expenditure flows in impact study--Separate North and 
        South
        <bullet> Lack of time to implement alternative documents prior 
        to implementation
        <bullet> Lack of sufficient infrastructure to implement rules
        <bullet> RFID Infrastructure at more than the 39 most 
        frequently used crossings
        <bullet> No appeals board for NEXUS provided
        <bullet> No clear way of renewing NEXUS cards other than 
        reapplying
        <bullet> Lack of a streamlined mechanism for renewing passports
        <bullet> No discussion of the impacts of the increase in the 
        number of lost and stolen passports and other documents
        <bullet> No plan to address the enormous increases the plan 
        will create for wait times
        <bullet> Concerns surrounding the certification of preparedness 
        for final implementation
        Suggestions on Items the NPRM Should Cover
        <bullet> Meeting with all state DL Directors by Jan 08, before 
        completion of pilot
        <bullet> Questions concerning whether Real-ID and WHTI 
        requirements are analogous
        <bullet> Strong desire to see a more robust coordination with 
        Canada
    Each area of support, concern, or comment is described in detail 
herein.

Support for Removing Children from the Requirements of WHTI
    We support the provisions being made for children, both traveling 
with their families and in groups with chaperones. These provisions are 
important for border communities, and we encourage DHS to continue to 
ensure children are not impacted in their ability to access the border.

Support for Ensuring Ease of Crossing for Native North Americans
    BESTT supports efforts to ensure Native North Americans can easily 
access the border, especially those whose tribes, bands or nations 
cross the border region. We encourage DHS to continue to work with 
Native Peoples on these programs, providing a mechanism to cross the 
border that is as streamlined as possible.

Support for other approved documents, including Canadian province-
issued Drivers Licenses
    BESTT especially wants to thank DHS for its acceptance of 
alternatives to the passport as a means of crossings the border. 
Approval of Drivers' Licenses, especially those issued by the Provinces 
and Territories of Canada, is a substantial change in policy, and one 
we are extremely pleased to see. We encourage DHS to continue to 
promote these alternatives, and to implement WHTI only after these 
forms of ID are available and in wide circulation.

No Firm Implementation Date
    One of the most frustrating issues surrounding the Western 
Hemisphere Travel Initiative has been the lack of a clear 
implementation date. While Congress agreed to a June 2009 date for 
final implementation, DHS has been extremely reluctant to that date, 
and has continued until this NPRM to say January 2008.
    Know that the NPRM has been released, that date for final 
implementation is Summer of 2008, yet another new time frame, with no 
date certain provided. The public across both the US and Canada is 
already confused about what ID's are needed for what types of 
crossings, and on what dates these rules will change.
    The BESTT Coalition believes that we must provide clarity of the 
date the rules will be imposed, while ensuring both the US and Canadian 
Governments can meet the ID demands of their citizens so that they may 
continue to access the border. We strongly believe that date is June 
2009.

Lack of Definition for ``Availability of WHTI Compliant Documents''
    In section IV, subsection 2 (Implementation and Effective Date of 
Final Rule), page 35 of the NPRM, it is stated that the final rule will 
be implemented after reviewing a number of factors, but most likely in 
summer 2008.
    One of the factors identified is the availability of WHTI Compliant 
Documents on both sides of the border. However, this phrase has no 
further definition provided.
    What does ``Availability'' mean? Does it mean that documents can be 
obtained within a certain time frame? Does it mean the documents simply 
exist and the public can apply for them? Does the fact that the word 
``documents'' is plural mean that WHTI can not move to final 
implementation until at least two documents are ``available.''
    Since this is one of the main factors in determining the final 
implementation of WHTI, more information must be provided to ensure 
that process whereby the final date is set is as objective as possible.

Problems with Proposed Phased Implementation
    The ``phased implementation'' called for in the NPRM does not 
address several problems affect certain modes of travel, including:
    1. Ferry Boat Operations: Currently, the private and public ferry 
fleet in the US and Canada relies on an oral declaration of citizenship 
in order to move people quickly and efficiently through its system. By 
implementing this change on January 31, 2008, without plans for 
addressing the substantial problems caused to this mode of 
transportation, and without a specific plan for addressing the severe 
economic hit these systems will take, DHS is unwittingly serving notice 
that such transportation services may no longer be viable. A very 
simple solution to this would be one common implementation date, once 
all forms of ID are available and in wide circulation. We have 
recommended June 1, 2009.
    2. Vehicle Crossings: DHS continues to assume that lines at the 
land crossings will decrease with the implementation of WHTI, while 
evidence to the contrary is being ignored. When a full document check 
was implemented in the Summer of 2006 in New England, lines became much 
longer and fewer people were able to cross because of delays. This sort 
of process is what most border communities would expect from stopping 
oral declarations without a clear plan to prevent problems before hand. 
Given the mistakes made in many other areas by this administration when 
assumptions were made without looking at available facts, BESTT 
recommends delaying implementation until such a plan can be developed 
and implemented. We have recommended June 1, 2009.

Lack of a Publicity Campaign about the Rules and Timeframes for 
Implementation
    BESTT was extremely concerned to note that the NPRM offers no 
program or funding mechanism to ensure the public is fully aware of the 
rules it enumerates. This is exacerbated by the ``phased 
implementation'' which has been announced. By creating two separate 
dates for implementation, we are further adding to the level of 
confusion and uncertainty the average citizen on both sides of the 
border will face.
    This is clearly seen in our Zogby International poll, in which 
neither Americans nor Canadians were familiar with proposed 
documentation changes along the border. Of Americans, 87% say they are 
either not familiar (59%) or somewhat familiar (28%) with changes in 
requirements. Of Canadians, 82% are say they are either not very (40%) 
or somewhat familiar (42%). Non-passport holders from both countries 
are least likely to be at all familiar.
    We strongly encourage DHS to formulate and implement a public 
awareness campaign immediately, and more importantly, fund that program 
so that we can ensure the traveling public knows when the new rules are 
to be implemented.

Concerns About the Economic Impact Study Provided in the NPRM The 
economic analysis provided in the NPRM is insufficient and incomplete 
for the following reasons.
        (1) How can an economic study be reliable if it is being 
        developed prior to or at the same time as the proposed policy 
        it is meant to examine? The Government Accounting Office (GAO) 
        said as much in their review of WHTI recently on behalf of 
        members of Congress.
        (2) The NPRM effectively negates the concerns it confirms on 
        Page 70 about the monetary losses that will be incurred by 
        border communities. Table D shows a net loss of $30 million in 
        the first year, and $80 million in subsequent years when it 
        comes to spending along the Canada/US Border. However, DHS 
        effectively offsets this loss by showing a huge net increase in 
        spending by Americans forgoing trips to Mexico. This tactic 
        ignores two important facts. First, there is no guarantee (and 
        frankly, substantial anecdotal evidence) that Americans 
        forgoing travel to Mexico will instead spend their money in 
        communities along the US/Canada Border. In fact, they will most 
        likely look for other warm, sunny spots in the Sun Belt states. 
        Second, these US/Canada Border communities are being told by 
        their government that their losses will be substantial, but 
        that they intend to do absolutely nothing about it. This is 
        completely unacceptable.
        (3) The economic impacts in border communities, outlined in 
        Table E, shows that Washington County Maine will lose 1.41% of 
        its employment, and Whatcom County, Washington will lose 0.53% 
        of its employment. For Whatcom County, that would mean over 500 
        people will lose their jobs, without the federal government 
        seeking to provide a remedy or address the impact in any way.

Expenditure Flows in Impact Study--Separate North and South
    As the threats to national security posed to us from our border 
with Mexico and our border with Canada are different, so must we assess 
the economic impacts created by these rules differently. Any economic 
review must address these two border regions as distinct entities, not 
combined, and should address remedies to those communities that are 
impacted.

Lack of Time to Implement Alternative Documents Prior to Implementation
The NPRM lists a number of documents that will be acceptable for 
entering the US. However, most have issues with being available and in 
wide circulation prior to implementation. They include:

        1. Passport Book: The severe backlog in providing passports, 
        stemming from the air rules, has caused substantial problems 
        for millions of Americans. Most estimates suggest that we will 
        not recover from the backlog until at least November 2007. 
        However, once the land rule becomes a reality, we should expect 
        an even greater backlog to develop, as there are many times 
        more Americans traveling over the US/Canada land border than 
        Americans who were affected by the new air passport 
        requirements. One should assume that implementing in the Summer 
        of 2008 is unrealistic, and that we should plan for a later 
        implementation date. BESTT has recommended June 1, 2009.

    2. Passport Card: The passport card is still in the planning 
stages, and is no where near being available and in wide circulation by 
early 2008. Furthermore, since individuals will have to go through the 
same process to obtain the passport card as they need to obtain the 
passport book, time delays will need to be taken into account. This 
cannot be seen as an alternative document that can be used on the day 
that WHTI is implemented at the land and sea borders.

    3. Trusted Traveler Program Documents:
        a. NEXUS--This program has seen approximately 120,000 members 
        enrolled. . .after 5 years. This extremely poor showing is 
        exacerbated by the fact that almost half of those enrolled in 
        the program are in the BC/Washington area, whereas our largest 
        crossing area (Detroit/Windsor), has just a fraction of the 
        enrollees. More importantly, the existing NEXUS card is not 
        considered an acceptable form of ID at the border, and although 
        the NPRM calls for changing that, there are concerns that time 
        and resources might need to be allocated to ensure existing 
        cards, which are imprinted with the phrase, ``Not and Official 
        Travel Document,'' will be accepted as stand-alone ID. Finally, 
        there must be a renewed effort to ensure that NEXUS cardholders 
        meet the same rules and regulations at all crossings. Anecdotal 
        information shows BESTT that NEXUS cards are already treated as 
        stand alone ID in the regular crossing lanes in the Buffalo 
        area, where as attempting to use your NEXUS card to cross at 
        the regular lanes at the Peace Arch crossing is not acceptable, 
        and could be grounds for having the card revoked.
        b. FAST--This program seems to be working efficiently, but only 
        address freight mobility, rather than passenger mobility. 
        However, like the NEXUS program, we would highly recommend that 
        enrollees in both programs be treated as trusted travelers. The 
        observations of higher rates of FAST trucks being sent for 
        secondary inspection because once enrolled, they are now the 
        potential target of smugglers, defeats the purpose of the 
        program and may convince some freight movers to opt out of 
        FAST.
        4. Merchant Marine Document: While available, it is used by a 
        fraction of the individuals crossing the border between the US 
        and Canada. Furthermore, the card can only be used for Merchant 
        Marine travel. The bearer must use other WHTI-compliant 
        documents for personal or other types of travel.
        5. US Military Card: Again, it is available, but only to those 
        in the military. Like the Merchant Marine Card, it can only be 
        used for official travel.
        6. Secure Drivers License: This program, currently only 
        available in Washington State but being reviewed by Michigan, 
        New York, Vermont and California, as well as all Canadian 
        Provinces, is our preferred method of addressing the mobility 
        restrictions created by WHTI. However, these programs have no 
        chance of being available and in wide circulation prior to even 
        the Summer of 2008, let alone early 2008. Time must be provided 
        to the states, provinces and territories to engage with DHS and 
        the Canadian Government, create agreements on the format of the 
        licenses, and implement these programs BEFORE WHTI is 
        implemented.

Lack of Sufficient Infrastructure to Implement Rules
    With new IDs, RFID-reader technology at most border crossing 
points, state-issued IDs to be negotiated, and many more items of 
concern, we do not have the time nor the resources available to 
implement WHTI by Summer of 2008. Implementation prior to DHS being 
fully ready at all border crossings will cause severe delays at border 
crossings, create tremendous drops in the number of crossings, and 
generally create chaos in the system that is easily avoidable. By 
implementing on June 1, 2009, DHS has the time needed to fully prepare 
for the new rules, and to ensure our Canadian counterparts are fully 
prepared.

RFID Infrastructure at More Than the 39 Most Frequently Used Crossings
    In the NPRM, the following statement is made concerning 
infrastructure at the border: We anticipate that RFID infrastructure 
will be rolled out to cover the top 39 ports-of-entry (in terms of 
number of travelers) through which 95 percent of the land traffic 
enters the United States. The remaining land and all sea ports-of-entry 
would utilize existing machine-readable zone technology to read the 
travel documents. Machine-readable zone technology is currently in 
place in all air, sea, and land ports-of-entry.
    BESTT believes that technology to read documents remotely must be 
rolled out to all border crossings, not just the 39 most heavily 
traveled ports of entry. This will ensure the availability of NEXUS at 
all crossings, making that card a more viable travel document for 
frequent crossers.

No Appeals Board for NEXUS Provided
    One of the largest complaints about the NEXUS program since its 
inception is the lack of an appeals process for those who have had 
their card revoked. Since a revoked card can come for any reason, a 
process whereby former card holders can apply for reinstatement is 
vital to the effectiveness of the program, especially in border 
communities where people cross frequently.
    BESTT would recommend the creation of an Appeals Board as part of 
the implementation of WHTI.

No Clear Way of Renewing NEXUS Cards, Other Than Re-Applying
    Thousands of individuals are currently renewing their NEXUS cards, 
as the initial members reach their five-year mark. Unfortunately, the 
renewal mechanism is no different than the initial mechanism for 
applying for a cards, essentially meaning that those in the program 
must re-apply at the end of the five year period.
    BESTT recommends a clear renewal process that ensures no down time 
for NEXUS members, while addressing the legitimate security concerns of 
Canada and the United States. As more people enroll in this program, 
ensuring a streamlined way to renew will become more and more 
important.

Lack of a Streamlined Way to Renew Passports
    As with the NEXUS Card, it is important to recognize the hardships 
a passport renewal will have on individuals living in border 
communities and cross on a regular basis. These individuals cannot send 
their passport in at the time they must renew, thereby potentially 
being unable to cross for several weeks while the await they new 
passport in the mail.
    We must come up with an acceptable way of ensuring that Americans 
can retain the existing passport while renewing it, or thousands of 
Americans will be prevented from necessary travel back and forth over 
the border.

No Discussion of the Impacts of the Increase in the Number of Lost and 
Stolen Passports and other Documents
    The NPRM does not address the potential impact on the US and 
Canadian Governments caused by more passports and other documents being 
lost or stolen.
    It stands to reason that increasing the number of documents in 
circulation will increase the number of documents that are lost or 
misplaced. These individuals will need expedited replacement, and in 
larger numbers than have been experienced in the past, which could 
create a delays in providing this vital service.
    We should also be planning for the expected increase in passport or 
travel document theft. More and more Canadians and Americans will be 
carrying their documents in their vehicles, and those in border 
communities might simply leave the documents in their cars permanently. 
Car prowls or outright car theft would not have to increase at all to 
see a larger number of documents being stolen, since more documents are 
in circulation, and being kept in vehicles. The potential impact on 
government entities is substantial, not to mention the potential 
impacts on North American security.
    The NPRM does not address either of these issues, both of which 
must be addressed and planned for prior to implementation.

No Plan to Address the Enormous Increases the Plan Will Create for Wait 
Times
    DHS and CBP have decided, with no scientific or independent review, 
that wait times will actually decrease with the implementation of WHTI. 
The BESTT Coalition, which predicted the passport backlog and the 
problems with the PASS Card, has always disagreed with this, and 
believes that, at least initially, wait times will actually increase.
    Once WHTI is implemented, there will continue to be individuals and 
families arriving at the border without proper documentation. The 
additional time taken at the primary inspection point to address these 
problems could take several times longer than a normal screening. More 
time at primary means longer wait times.
    Furthermore, back ups in secondary inspection will also occur, and 
the workload for officers inside increases with each individual 
arriving without proper documentation.
    Some of these problems could be alleviate with the implementation 
of an effective and well funded marketing program, informing Americans 
and Canadians of the new rules and when they will go into place. Such a 
campaign, using television, radio, print and billboards in border 
communities, is not currently planned or funded, but has been requested 
by the BESTT Coalition for several years.

Concerns Surrounding the Certification of Preparedness for Final 
Implementation
    BESTT continues to be concerned with the manner by which DHS is 
certifying itself as being ready to implement WHTI. This situation is 
analogous to having a development company providing its own occupancy 
permit for a building it just completed. Without the necessary 
oversight, we are opening ourselves up to countless potential problems.
    BESTT strongly recommends that Congress should be the final arbiter 
of the ability of DHS to implement WHTI, not the Department itself. 
This independent oversight is vital to prevent problems such as we have 
experiences with passport acquisition since January 2007.

Meeting with all State DL Directors by January 2008, Before Completion 
of WA Pilot
    BESTT recommends the DHS proactively call a meeting with all State 
Drivers' License officials before the end of this year. The purpose of 
the meeting would be to discuss the Washington State pilot, and how the 
program could be implemented in other states in the most efficient 
manner possible. Waiting until after Washington State has prepared the 
program and has the secure license in wide circulation is unacceptable, 
as it could preclude other states from having the option of providing 
such a program prior to implementation.

Questions Concerning Whether Real-ID and WHTI Requirements are 
Analogous
    The NPRM seems to indicate that a state drivers' license that meets 
the requirements of WHTI would by definition meet the requirements of 
Real-ID as well. However, DHS representatives working on the Washington 
State Pilot Project have indicated that WHTI-compliant licenses will 
not be Real-ID compliant as well, unless additional security features 
are added.
    This question is important, because one selling point to states on 
the Drivers License program is that the licenses will be Real-ID 
compliant once that program is implemented. A definitive answer on this 
question cannot be found in the NPRM, and we would ask for such an 
answer as soon as possible, but certainly before final implementation.

Strong Desire to See a More Robust Coordination with Canada
    The NPRM states yet again that coordination between Canada and the 
US on the implementation of WHTI is healthy and substantial. However, 
members of the BESTT Coalition continue to hear exactly the opposite 
from your Canadian counterparts. This is not only unacceptable, but 
frankly could be detrimental to the security of North America.
    This program cannot be implemented in a vacuum. We must 
immediately, if not sooner, sit down with Canadian officials to 
coordinate implementation of WHTI. This meeting cannot be, as past 
meetings have been, yet another ``the US is telling the Canadians how 
this will be implemented'' meeting, but rather must provide a dialogue 
and healthy discussion about funding, partnerships, marketing, and many 
other aspects. Anything less will not only create longer delays and 
more confusion, but could imperil the positive cross-border law 
enforcement relationships that have developed, as Canadian officials 
feel that they are treated as second-class partners.

Conclusion
    There is logic in improving documentation requirements for border 
crossings. Events have shown that the threat of terrorism is real, and 
we must take national security very seriously; however, we must be 
careful not to forsake economic security in the process. There is merit 
in taking into consideration the full-range of policy options at our 
disposal in implementing a program to verify nationality and identity, 
including REAL-ID. No new border-crossing policy can succeed, though, 
unless it is marketed successfully, developed with comprehensive 
economic data and stakeholder input, and embraced also by the Canadian 
government.
    The final Notice of Proposed Rule Making answers some of the 
questions the BESTT Coalition has been asking since December 2004, but 
leaves many more questions unanswered. We believe that HR 1061, the 
bill Congresswoman Louise Slaughter has authored along with 44 co-
authors, will provide the extra time needed to effectively implement 
WHTI, as well as direction to DHS and State in a number of key areas 
that will facilitate the process.
    It is clear to the BESTT Coalition that we can expect continued 
problems in distribution of passports as WHTI moves toward final 
implementation, especially since DHS plans to implement it before other 
documents, like secure drivers' licenses or the PASS Card, are 
available and in wide circulation. We have encouraged DHS and State for 
three years to review their ability to meet the demands final 
implementation will place on them, and refrain from final 
implementation until such time as they are truly prepared to provide 
for our security while creating the smallest impact possible of the 
free and fair movement of goods and people over our shared border. DHS 
and State have been unwilling to meet this demand, and therefore we 
encourage the Homeland Security Committee of the House, along with the 
full Congress, to provide strong, unquestionable demands on these two 
bodies to meet this important goal.

Joint Prepared Statement of the Honorable Bart Stupak, a Representative 
   in Congress from the State of Michigan and the Honorable John M. 
    McHugh, a Representative in Congress from the State of New York

    Thank you Chairman Thompson and Ranking Member King for your 
leadership on national security issues and for holding today's hearing 
in Buffalo, New York to discuss the challenges facing Northern Border 
communities as the Department of Homeland Security (DHS) and the 
Department of State (State) move forward with the implementation of the 
Western Hemisphere Travel Initiative.
    As co-chairs of the Northern Border Caucus, we would like to share 
our concerns about the economic impact the Western Hemisphere Travel 
Initiative (WHTI) could have on cross border travel and trade between 
the United States and Canada.
    Studies by the Canadian Tourism Commission and other groups have 
suggested very clearly that American businesses stand to lose hundreds 
of millions of dollars if the new requirements, as expected, 
significantly interfere with existing trade and tourism. The stakes for 
Northern Border interests are extremely high, with so many communities 
and businesses dependent upon the ease of travel between the two 
nations. Simply put, any economic or bureaucratic impediments to travel 
could jeopardize thousands of local jobs in border states.
    Cross-border trade between Canada and the United States is 
estimated at $1.2 billion per day. Canadian travelers spent a record 
$13.2 billion in the United States in 2006 and took 16 million 
overnight trips to the United States in 2006. The vast majority of 
these travelers entered the country by land. In addition, U.S. 
residents made 13.8 million overnight trips to Canada and took an 
additional 13.7 million same-day car trips to Canada in 2006.
    The recent implementation of the first phase of WHTI, air travel, 
has already revealed the negative effects of a rushed implementation. 
Since January, travelers have seen significantly delays in obtaining a 
passport and many congressional offices have been flooded with calls 
from constituents encountering passport difficulties. The Passport 
Agency has been inundated with applications and has been unable to meet 
the ever increasing demands. Despite hiring more employees, opening an 
additional regional office, and increasing working hours, wait times 
for passports have gone from four to six weeks to as high as 14 weeks.
    On June 20, 2007, DHS announced its plans to move forward with the 
land and sea portions of WHTI. This announcement is especially 
concerning to Northern Border communities. If the Passport Agency 
continues to struggle in approving passports for Americans under the 
air travel regulations, how will it possibly be prepared for the 
millions of additional individuals who will apply between now and the 
summer of 2008 in preparation for the added land and sea travel 
regulations? Will constituents see the same delays they do now when the 
land and sea regulations go into effect?
    Currently, only 21 percent of Americans hold passports. That means, 
in order to travel via air, land, or sea outside the United States, 
more than 75 percent of the population must obtain a passport or an 
approved alternative. It is questionable whether the Department of 
State can accommodate such a large influx.
    The Departments of Homeland Security and State intended to make the 
PASS Card an acceptable alternative document for land and sea travel. 
However, it is looking more and more unlikely that the PASS Card will 
be ready for production and use when the land and sea regulations go 
into effect.
    While DHS and State have finally agreed upon the technology for the 
PASS Card, it is still unclear how the proposal will address the 
privacy and cost concerns raised by many Members of Congress. These 
agencies have yet to confirm that the PASS Card has been adequately 
tested to ensure operational success. Furthermore, DHS neither 
requested nor received funding in the FY2007 Homeland Security 
Appropriations bill to install the PASS Card infrastructure at land 
border ports-of-entry. How will DHS implement WHTI regulations for land 
and sea travelers by the summer of 2008 if it does not have the 
necessary resources to purchase PASS infrastructure?
    Congress has made numerous attempts to work with the Departments of 
Homeland Security and State so that WHTI could be implemented properly 
and all of the economic and technical impacts of the Initiative could 
be fully considered.
    As part of the FY07 Homeland Security Appropriations legislation, 
Congress authorized DHS to delay implementation of WHTI as late as June 
1, 2009. This year, the House has again acted in the FY08 Homeland 
Security Appropriations legislation to delay implementation of WHTI. An 
amendment offered by Representative Steven LaTourette was 
overwhelmingly approved (379 to 40) to prohibit the use of funds by DHS 
to implement WHTI before June 1, 2009. In addition, the House bill 
would withhold $100 million in funds due to the lack of progress and 
reporting by the agency, and would require DHS to complete an extensive 
cost-benefit analysis before implementing the initiative.
    In May 2006 the Government Accountability Office (GAO) issued a 
report expressing concerns about the ability of DHS and State to meet 
the original January 2008 deadline. This report was one of the factors 
that lead Congress to extend the deadline to June 2009. While DHS and 
State currently have the legal authority to begin implementing WHTI as 
soon as January 2008, we are concerned about the impact that such an 
ambitious schedule would have on border communities. The report 
concluded that ``[a]chieving the indented security benefits of the 
Travel Initiative by the statutory milestone date, without simply 
requiring all travelers to carry a passport, appears in jeopardy, given 
the volume of work that remains.''
    GAO is currently in the mist of another audit, as requested by 
Representative Louise Slaughter, to analyze (1) the status of DHS and 
State's efforts to implement the travel initiative; (2) the plans DHS 
has for the intended technology to be used to facilitate border 
crossing as defined by the travel initiative; (3) DHS's role in pilot 
testing a proposal to use state drivers' licenses as official travel 
documents; and (4) the cost and benefit study associated with the 
proposed rule/s for land and sea to be performed by DHS. We urge that 
DHS and State refrain from further implementing WHTI until this report 
is completed.
    Unfortunately, the Departments of Homeland Security and State have 
ignored Congressional intent and continue to push forward on full 
implementation of WHTI.
    Before the Administration moves forward with WHTI it is imperative 
that the President's Office of Management and Budget perform an 
economic assessment, so that the full costs can be taken into account. 
Such an economic cost-benefit analysis is required under Executive 
Order 12866. A rushed or flawed implementation of WHTI could 
potentially have economically devastating effects on Northern Border 
communities. Therefore, any final regulations must be based on the best 
available economic and technical information.
    To ensure that WHTI is implemented with the fewest negative 
repercussions possible and in as practical way as possible, Congress 
must step-in. That is why Representatives Slaughter and John McHugh 
introduced the Protecting American Commerce and Travel Act (PACT ACT). 
We believe this legislation would better ensure that WHTI secures our 
borders without unintentionally freezing cross-border tourism and 
trade.
    To make the regulations more manageable for our constituents, the 
PACT ACT would require DHS to complete at least one pilot program to 
determine if an enhanced driver's license can be designed to meet WHTI 
standards. While DHS has agreed to conduct such a project with the 
State of Washington, WHTI is currently scheduled to be implemented long 
before the pilot project has been completed. This bill would prohibit 
DHS from issuing a final rule and fully implementing WHTI until a pilot 
project is completed.
    The PACT ACT would reduce the cost of the PASS Card, which is to be 
the low-cost alternative to obtaining a $97 passport, to $20. In 
addition, it would require DHS and State to complete a cost-benefit 
analysis as well as develop a public promotion campaign to inform 
constituents about the new WHTI regulations.
    As the Committee continues to work on the proper implementation of 
WHTI, we respectively ask that you bring the PACT ACT to the House 
floor for a vote.
    Thank you again Chairman Thompson and Ranking Member King for 
providing us the opportunity today to share our concerns on behalf of 
the Northern Border communities throughout the United States.


                            A P P E N D I X

                              ----------                              


Questions from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

                       Responses from Ann Barrett

    Question 1.: What are the anticipated similarities and differences, 
including security features, between the proposed PASS Card and the 
NEXUS, SENTRI, and Border Crossing Cards?
    Response: The Department of State is developing a Passport Card in 
response to concerns of the border resident communities for a more 
portable and less expensive alternative to the traditional passport 
book. This passport card, designed for use at land and sea ports of 
entry only will be adjudicated to the same standards as a traditional 
passport book. It will have the same validity period as a passport 
book: 10 years for an adult, five for children 15 and younger.
    Even though the card is a wallet-sized travel document, which does 
not offer as many opportunities to embed security features as a 
passport book, the Department will be using laser engraving and 
multiple overt and covert state-of-the-art security features to 
mitigate against the possibility of counterfeiting and forgery. While 
no document is tamper proof, we are taking every care to ensure that 
this Passport Card is as secure as current technology permits. To meet 
the operational needs of DHS at ports-of-entry, the passport card will 
contain vicinity-read radio frequency identification (RFID) RFID chip 
will serve to link the card using a manufacturer-generated reference 
number to a stored record in secure government databases. There will be 
no personal information written to the RFID chip itself. The Department 
is taking every measure to address the privacy concerns of American 
citizens traveling with a Passport Card.
    The Department of State will begin producing and issuing the next 
generation of Border Crossing Cards (BCC) for Mexican citizens in FY 
2008 as part of the BCC renewal program and will use the passport card 
as a model. The new BCC will have different artwork design it as a BCC 
to distinguish if the passport card but will use the same vicinity 
Radio Frequency Identification (RFID) technology as the passport card.
    The NEXUS and SENTRI cards, issued under trusted traveler program, 
currently utilize vicinity RFID technology. As is anticipated with the 
Passport card, the RFID chip in the DHS trusted traveler programs 
serves to link the card using a manufacturer-generated reference number 
to a stored record in secure government databases. There is no personal 
information written to the RFID chip itself DHS is in the process of 
developing and procuring the next generation of trusted traveler cards 
which are expected to contain a suite of security features similar to 
the Passport card to guard against We would refer you to DHS for 
details on the NEXUS and SENTRI card technologies.
    Question 2.: What efforts has the Department of State made to 
ensure Canada is consulted about WHTI implementation?
    Response: Both the Departments of State and Homeland security have 
been and will continue to work closely with Canadian authorities, 
especially the Canadian Border Services Agency (CBSA), to address their 
concerns and find mutually acceptable solutions to issues surrounding 
WHTI implementation. We and DHS participate in a monthly working group 
with CBSA and maintain frequent contact with various elements of the 
Canadian government in Ottawa and through their embassy in Washington, 
DC, to discuss policy and operational issues of WHTI. The provinces of 
British Columbia, Quebec, Manitoba, and Ontario have expressed an 
interest in developing an ``enhanced'' driver's license that will be 
WHTI-compliant as a solution for Canadian citizens, similar to the 
``enhanced' driver's license pilot program which DHS is currently 
conducting with the state of Washington.
    Question 3.: What efforts has the Department of State made to 
ensure state and local stakeholders are consulted about WHTI 
implementation and that deadlines are discussed?
    Response: We and DHS that WHTI represents a significant change to 
travel behavior and are committed to implementing WHTI in a manner that 
not only enhances our border security but also facilitates legitimate 
travel. We have and will continue to work aggressively with the 
stakeholders in the private sector, particularly in the aviation and 
travel and tourism industries, to inform the traveling public so that 
they are aware of the new and so that they will be able to apply for 
their passports in time to comply with the rules. They in turn have 
been very pro-active in keeping their clientele properly informed of 
the upcoming deadlines. Through our embassies and consulates in Canada, 
Mexico, and the Caribbean, our Public Affairs Offices and consular 
sections work closely with host country media and stakeholders to 
inform the traveling public, particularly in Canada, of the new 
requirements. Their efforts were reflected in the unprecedented demand 
for passports for Canadian citizens so that they could comply with the 
new air travel requirements.
    We and DHS have issued four Notices of Proposed Rule Making since 
the inception of the WHTI to solicit public comment on various aspects 
of implementation. We and our colleagues at DHS will continue to work 
with the private sector stakeholders and congressional delegations to 
keep the public informed of developments as we move toward implementing 
the land and sea phase in 2008.

    Question 4.: How many non-federal employees, including contractors, 
has the Department of State hired to meet the increased demand for 
passports? In meeting the increased demand of passports, what are the 
differences in the costs to the Department of State between the hiring 
of federal employees and contract employees?
    Response: The Department began planning for increased passport 
demand when Congress passed the Intelligence Reform and Terrorism 
Prevention Act (IRTPA) in December of 2004. We built capacity to meet 
projected demand, adding staff, expanding facilities, and enhancing 
service. We hired over 2,500 employees in Passport Services in less 
than three years--passport adjudicators, prevention managers, line 
supervisors, and the contractors who perform critical non-adjudicative 
functions, such as data entry, book print and quality control, at our 
passport agencies.
    Over the past three years, we have more than doubled our contract 
staff; as of September 30, we have 1617 In FY 2007 alone, we hired a 
total of 622 contract personnel. Since April 2007, our contract 
partners at our call center and book production center has hired 1048 
personnel in support of our efforts to provide timely and accurate 
passport services to American citizens. Attrition takes its toll, so we 
are virtually always hiring.
    The use of contract personnel to perform functions is cost-
effective. For FY 2008, total annual compensation including salary and 
benefits for a typical federal government employee costs the Department 
approximately $100,000 and for a typical contract employee 
approximately $60,000. Thus we save average of $40,000 per employee 
annually exclusive of contract administrative costs.

    Question 5.: What are the differences in benefits received, if any, 
between the Department of State employees and contract employees that 
are working to meet the increased demand for passports?
    Response: The major difference is that the contract employer 
provides the benefits for its employees; the Department of State 
provides the benefits for its hire government employees. The typical 
contract employee receives benefits commensurate with those received by 
Department employees: paid holidays; paid time off; and health and 
welfare benefits, such as medical, dental, life and disability 
insurance, or in-lieu-of those benefits. Hourly employees of our 
current vendor receive the following benefits, which in the aggregate 
complies with Department of Labor Wage Determination and Service 
Contract Act requirements.
        <bullet> Health Insurance, including prescription drug benefit
        <bullet> Dental Insurance
        <bullet> Short-Term Disability
        <bullet> Long-Term Disability
        <bullet> Other Paid Leave
        <bullet> Employee Stock Ownership Plan
        <bullet> 401(k) (matching employer contribution for employees 
        with one or more years of qualified service)
        <bullet> Flexible Spending Accounts
        <bullet> Life and Accidental Death and Dismemberment Insurance
        <bullet> Paid Time Off (PTO)
        <bullet> Holiday Pay
        <bullet> State Department Federal Credit Union
        <bullet> 529 College Savings Plan
        <bullet> Employee Assistance Plan

Questions from the Honorable Bennie G. Thompson, chairman Committee on 
                           Homeland Security

                     Responses from Robert Jacksta

    Question 1.: What measures is the Department undertaking to address 
security concerns and to implement WHTI at smaller or less traversed 
land ports of entry?
    Response: The implementation of WHTI will take place at all land 
border ports of entry, large and small. The only difference between the 
39 highest-volume ports, which account for 95% of land border 
crossings, and the remaining less-traveled ports of entry is that at 
this time it is anticipated that the smaller ports will not have RFID 
readers and new License Plate Readers installed. This difference does 
not affect the overall security of the inspectional process, but is 
done because the low traffic volumes at the smaller ports allow the 
Primary Officers to enter document data using either Machine Readable 
Zone (MRZ) or manual input without compromising safety or security.
    All ports currently have MRZ document readers at the primary 
inspection booth. CBP will train all Officers in the requirements of 
WHTI, RFID readers and the use of the new primary application, ensuring 
uniform security and processing at all ports.

    Question 2.: Of all land ports of entry, how many will have the 
technology in place to read and/or scan the proposed PASS Card by 
spring 2008, the anticipated release date of the card?
    Response:
    All vehicle land border primary booths currently have the 
technology to read the Machine Readable Zone included in the Passport 
Card.
    CBP is in the process of awarding a contract for the installation 
of infrastructure and technology to read vicinity RFID enabled travel 
documents, such as the Passport Card, in vehicle primary lanes at land 
borders.
    Based upon available funding, vendor proposals, evaluation and 
contract award, DHS anticipates that by 2008 the technology and 
infrastructure to read vicinity RFID enabled Passport Cards will be 
installed at 13 land border ports of entry, encompassing 237 vehicle 
lanes at 28 separate crossing facilities. This accounts for 65% of the 
annual land border volume. DHS will upgrade more crossings as 
expeditiously as possible if funds allow based on contract proposals. 
The contract will be awarded in September 2007. By Spring 2008 DHS 
anticipates that technology and infrastructure to read vicinity RFID 
enabled Passport Cards will be installed at a minimum of three land 
ports of entry, consisting of separate five land border crossing 
facilities.
    The installation of this RFID technology is in addition to CBP's 
current capability to manually input the information contained in the 
proposed Passport Card and to read these cards using Machine Readable 
Zone technology. All vehicle land border primary booths currently have 
OCR-B document swipe readers installed that are capable of reading the 
Machine Readable Zone of passports and other travel documents. This 
reader will still be available in the booth, since it is needed to read 
a wide variety of travel documents that utilize OCR-B technology. OCR-B 
is a technology that will also be available on the proposed Passport 
Card.

    Question 3.: The Department has indicated that it will use RFID 
technology to read the proposed PASS cards. What measures will the 
Department implement to address any potential privacy vulnerabilities 
in the RFID technology?
    Response: To mitigate potential privacy vulnerabilities, the most 
secure implementation of any technology incorporates a layered 
approach. In this case, individual privacy will be protected through a 
combination of storing no personal information on the card itself, the 
use of a protective sleeve, encrypted networks, secure data storage 
facilities, limited data access and public education.
    The vicinity RFID technology proposed for the Passport Card uses a 
unique number to access data stored elsewhere; no personal 
identification information (PII) will be stored in the RFID chip 
itself. The design of the system architecture further protects personal 
privacy by storing PII data on secure storage devices at secure 
locations, with access via encrypted networks for display to the CBP 
Officer on a need to know basis and only in the course of official 
duties.
    In addition, the Department of State (DOS) will issue an 
attenuating sleeve (or Faraday Cage) with each Passport Card. An 
attenuating sleeve shields the card to prevent unauthorized reading of 
the chip. DHS and DOS also propose to educate the public in the proper 
use and storage of RFID tags.

    Question: To meet the increased demand in passports, the Department 
of State has begun an aggressive campaign to hire additional personnel 
to process applications. What additional staff does Customs and Border 
Protection (CBP) anticipate needing to meet any estimated increases in 
border crossers under WHTI? Will CBP need personnel above statutorily 
authorized levels?
    Response: For FY 2008, the President's budget request included 205 
additional Positions and $252.5 million to implement WHTI at 225 
inbound lanes at the top 13 ports of entry by volume. In preparation 
for the implementation of the Western Hemisphere Travel Initiative 
(WHTI), and to mitigate any potential surge in the anticipated increase 
of trusted traveler enrollments, additional CBP Officers will be 
strategically deployed across trusted traveler enrollment centers and 
land border field locations in FY 2008.
    The deployment of 205 CBP Officers will be focused on current and 
proposed trusted traveler enrollment centers as well as land border 
secondary locations where increases in secondary referrals are expected 
once WHTI is implemented.

    Question: How often and what type of training do Customs and Border 
Protection officers undergo to identify fraudulent travel documents at 
the ports of entry?
    Response: The identification of fraudulent travel documents is a 
constant element in the training received by a CBP Officer (CBPO), 
beginning with formal training at the CBP Training Academy and 
continuing throughout the officer's career.
    As part of the Office of Field Operations Pre-Academy Training, new 
CBPOs are required to complete 16 hours of training in identifying 
fraudulent documents, detecting impostors, and identifying suspicious 
behavior. After graduating from the Academy, new Officers are required 
to receive an additional eight hours of formal training in their 
immediate post-Academy on-the-job training at their home ports.
    Of the many additional courses offered, almost all offer strong 
elements of fraudulent document identification, some of which are:
        <bullet> Basic Admissibility Secondary Processing
        <bullet> Counter-Terrorism Response Rover Training
        <bullet> Anti-Terrorism Contraband Enforcement Team Training
    All formal training material on fraudulent documents is constantly 
reviewed and updated based on input from the field and from the CBP 
Fraudulent Document Analysis Unit (FDAU), working in concert with the 
ICE Forensic Documents Lab (FDL). In 2006 the FDAU examined more than 
34,000 fraudulent documents that were confiscated at ports of entry and 
mail facilities.
    Daily musters are held at ports of entry, and new information from 
the FDAU (and other sources) on fraudulent documentation trends and 
methods is presented to Officers at these musters. In addition to daily 
musters many ports also develop their own port-specific training, which 
can include refresher training on fraudulent document detection.
    To further strengthen fraudulent documentation identification at 
the port level CBP has deployed advanced document examination 
workstations at 11 major ports of entry. The VSC-5000 workstation 
contains a comprehensive digital imaging system with an advanced 
capability for detecting irregularities on altered and counterfeit 
documents.

Questions from the Honorable Bennie G. Thompson, Committee on Homeland 
                                Security

                    Responses from Paul J. Koessler

    Question 1.: With respect to the many existing and new travel 
document that may be acceptable under WHTI, do you believe federal 
resources should be invested in making current technology and cards 
more robust or in facilitating the creation of completely new travel 
documents?
    Response: Current technology and existing cards, particularly 
drivers' licenses, should be made more robust and secure. Creating new 
travel documents will only confuse the traveling public.

    Question 2.: Do you agree with the cost estimates of WHTI 
identified in the Notice of Proposed Rulemaking?: If no, please explain 
you cost estimates.
    Response: No, the estimates are far too low. For example, a 25% 
decline in cross border traffic will reduce the bonding capacity just 
of the Peace Bridge by $50 million. there would be a similar impact for 
all other crossings.

    Question 3.: What do you believe will be the immediate and long 
term economic effects of WHTI on the Buffalo region?
    Response: There will be an immediate and long term decline in 
visitation from Canada to Buffalo seriously affecting the tourism/
hospitality sectors, cultural and sports institutions. Further, Buffalo 
is part of the binational Niagara Falls tourist region attracting 
visitors from all over the United States. The inability of Americans to 
visit Canada without a passport will reduce the attractiveness of 
region resulting in further visitation declines.

    Question 4.: How can the Departments of State and Homeland Security 
Improve their WHTI outreach efforts?
    Response: Better market the existing NEXUS program. Promotion of 
this program is currently non-existent. DHS needs to work together with 
stakeholders in joint marketing/promotion programs.

Questions from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

                     Responses from Paul Rosenzweig

    Question 1.: What are the benefits of implementing WHTI in phases, 
beginning with the transition phase proposed to begin January 31, 2008?
    Response: Instituting a travel document requirement at the land and 
sea ports of entry is a crucial and major change for our border 
communities and those who cross the land borders frequently. A phased 
approach allows DHS to meet the coming challenge in a way that balances 
security and facilitation. It is a sensible and practical approach to 
this complex and critical security enhancement. DHS proposes to end the 
practice of accepting oral declarations of citizenship alone at our 
land and sea ports of entry on January 31,2008. United States and 
Canadian citizens will be required to carry a WHTI-compliant document 
or government-issued photo identification (such as a driver's license) 
and proof of citizenship (such as a birth certificate). will continue 
to exercise flexibility in the processing of certain travelers based 
upon unique and exigent circumstances. will take a phased, deliberate 
approach to implementation of WHTI. The transition period will ensure 
that citizens of the United States and Canada will be able to obtain 
the documents necessary to comply with WHTI. This implementation will 
provide United States and Canadian citizens sufficient time to become 
accustomed to these new documentation requirements at our land and sea 
borders, and time to obtain travel documents, such as a passport, a 
passport card, to be issued by the Department of State, or an Enhanced 
Driver's License to be issued by the state departments of motor 
vehicles. The Department of State has developed an ambitious and 
aggressive schedule to begin issuing the Passport Card to the public as 
soon as possible in 2008. In March 2007, DHS and the State of 
Washington signed a Memorandum of Agreement to commence an EDL project. 
Washington is on track to issue the first EDL in January, 2008.

    Question 2.: What efforts has the Department of Homeland Security 
taken to ensure the general public is made aware of the various 
requirements of and acceptable documents for WHTI?
    Response: The Department of Homeland Security (DHS) has closely 
coordinated messaging and public outreach activities with the 
Department of State to help leverage resources and ensure consistent 
messaging throughout the implementation of WHTI. DHS spokespersons have 
participated in hundreds of media interviews, grassroots outreach 
events, travel and tourism conferences, passport fairs and other 
educational forums to inform affected travelers and groups about the 
new requirements. CBP produced and distributed informational tear 
sheets describing the documentary requirements to travelers arriving at 
airports. These public education efforts for the air rollout were 
particularly successful. As a result of close coordination with federal 
government partners, private sector travel, tourism industry and the 
air carriers, 99 percent of U.S. citizens and affected international 
travelers have complied with this new requirement.
    During the ongoing land and sea rulemaking process, the agencies 
continue to take a proactive approach to educating the traveling 
public, particularly border community residents. This includes 
promoting Trusted Traveler Program documents as acceptable and secure 
WHTI-compliant documents. CBP is procuring a public relations firm to 
assist in developing a strategic communication plan, and to conduct a 
multi-faceted campaign for implementation of WHTI in the land and sea 
environment.
    Just as important to the efforts of the United States Government 
efforts to encourage public adoption of WHTI is the efforts of the 
Canadian Government to encourage their own citizens to obtain 
passports. To that end DHS and the administration as a whole are 
working with the Canadian Government to ensure their close cooperation 
and understanding of the looming deadlines.

    Question 3.: According to the Notice of Proposed Rule Making for 
WHTI, several Canadian provinces have expressed interest in pursuing 
pilots that would allow enhanced driver's licenses to be accepted under 
WHTI. What are the Department's current efforts to accept enhanced 
driver's licenses, including enhanced Canadian driver's licenses, under 
WHTI?
    Response: DHS has extensive efforts underway to support States in 
developing enhanced drivers licenses (EDL) that would be accepted under 
WHTI. In March 2007, DHS and the State of Washington signed a 
Memorandum of Agreement to commence an EDL project. Washington is on 
track to issue the first EDL in January 2008.
    Several other States, including Texas, Arizona, New York, Michigan, 
Vermont and California, have expressed interest in developing similar 
projects. In August, 2007, Vermont and Arizona committed to producing 
issuing joint press releases with DHS. The Washington, Arizona and 
Vermont EDL projects provide an example for other States as to the 
process and the partnership DHS offers. DHS has provided key documents 
from the Washington State project to interested States and gone over 
those documents at great detail to ensure States are clear on the 
requirements.
    DHS has met extensively with its Canadian counterparts and with 
provincial leaders regarding documenting Canadian citizens for WHTI 
implementation. Canadian Border Services Administration has met with 
all of the provinces to gauge their interest in Enhanced Driver's 
Licenses. British Columbia has a draft business plan regarding Enhanced 
Driver's Licenses. DHS has reviewed and commented on the plan and will 
continue to meet with both CBSA and the Provinces. Ontario is also 
moving forward on its project.

    Question 4.: In the Notice of Proposed Rule Making for WHTI, the 
Department estimates the government costs of implementation to be 
roughly $100 million annually. What do the government costs include and 
what part of the $100 million does each cost make up?
    Response: WHTI requires that approved travel documents be carried 
and produced at all ports of entry to provide information to verify the 
identity and citizenship of all travelers seeking to enter the United 
States. In order to implement this mandated requirement efficiently and 
effectively, which means to minimize wait time at the border and 
facilitate individual processing at vehicle primary, it is necessary to 
upgrade the technical tools available to the CBP Officers to process 
all travelers. The enhancements to the land border management system 
include advanced information and a person-centric Vehicle Primary 
Client application via the use of vicinity RFID technology. Vicinity 
RFID technology will access keys encrypted in WID-enabled documents to 
extract traveler information from secure databases and pre-position the 
data for the CBP Officers. The costs to CBP of fully implementing WID-
enabled infrastructure can be classified into three broad categories: 
facility construction, information technology, and personnel.

Facility Construction
        <bullet> Install or upgrade physical infrastructure to allow 
        RFID readers and workstations to be installed in vehicle lanes
        <bullet> CBP estimates that $95.1 million of the $252 million, 
        as requested in the President's 2008 budget, will install/
        upgrade infrastructure in 297 lanes.

        <bullet> Information Technology
        <bullet> Install or upgrade RFID technology to process passport 
        cards
        <bullet> Develop common Vehicle Primary Client application for 
        all land ports-of-entry
        <bullet> CBP estimates that $78.7 million of the $252 million, 
        requested in the President's 2008 budget, will install/upgrade 
        RFID technology in 297 lanes.
        <bullet> CBP estimates that $22.5 million of the $252 million, 
        requested in the President's 2008 budget, will deploy the 
        Vehicle Primary Processing application.

Personnel
        <bullet> Hire new CBP Officers for anticipated increase in 
        secondary inspections
        <bullet> Train and support CBP Officers in use of new 
        technology
        <bullet> Manage budgets and oversee contracts
        <bullet> CBP estimates that $23.7 million of the $252 million, 
        requested in the President's 2008 budget, will hire 205 
        personnel.

    CBP estimates that $32.5 million of the $252 million requested in 
the President's 2008 budget will provide Program Management (PMO) 
oversight to establish the framework necessary to manage this major 
investment initiative following standard program management protocols. 
The PMO costs include contractor support, systems support (security, 
help desk, etc.), communications and a major public relations campaign.

    Question: In light of concerns about child abductions across our 
borders, what is the Department of Homeland Security proposing to 
ensure children are being transported across the border with parental 
consent?
    Response: DHS takes the issue of child abduction very seriously and 
has procedures in place for CBP officers to follow where they suspect a 
child is entering or departing the United States under duress. CBP 
plays an important role in protecting children at our borders through 
the AMBER Alert system, work with ``Missing and Exploited Children's'' 
organizations, and screening of adults traveling with children through 
our ports of entry. Single parents and others traveling with children 
have certain documentary requirements to satisfy officers of an adult's 
right to be traveling with that child across the border. Documentary 
requirements are outlined on CBP.gov. Although presentation of written 
parental consent for children entering the United States is being 
considered, CBP has numerous concerns surrounding the integrity 
associated with a hand-written letter, as well as the ability of CBP to 
authenticate and enforce it. CBP does not have separate policies or 
procedures regarding the examination and inspection of children at this 
time. However, CBP scrutinizes very closely adults traveling with 
children to determine that a legitimate adult-child relationship exists 
and that the child is a bona fide applicant to the United States and 
not endangered in any way. It is anticipated that once the true 
benefits of facilitation are realized, children will possess 
facilitative WHTI-compliant documents. The biographic information 
recorded under WHTI will supplement existing, proven enforcement 
efforts to detect and prevent the unlawful transportation into the 
United States of abducted or trafficked children.

                                 <all>

</pre></body></html>
